<html>
<title> - FULL STEAM AHEAD FOR RAIL: WHY RAIL IS MORE RELEVANT THAN EVER FOR ECONOMIC AND ENVIRONMENTAL PROGRESS</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]




 
  FULL STEAM AHEAD FOR RAIL: WHY RAIL IS MORE RELEVANT THAN EVER FOR 
                  ECONOMIC AND ENVIRONMENTAL PROGRESS

=======================================================================

                                (117-6)

                             REMOTE HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON RAILROADS, PIPELINES,
                        AND HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 10, 2021

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            
 


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                             
                             
                           ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
 44-661 PDF            WASHINGTON : 2021                             
                             
                             
                             

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              STEVE COHEN, Tennessee
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
JOHN KATKO, New York                 HENRY C. ``HANK'' JOHNSON, Jr., 
BRIAN BABIN, Texas                   Georgia
GARRET GRAVES, Louisiana             ANDRE CARSON, Indiana
DAVID ROUZER, North Carolina         DINA TITUS, Nevada
MIKE BOST, Illinois                  SEAN PATRICK MALONEY, New York
RANDY K. WEBER, Sr., Texas           JARED HUFFMAN, California
DOUG LaMALFA, California             JULIA BROWNLEY, California
BRUCE WESTERMAN, Arkansas            FREDERICA S. WILSON, Florida
BRIAN J. MAST, Florida               DONALD M. PAYNE, Jr., New Jersey
MIKE GALLAGHER, Wisconsin            ALAN S. LOWENTHAL, California
BRIAN K. FITZPATRICK, Pennsylvania   MARK DeSAULNIER, California
JENNIFFER GONZALEZ-COLON,            STEPHEN F. LYNCH, Massachusetts
  Puerto Rico                        SALUD O. CARBAJAL, California
TROY BALDERSON, Ohio                 ANTHONY G. BROWN, Maryland
PETE STAUBER, Minnesota              TOM MALINOWSKI, New Jersey
TIM BURCHETT, Tennessee              GREG STANTON, Arizona
DUSTY JOHNSON, South Dakota          COLIN Z. ALLRED, Texas
JEFFERSON VAN DREW, New Jersey       SHARICE DAVIDS, Kansas, Vice Chair
MICHAEL GUEST, Mississippi           JESUS G. ``CHUY'' GARCIA, Illinois
TROY E. NEHLS, Texas                 ANTONIO DELGADO, New York
NANCY MACE, South Carolina           CHRIS PAPPAS, New Hampshire
NICOLE MALLIOTAKIS, New York         CONOR LAMB, Pennsylvania
BETH VAN DUYNE, Texas                SETH MOULTON, Massachusetts
CARLOS A. GIMENEZ, Florida           JAKE AUCHINCLOSS, Massachusetts
MICHELLE STEEL, California           CAROLYN BOURDEAUX, Georgia
                                     KAIALI`I KAHELE, Hawaii
                                     MARILYN STRICKLAND, Washington
                                     NIKEMA WILLIAMS, Georgia
                                     MARIE NEWMAN, Illinois
                                     Vacancy


     Subcommittee on Railroads, Pipelines, and Hazardous Materials

DONALD M. PAYNE, Jr., New Jersey, 
               Chair
ERIC A. ``RICK'' CRAWFORD, Arkansas  TOM MALINOWSKI, New Jersey
SCOTT PERRY, Pennsylvania            SETH MOULTON, Massachusetts
RODNEY DAVIS, Illinois               MARIE NEWMAN, Illinois
MIKE BOST, Illinois                  STEVE COHEN, Tennessee
RANDY K. WEBER, Sr., Texas           ALBIO SIRES, New Jersey
DOUG LaMALFA, California             ANDRE CARSON, Indiana
BRUCE WESTERMAN, Arkansas            FREDERICA S. WILSON, Florida
BRIAN K. FITZPATRICK, Pennsylvania   JESUS G. ``CHUY'' GARCIA, Illinois
TROY BALDERSON, Ohio                 MARILYN STRICKLAND, Washington
PETE STAUBER, Minnesota              GRACE F. NAPOLITANO, California
TIM BURCHETT, Tennessee              HENRY C. ``HANK'' JOHNSON, Jr., 
DUSTY JOHNSON, South Dakota          Georgia
TROY E. NEHLS, Texas                 DINA TITUS, Nevada
MICHELLE STEEL, California           JARED HUFFMAN, California
SAM GRAVES, Missouri (Ex Officio)    STEPHEN F. LYNCH, Massachusetts
                                     JAKE AUCHINCLOSS, Massachusetts
                                     Vacancy
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)
                                     
                                     
                                     
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Donald M. Payne, Jr., a Representative in Congress from the 
  State of New Jersey, and Chair, Subcommittee on Railroads, 
  Pipelines, and Hazardous Materials:
    Opening statement............................................     1
    Prepared statement...........................................     3

Hon. Eric A. ``Rick'' Crawford, a Representative in Congress from 
  the State of Arkansas, and Ranking Member, Subcommittee on 
  Railroads, Pipelines, and Hazardous Materials:
    Opening statement............................................     4
    Prepared statement...........................................     4

Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure:
    Opening statement............................................     5
    Prepared statement...........................................     6

Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, prepared statement.............................    73

                               WITNESSES

Shannon Valentine, Secretary of Transportation, Commonwealth of 
  Virginia:
    Oral statement...............................................     7
    Prepared statement...........................................     9

Caren Kraska, President and Chairman, Arkansas and Missouri 
  Railroad, on behalf of the American Short Line and Regional 
  Railroad Association:
    Oral statement...............................................    15
    Prepared statement...........................................    17

Greg Regan, President, Transportation Trades Department, AFL-CIO:
    Oral statement...............................................    25
    Prepared statement...........................................    26

Tom G. Williams, Group Vice President, Consumer Products, BNSF 
  Railway Company:
    Oral statement...............................................    30
    Prepared statement...........................................    32

                       SUBMISSIONS FOR THE RECORD

Submissions for the Record by Hon. Donald M. Payne, Jr.:
    Statement of the Conference of Minority Transportation 
      Officials..................................................    73
    Statement of John C. Hellmann, Chief Executive Officer, 
      Genesee & Wyoming Inc......................................    75

Submissions for the Record by Hon. Peter A. DeFazio:
    Statement of William J. Flynn, Chief Executive Officer, 
      National Railroad Passenger Corporation (Amtrak)...........    76
    Report entitled ``Freight Railroads and Climate Change,'' by 
      the Association of American Railroads, March 2021..........    82
    Statement of Nicole Brewin, Senior Vice President of 
      Government and Public Affairs, Railway Supply Institute....    89
    Statement of Arun Rao, Chair, States for Passenger Rail 
      Coalition, Inc. and Passenger Rail Manager, Wisconsin 
      Department of Transportation, Railroads and Harbors Section    92

Submissions for the Record by Hon. Seth Moulton:
    White paper entitled, ``American High-Speed Rail and 
      Rebuilding the U.S. Economy,'' by the Office of Hon. Seth 
      Moulton....................................................    94
    Article entitled, ``Nine key takeaways from the Globe's 
      `Blind Spot' investigation,'' by Matt Rocheleau, Vernal 
      Coleman, Evan Allen, Laura Crimaldi, and Brendan McCarthy, 
      Boston Globe, updated August 25, 2020......................   112

Requests for Information During Hearing, and Responses from Caren 
  Kraska, President and Chairman, Arkansas and Missouri Railroad, 
  on behalf of the American Short Line and Regional Railroad 
  Association....................................................   114

                                APPENDIX

Questions to Shannon Valentine, Secretary of Transportation, 
  Commonwealth of Virginia, from:
    Hon. Donald M. Payne, Jr.....................................   117
    Hon. Seth Moulton............................................   117
    Hon. Scott Perry.............................................   119

Questions to Greg Regan, President, Transportation Trades 
  Department, AFL-CIO, from:
    Hon. Seth Moulton............................................   121
    Hon. Scott Perry.............................................   121

Questions from Hon. Greg Stanton to Tom G. Williams, Group Vice 
  President, Consumer Products, BNSF Railway Company.............   122
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                             March 5, 2021

    SUMMARY OF SUBJECT MATTER

    TO:       Members, Subcommittee on Railroads, Pipelines, 
and Hazardous Materials
    FROM:   Staff, Subcommittee on Railroads, Pipelines, and 
Hazardous Materials
    RE:       Subcommittee Hearing on ``Full Steam Ahead for 
Rail: Why Rail is More Relevant Than Ever for Economic and 
Environmental Progress''



                                PURPOSE

    The Subcommittee on Railroads, Pipelines, and Hazardous 
Materials will meet on Wednesday, March 10, 2021, at 11:00 a.m. 
EST in 2167 Rayburn House Office Building and via Cisco Webex 
to hold a hearing titled ``Full Steam Ahead for Rail: Why Rail 
is More Relevant Than Ever for Economic and Environmental 
Progress.'' The hearing will explore the importance of rail to 
the U.S. economy and as a tool to mitigate climate change. The 
Subcommittee will hear testimony from BNSF Railway; the 
Virginia Department of Transportation (VDOT); the 
Transportation Trades Department, AFL-CIO; and the Arkansas & 
Missouri Railroad (A&M).

                               BACKGROUND

    For the United States to maintain and increase its economic 
viability while decreasing overall greenhouse gas (GHG) 
emissions, rail transportation has the potential to be an 
important part of the solution. Expanding the use of freight 
and passenger rail can increase mobility, reduce road 
congestion, mitigate climate change, sustain good-paying jobs, 
and enhance our economic competitiveness.

FREIGHT MOVEMENT

    America's freight railroads operate over a 140,000-mile 
national network, delivering on average five million tons of 
goods every day.\1\ In 2019, the rail network accounted for 
approximately 28 percent of U.S. freight movement by ton-miles 
(the length and weight freight travels), surpassed only by 
trucks.\2\ Freight railroads are classified in accordance with 
their annual operating revenues. There are seven Class I 
railroads, which collectively provide long-haul operations in 
44 states and Washington, D.C.,\3\ and transport nearly 69 
percent of U.S. freight rail mileage.\4\ Class II railroads 
(``regional railroads'') and Class III railroads (``short 
lines'') transport the remainder of U.S. freight rail mileage 
and operate 38 percent of the Nation's rail network.\5\ Short 
lines are often the only way rural America can connect to the 
rest of the national freight network--playing an important role 
in providing first-mile and last-mile service that extends the 
reach of the rail network to urban and rural communities, 
ports, manufacturers, farmers, and others.\6\
---------------------------------------------------------------------------
    \1\ Association of American Railroads, ``Overview of America's 
Freight Railroads,'' March 2020.
    \2\ DOT, Pocket Guide to Transportation, January 2019, Accessed 
Mar. 3, 2020, available at https://www.bts.gov/sites/bts.dot.gov/files/
docs/browse-statistical-products-and-data/pocket-guide-transportation/
224731/pocket-guide-2019.pdf.
    \3\ The seven Class I railroads include Burlington Northern Santa 
Fe Railway (BNSF); Union Pacific Railroad (UP); Norfolk Southern 
Railway (NS); CSX Transportation; Canadian National Railway (CN); 
Canadian Pacific Railway (CP); and Kansas City Southern (KCS).
    \4\ Association of American Railroads, ``Railroad 101'', available 
at https://www.aar.org/railroad-101.
    \5\ American Short Line and Regional Railroad Association, ``The 
Short Line and Regional Railroad Industry'', available at https://
www.aslrra.org/web/About/Industry_Facts/web/About/
Industry_Facts.aspx?hkey=bd7c0cd1-4a93-4230-a0c2-c03fab0135e2.
    \6\ Id.
---------------------------------------------------------------------------

PASSENGER MOVEMENT

    Amtrak operates a national rail passenger transportation 
system, which includes the Northeast Corridor (NEC), long-
distance routes, and state-supported routes.\7\ To provide 
national passenger rail service, in typical non-pandemic 
environments, Amtrak runs more than 300 trains per day, 
services more than 500 stations located in 46 states and 
Washington, D.C., and operates a network that stretches more 
than 21,000 miles across the country.\8\ Of all Amtrak 
passenger trips in 2019, approximately 38 percent were taken on 
the NEC; 48 percent on state-supported routes; and 14 percent 
on long-distance routes.\9\ Further, in fiscal year 2019, 
Amtrak carried 32,519,241 customers and brought in a total 
annual revenue of $3.3 billion.\10\ In 2020, the COVID-19 
pandemic decreased Amtrak's ridership numbers. Nonetheless, 
Amtrak continues to push for the long-term future of passenger 
rail, with proposals for expanded service across the 
country.\11\
---------------------------------------------------------------------------
    \7\ 49 U.S.C. Sec.  24102.
    \8\ Amtrak, FY 2019 Year End Ridership, available athttp://
media.amtrak.com/wp-content/uploads/2019/11/FY19-Year-End-
Ridership.pdf.
    \9\ Id.
    \10\ Id.
    \11\ Anderson, Eric. ``Amtrak route restructure targets new 
corridors.'' Times Union. February 5, 2021, available at https://
www.timesunion.com/business/article/Amtrak-route-restructure-targets-
new-corridors-15928591.php.
---------------------------------------------------------------------------

                       ECONOMIC BENEFITS OF RAIL

    As America's economy grows, the need to move more freight 
and passengers will grow too. The Federal Highway 
Administration forecasts that total U.S. freight shipments will 
increase 30 percent over the next 20 years.\12\ If the share of 
that freight that moves by rail stays steady or gains in 
comparison with other modes, then freight rail is poised for 
expansion. In fact, freight rail volumes have been resilient 
despite being affected by the COVID-19 pandemic. Overall 
volumes in 2020 were down by 12.9 percent for carloads and 1.8 
percent for intermodal units. However, by December freight 
volumes had improved compared to December 2019, where carloads 
were down by only 3.7 percent, and intermodal units were up by 
12.2 percent.\13\ Freight rail benefits both domestic and 
international economic viability: international trade accounts 
for around 35 percent of U.S. rail revenue, 27 percent of U.S. 
rail tonnage, and 42 percent of the carloads and intermodal 
units U.S. railroads carry.\14\ The affordability of freight 
rail saves rail customers (and, ultimately, American consumers) 
billions of dollars each year and enhances the global 
competitiveness of U.S. products.
---------------------------------------------------------------------------
    \12\ ``Freight Economy,'' United States Department of 
Transportation, Federal Highway Administration, available at https://
www.fhwa.dot.gov/freighteconomy/.
    \13\ ``AAR: `Railroads Looking to the Future,' '' Railway Age, 
January 2021, available at https://www.railwayage.com/freight/class-i/
aar-railroads-looking-to-the-future/.
    \14\ Association of American Railroads, ``Railroad 101,'' Accessed 
March 2, 2021, available at https://www.aar.org/wp-content/uploads/
2020/08/AAR-Railroad-101-Freight-Railroads-Fact-Sheet.pdf.
---------------------------------------------------------------------------
    Freight rail customers range from large, multi-national 
corporations, to small-sized operations. They also vary in the 
commodities they ship, such as corn, wheat, and soybeans; 
fertilizers, and various chemicals; cement, sand, and crushed 
stone; lumber, pulp, and paper products; various food products; 
crude oil, coal, and other petroleum and energy products; and 
scrap recycling products, among others. The rail network plays 
a key role in intermodal operations, forming a vital piece of 
the international logistics chain along with vessels, trucking, 
and barges.
    In 2019, there were an average of approximately 138,000 
Class I railroad and Amtrak workers employed in the United 
States.\15\ Generally, workers employed by railroads earn 
strong wages and benefits when compared to non-railroad 
workers. For instance, in 2019, employees of Class I railroads 
earned on average approximately $132,900 per year when 
accounting for compensation and benefits.\16\ This is 
approximately 61 percent more than the average U.S. worker, 
according to the Association of American Railroads (AAR).\17\ 
Relatedly, the freight railroad industry remains one of the 
most densely unionized sectors, with approximately 84 percent 
of Class I rail employees represented by a labor union.\18\ 
This compares to a 10.8 percent unionization rate in the 
national economy.\19\
---------------------------------------------------------------------------
    \15\ Annual Employment Data (2015-2020), Surface Transportation 
Board, available at: https://www.stb.gov/econdata.nsf/
322683bcf67f4143852566210062ac90?OpenView.
    \16\ Association of American Railroads, accessed March 1, 2021, 
available at https://www.aar.org/issue/railroad-jobs/
    \17\ Id.
    \18\ Association of American Railroads, accessed March 1, 2021, 
available at https://www.aar.org/issue/railroad-jobs/
    \19\ U.S. Bureau of Labor Statistics, Union Members Summary, 
Economic News Release January 22, 2021, Accessed March 1, 2021, 
available at: https://www.bls.gov/news.release/union2.nr0.htm.
---------------------------------------------------------------------------
    While workers employed by railroads generally continue to 
earn strong wages and reliable benefits, the employment levels 
for Class I railroads and Amtrak have steadily decreased since 
2015. According to employment data maintained on the Surface 
Transportation Board's website,\20\ on an annual average, the 
Class I railroads employed an estimated 17 percent fewer 
employees in 2019 compared to 2015.\21\ Similarly, average 
annual Amtrak workforce levels dropped by an estimated 9 
percent in 2019 compared to 2015.\22\ The pandemic has further 
exasperated the labor reductions.
---------------------------------------------------------------------------
    \20\ Annual Employment Data (2015-2020), Surface Transportation 
Board, available at https://www.stb.gov/econdata.nsf/
322683bcf67f4143852566210062ac90?OpenView.
    \21\ Like all sectors of the economy, the freight railroads were 
impacted by the coronavirus pandemic. In 2020, average annual Class I 
employment levels were nearly 29 percent lower than those in 2015.
    \22\ Like all sectors of the economy, Amtrak ridership was impacted 
by the coronavirus pandemic. In 2020, average annual Amtrak employment 
levels were 14 percent lower in 2020 compared to 2015.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Investments in rail transportation generate economic 
benefits felt around the country. In 2017, the Class I 
railroads' operations and capital investments supported 
approximately 1.1 million jobs, $219 billion in economic 
output, and $71 billion in wages.\23\ Similarly, Amtrak and its 
passengers generate national economic activity, estimated at 
$8.3 billion annually.\24\ Amtrak's daily operations support 
more than 80,000 jobs, and when accounting for its indirect 
impacts, 100,000 jobs are supported by the Nation's passenger 
railroad.\25\
---------------------------------------------------------------------------
    \23\ Towson University Regional Economic Studies Institute, 
Association of American Railroads, https://www.aar.org/data/towson-
university-freight-rail-economic-impact/.
    \24\ Based on Fiscal Year 2015 data, Amtrak's Economic 
Contribution, page 2, available at https://www.amtrak.com/content/dam/
projects/dotcom/english/public/documents/corporate/nationalfactsheets/
Amtrak-Economic-Contribution-Brochure-083016.pdf.
    \25\ Id.
---------------------------------------------------------------------------

                     ENVIRONMENTAL BENEFITS OF RAIL

    According to the Environmental Protection Agency's (EPA) 
2018 inventory, the ``transportation sector generates the 
largest share of GHG emissions'' in the U.S., accounting for 
approximately 28 percent of total emissions.\26\ Of this 
amount, rail accounts for some of the lowest emissions 
contributions of all the modes at approximately 2 percent.\27\ 
On January 20, 2021, the U.S. re-started the process to join to 
the Paris Agreement and on February 19, 2021, officially 
rejoined.\28\ Further, with consumer-driven trends towards 
corporate climate and carbon accountability, various 
corporations have adopted corporate goals to achieve carbon 
neutrality (or ``net-zero'') by a date certain.\29\
---------------------------------------------------------------------------
    \26\ EPA's most recent GHG emissions inventory in 2018, the 
transportation sector surpassed the energy sector for the first time as 
the largest emitter of GHGs, available at https://www.epa.gov/
ghgemissions/sources-greenhouse-gas-emissions.
    \27\ Fast Facts, U.S. Transportation Sector Greenhouse Gas 
Emissions 1990-2018, June 2020, United States Environmental Protection 
Agency, accessed Mar. 3, 2020, available at https://nepis.epa.gov/Exe/
ZyPDF.cgi?Dockey=P100ZK4P.pdf
    \28\ Press Release, U.S. State Dep't., The United States Officially 
Rejoins the Paris Agreement, Feb. 19, 2021, available at https://
www.state.gov/the-united-states-officially-rejoins-the-paris-agreement/
; The Paris Agreement is an ambitious multi-lateral treaty, negotiated 
in 2015, in which countries commit to making the individual GHG 
reduction, contributions necessary to halt the overall rate of 
temperature increase. See:
    https://unfccc.int/process-and-meetings/the-paris-agreement/the-
paris-agreement.
    https://www.aar.org/wp-content/uploads/2021/02/AAR-Climate-Change-
Report.pdf
    \29\ Freight Railroads & Climate Change. February 2021, Page 3, 
available at https://www.aar.org/wp-content/uploads/2021/02/AAR-
Climate-Change-Report.pdf.
---------------------------------------------------------------------------
    Freight railroads account for 28 percent of freight volume 
but just 0.6 percent of total U.S. GHG emissions, according to 
EPA data, and just 2.1 percent of transportation-related GHG 
emissions.\30\ While the freight trucking industry was 
responsible for a total of 429 million tons of carbon dioxide 
in 2018, freight rail contributed only 38 million tons.\31\ 
U.S. freight railroads, on average, can move one ton of freight 
470 miles on a single gallon of fuel, which is three to four 
times more efficient than trucking.\32\ Given this, AAR 
estimates that moving freight by rail instead of trucks would 
reduce GHG emissions by up to 75 percent, on average.\33\ AAR 
also estimates that if 25 percent of long-distance (defined as 
trips of at least 750 miles) freight traffic currently moved by 
trucks were switched to rail, annual fuel savings would total 
1.2 billion gallons, and GHG emissions would be reduced by 
approximately 13.1 million tons.\34\
---------------------------------------------------------------------------
    \30\ ``Fast Facts on Transportation Greenhouse Gas Emissions,'' 
United States Environmental Protection Agency. Accessed March 2, 2021. 
available at https://www.epa.gov/greenvehicles/fast-facts-
transportation-greenhouse-gas-emissions.
    \31\ ``Freight Transportation Energy Use and Environmental 
Impacts.'' United States Department of Transportation, Bureau of 
Transportation Statistics, October, 2019, available at https://
data.bts.gov/stories/s/Freight-Transportation-Energy-Use-Environmental-
Im/f7sr-d4s8.
    \32\ Association of American Railroads, available at https://
www.aar.org/railroad-101/.
    \33\ Association of American Railroads, ``Freight Rail and 
Preserving the Environment,'' accessed March 2, 2021, available at 
https://www.aar.org/wp-content/uploads/2020/06/AAR-Sustainability-Fact-
Sheet.pdf.
    \34\ Id.
---------------------------------------------------------------------------
    Freight railroads are improving these numbers by lowering 
their own fuel consumption with increasing fuel efficiency. 
Numerous advancements, such as locomotive design improvements 
and zero-emission cranes, allow the freights to leverage 
technology in all aspects of their operations to mitigate their 
environmental impact. In 2019 alone, U.S. freight railroads 
consumed 656 million fewer gallons of fuel and emitted 7.3 
million fewer tons of carbon dioxide than they would have if 
their fuel efficiency had remained constant since 2000.\35\ 
Further, several of the individual Class I railroads have made 
public commitments to help fight climate change by setting 
declining GHG emissions targets.\36\
---------------------------------------------------------------------------
    \35\ Id.
    \36\ For example, on February 10, 2021, UP announced its plan to 
reduce absolute scope 1 and 2 GHG emissions from its operations 26% by 
2030 against a 2018 baseline. See https://www.up.com/media/releases/
210210-SBTi.htm. Norfolk Southern has also set company-wide emissions 
goals. See http://nscorp.com/content/dam/nscorp/get-to-know-ns/about-
ns/environment/NS-2020-CRR-report.pdf/.
---------------------------------------------------------------------------
    Passenger rail carriers are further leading the charge on 
sustainability. According to the 2019 U.S. Department of Energy 
Data Book, Amtrak is 47 percent more energy efficient than 
traveling by car and 33 percent more energy efficient than 
domestic air travel on a per-passenger-mile basis. Traveling on 
the electrified Northeast Corridor system emits 83 percent 
fewer GHG emissions than driving and up to 73 percent fewer 
than flying. In fiscal year 2019, Amtrak reported a 11.3 
percent reduction in diesel fuel use and a 20.3 percent 
reduction in GHG emissions in comparison to fiscal year 
2010.\37\
---------------------------------------------------------------------------
    \37\ ``Amtrak Sustainability Report FY2019,'' Amtrak, available at 
https://www.amtrak.com/content/dam/projects/dotcom/english/public/
documents/environmental1/Amtrak-Sustainability-Report-FY19.pdf.
---------------------------------------------------------------------------
    Amtrak continues to invest in technology improvements that 
will yield environmental benefits. For example, it is investing 
in new Acela trainsets with one-third more passenger seats per 
car.\38\ Amtrak plans to operate the new trainsets along the 
NEC initially at speeds up to 160 mph, but they will be capable 
of achieving speeds up to 186 mph to take advantage of future 
NEC infrastructure improvements.\39\
---------------------------------------------------------------------------
    \38\ ``Next-Generation High Speed Trains,'' Amtrak--Northeast 
Corridor, available at https://nec.amtrak.com/project/next-generation-
high-speed-trains/.
    \39\ ``Next-Generation High Speed Trains,'' Amtrak--Northeast 
Corridor, available at https://nec.amtrak.com/project/next-generation-
high-speed-trains/.
---------------------------------------------------------------------------

                              WITNESS LIST

    <bullet>  Ms. Shannon Valentine, Secretary of 
Transportation, The Commonwealth of Virginia
    <bullet>  Ms. Caren Kraska, President/Chairman, Arkansas & 
Missouri Railroad
    <bullet>  Mr. Greg Regan, President, Transportation Trades 
Department, AFL-CIO (TTD)
    <bullet>  Mr. Tom Williams, Group Vice President for 
Consumer Products, BNSF Railway


  FULL STEAM AHEAD FOR RAIL: WHY RAIL IS MORE RELEVANT THAN EVER FOR 
                  ECONOMIC AND ENVIRONMENTAL PROGRESS

                              ----------                              


                       WEDNESDAY, MARCH 10, 2021

                  House of Representatives,
Subcommittee on Railroads, Pipelines, and Hazardous 
                                         Materials,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 11:05 a.m. in 
room 2167 Rayburn House Office Building and via Cisco Webex, 
Hon. Donald M. Payne, Jr. (Chair of the subcommittee) 
presiding.
    Present: Mr. Payne, Mr. DeFazio, Mr. Malinowski, Mr. 
Moulton, Ms. Newman, Mr. Cohen, Mr. Sires, Ms. Wilson of 
Florida, Mr. Garcia of Illinois, Ms. Strickland, Mrs. 
Napolitano, Mr. Johnson of Georgia, Ms. Titus, Mr. Huffman, Mr. 
Auchincloss, Mr. Stanton, Mr. Crawford, Mr. Perry, Mr. Rodney 
Davis, Mr. Bost, Mr. Weber, Mr. LaMalfa, Mr. Fitzpatrick, Mr. 
Balderson, Mr. Stauber, Mr. Burchett, Mr. Johnson of South 
Dakota, Mr. Nehls, and Mrs. Steel.
    Mr. Payne. We come to order.
    I ask unanimous consent that the chair be authorized to 
declare a recess at any time during today's hearing.
    Without objection, so ordered.
    For Members participating remotely, I want to remind you of 
key regulations from the House Committee on Rules.
    Members must be visible on video to be considered in 
attendance, and to participate, unless experiencing 
connectivity issues.
    Members must also continue to use the video function for 
the remainder of the time they are attending this meeting and 
hearing, unless experiencing connectivity issues or technical 
problems.
    If a Member is experiencing any connectivity issues or 
other technical problems, please inform the committee staff as 
soon as possible so you can receive assistance.
    A chat function is available for Members on the Cisco WebEx 
platform for this purpose.
    Members can also call the committee's main phone line at 
202-225-4472 for technical assistance by phone.
    Members may not participate in more than one committee 
proceeding simultaneously. However, for security reasons, 
Members may maintain connection to the software platform while 
not in attendance.
    It is the responsibility of each Member seeking recognition 
to unmute their microphones prior to speaking, and to keep 
their microphone muted when not speaking to avoid inadvertent 
background noise. Should I hear any inadvertent background 
noise, I will request that the Member please mute their 
microphone.
    As the chair of today's committee and hearing, I will make 
a good-faith effort to provide every Member experiencing 
connectivity issues an opportunity to participate fully in the 
proceedings.
    And finally, to insert a document into the record, please 
have your staff email it to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="32765d51475f575c464166147b725f535b5e1c5a5d4741571c555d441c">[email&#160;protected]</a>
    OK, so I now go to the opening statement, and I would like 
to say good morning to all the Members in attendance. I am 
honored to kick off the first subcommittee hearing of this 
Congress as the new chair of this subcommittee.
    My district and my State are widely dependent on reliable 
rail service, both passenger and freight. As such, I am a major 
advocate for passenger and freight rail, not just in New 
Jersey, but across the Nation.
    The work of this subcommittee is critical to protecting the 
safety and security of rail passengers and employees during and 
after this global pandemic. That is why we need to be forward-
thinking about safety in order to avoid the types of 
preventable accidents that cost lives and harm the environment.
    With the mandate to install Positive Train Control systems 
finally complete, I hope to see widespread safety improvements 
in the industry. In this subcommittee we will explore the ways 
that we can continue to improve these safety improvements.
    In addition, we will review the need for Disadvantaged 
Business Enterprise programs within the rail space.
    We hear a lot about ensuring equity in transportation, and 
it is time to turn that talk into actionable programs. But the 
critical component to the future of rail is modernization. It 
will lead to greater safety improvements, as well as more 
effective passenger transportation.
    Also I want the subcommittee to explore the numerous ideas 
for high-speed rail. When I look at the gap between the United 
States and the rest of the world, I see potential. I would say 
that there are many opportunities for high-speed rail in the 
U.S. I remain determined to steer substantial Federal 
investment towards the U.S. rail system to expand rail 
opportunities that broaden our economic base.
    Last year, Chairman DeFazio ushered H.R. 2 through the 
House, investing $600 billion in the U.S. rail system. I 
supported that bill, and the subcommittee is already redrafting 
a rail title for surface reauthorization, in anticipation of a 
major infrastructure push this year. We will get this done, and 
rail will be front and center. Today's hearing is the next step 
in that effort.
    I am determined to highlight the importance of rail in 
today's complex surface transportation system.
    The title of the hearing is ``Full Steam Ahead for Rail: 
Why Rail is More Relevant than Ever for Economic and 
Environmental Progress.'' This is a throwback to the old steam 
engines that dominated the rail industry over 100 years ago. 
Too many people discount rail as a bygone era, but I don't 
think they understand the value that rail currently brings to 
our Nation. So we need everyone to understand the benefits that 
rail provides.
    I hope to hear today's witnesses highlight the economic and 
environmental advantages that rail is responsible for. I want 
to learn more about the economic advantages of moving freight 
over the rails. I want to learn how we can increase the number 
of jobs that rail transportation supports nationwide, and how 
we can sustain the quality of these jobs.
    Finally, I want to hear about the many ways rail can 
significantly reduce greenhouse gas emissions and further our 
Nation's fight against climate change.
    I hope the members of this subcommittee get a better 
appreciation for the importance of passenger rail and freight 
rail today.
    [Mr. Payne's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Donald M. Payne, Jr., a Representative in 
   Congress from the State of New Jersey, and Chair, Subcommittee on 
             Railroads, Pipelines, and Hazardous Materials
    Good morning. I'm honored to kick off the first subcommittee 
hearing of this Congress as the new Chair of this Subcommittee.
    My district and my state are widely dependent on reliable rail 
service--both passenger and freight. As such, I'm a major advocate for 
passenger and freight rail, not just in New Jersey but across our 
country.
    The work of this committee is critical to protecting the safety and 
security of rail passengers and employees, during and after this global 
pandemic.
    That's why we need to be forward thinking about safety in order to 
avoid the types of preventable accidents that cost lives and harm the 
environment.
    With the mandate to install positive train control systems finally 
complete, I hope to see widespread safety improvements in the industry. 
In this subcommittee, we will explore the ways we can continue to 
improve these safety improvements.
    In addition, we will review the need for disadvantaged business 
enterprise programs within the rail space. We hear a lot about ensuring 
equity in transportation and it's time to turn that talk into 
actionable programs.
    But the critical component to the future of rail is modernization. 
It will lead to greater safety improvements as well as more effective 
passenger transportation.
    Also, I want the subcommittee to explore the numerous ideas for 
high speed rail. When I look at the gap between the United States and 
the rest of the world, I see potential. I'd say there are many 
opportunities for high speed rail in the U.S.
    I remain determined to steer substantial federal investment towards 
the U.S. rail system to expand rail opportunities that broaden our 
economic base.
    Last year, Chair DeFazio ushered H.R. 2 through the House, 
investing $60 billion in the U.S. rail system.
    I supported that bill and the subcommittee is already redrafting a 
rail title for surface reauthorization in anticipation of a major 
infrastructure push this year. We will get this done and rail will be 
front and center.
    Today's hearing is the next step in that effort. I am determined to 
highlight the importance of rail in today's complex surface 
transportation system.
    The title of the hearing, ``Full Steam Ahead for Rail: Why Rail is 
More Relevant Than Ever for Economic and Environmental Progress,'' is a 
throwback to the old steam engines that dominated the rail industry 
over a hundred years ago.
    Too many people discount rail as a bygone era. But I don't think 
they understand the value that rail currently brings to our nation.
    So, we need everyone to understand the benefits rail provides.
    I hope to hear today's witnesses highlight the economic and 
environmental advantages that rail is responsible for.
    I want to learn more about the economic advantages of moving 
freight over the rails.
    I want to learn how we can increase the number of jobs rail 
transportation supports nationwide and how we can sustain the quality 
of these jobs.
    Finally, I want to hear about the many ways rail can significantly 
reduce greenhouse gas emissions and further our nation's fight against 
climate change.
    I hope the Members of this subcommittee get a better appreciation 
for the importance of passenger rail and freight rail today.
    Rail benefits all of us--urban and rural, rich and poor, Republican 
and Democratic--by contributing to a more robust economy with fewer 
greenhouse gas emissions. It's a win-win.
    So I hope you will all join me in the subcommittee's efforts to 
support and expand our freight and passenger rail systems.

    Mr. Payne. OK, now I would like to call on the ranking 
member of the subcommittee, Mr. Crawford, for an opening 
statement.
    Mr. Crawford. There we go, thank you, Mr. Chairman. I want 
to congratulate you on your assumption of the leadership 
position in this subcommittee, and look forward to working with 
you in this Congress.
    Our hearing today will examine the economic and 
environmental benefits of our robust American rail systems.
    Railroads have always been an essential part of American 
economic development. They support a variety of industries in 
moving goods to market at home and abroad, including 
manufacturing, energy, and agriculture. Studies have found that 
the investments made by rail have supported approximately 1 
million jobs, and $219 billion in economic output.
    Rail is also considered one of the most fuel-efficient ways 
to move freight. On average, freight rail can move 1 ton of 
freight over 470 miles on 1 gallon of fuel. Freight rail's 
output of greenhouse gas emissions in the U.S. are some of the 
lowest, at less than 1 percent, and make up only 2.1 percent of 
overall transportation-related emissions.
    During the COVID-19 pandemic, freight rail proved to be 
resilient and invaluable carriers of essential goods when they 
were needed most. Freight rail's significant contributions 
during this difficult period should be noted as we look toward 
future infrastructure investments.
    As the committee works to advance its surface 
transportation priorities, I hope it considers how we can 
leverage the important value of the rail industry. In 
particular, we must ensure that freight railroads keep growing 
in an uninhibited manner so that Americans can continue to 
benefit from their irreplaceable contributions to our economy.
    Thank you again to all of our witnesses for being here 
today, and I yield back the balance of my time.
    [Mr. Crawford's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Eric A. ``Rick'' Crawford, a Representative 
      in Congress from the State of Arkansas, and Ranking Member, 
     Subcommittee on Railroads, Pipelines, and Hazardous Materials
    Thank you, Chair Payne, for holding this hearing, and thank you to 
our witnesses for participating today.
    I want to congratulate Chair Payne on assuming leadership of the 
Subcommittee, and I look forward to working together with him this 
Congress.
    Our hearing today will examine the economic and environmental 
benefits of our robust American rail systems. Railroads have always 
been an essential part of American economic development. They support a 
variety of industries in moving goods to market at home and abroad, 
including manufacturing, energy, and agriculture.
    Studies have found that the investments made by rail have supported 
approximately 1 million jobs and $219 billion in economic output.
    Rail is also considered one of the most fuel-efficient ways to move 
freight. On average, freight railroads can move one ton of freight over 
470 miles on one gallon of fuel. Freight rail's output of greenhouse 
gas emissions in the U.S. is among the lowest at less than one percent 
and make up only 2.1 percent of overall transportation-related 
emissions.
    During the COVID-19 pandemic, freight railroads proved to be 
resilient and invaluable carriers of essential goods when they were 
needed most. Freight rail's significant contributions during this 
difficult period should be noted as we look towards future 
infrastructure investments.
    As the Committee works to advance its surface transportation 
priorities, I hope it considers how we can leverage the important value 
of the rail industry. In particular, we must ensure that freight 
railroads keep growing in an uninhibited manner so that Americans can 
continue to benefit from their irreplaceable contributions to our 
economy.

    Mr. Payne. Thank you. I now call on Chairman DeFazio, 
chairman of the overall committee, for a statement.
    Mr. DeFazio. Thank you, Chairman Payne. And, again, 
congratulations on your first hearing. This is timely and of 
tremendous importance: examining how we can move people and 
freight more efficiently, without congestion, and how we can 
also at the same time be dealing with climate change and fossil 
fuel reduction.
    We have already heard some statistics from the ranking 
member on the efficiency of rail. I did make the mistake once 
of saying to one of my constituents who owns a very large tug 
company about how rail is the most efficient way to move 
freight. And he corrected me that, actually, it is on the 
water. But water doesn't go everywhere that the freight and 
passenger rail network can go.
    But this is a very, very exciting time for rail. I am 
particularly looking forward to hearing from Virginia. They are 
doing something that we proposed in last year's INVEST Act, and 
that is to look at a problem, a massive, massive congestion, I-
95 coming into DC, down through Virginia. And they looked at it 
and said, ``Wow, it will cost us about $10 or $15 billion to 
add lane-miles, and we will add lane-miles and then more people 
hop in their cars, and we will end up being congested again in 
10 years.'' So they said, ``Well, there might be another 
solution.''
    And then they began to look at rail investments, 
particularly with a new bridge over the Potomac River, a big, 
big choke point. This is expensive, but it turns out that it is 
actually more cost beneficial, and actually solves the problem, 
as opposed to temporarily delaying the problem with congestion 
in this particular corridor.
    Now, this isn't going to be applicable everywhere in the 
United States. I mean, it is most applicable in very, very 
heavily congested areas like the Northeast, or around other 
major urban areas in the country.
    According to Amtrak statistics, traveling on the 
electrified Northeast Corridor system emits 83 percent fewer 
greenhouse gas emissions than driving, and 73 percent fewer 
than flying. And Amtrak has pretty much taken over the market 
from DC to New York. They used to run the Delta shuttle every 
hour. I think someone else had a shuttle at the same time. So 
we have seen a dramatic reduction in carbon pollution.
    People like traveling by rail. You are not strapped in a 
little, crummy seat. You don't have to deal with all the 
hassles of going to the airport. Even with all the problems we 
have in the Northeast Corridor with ancient, decrepit 
infrastructure--the Baltimore tunnel built in 1872, beautiful 
engineering work, made of brick, it is raining inside the 
tunnel because of leaking water mains that are 100 years old.
    Someday a tunnel is going to collapse, going to cut off the 
Northeast. We need to rebuild that tunnel, as well as make 
other major improvements on that line and also look around the 
country, where we can facilitate better movement of passenger 
rail in cooperation with freight.
    That is what is so exciting about the project we are going 
to hear about from Virginia. CSX came to the table with VDOT, 
and they worked out something that is going to benefit both 
freight movement--which is way more efficient than trucks--and 
passenger movement, a win-win. I am hoping that the rest of the 
industry is attentive to this, because the law does say--
because we took over the common carrier status in passenger 
rail from the railroads--that Amtrak is supposed to get 
preference.
    But certainly out my way, where it takes about 3 or over 3 
hours to get from my home city of Eugene to Portland, 112 
miles--a train can go 120 miles an hour, it takes over 3 hours 
to get there. We have to see better coordination and 
cooperation between the industry and freight. And that is why 
it is so exciting to have this hearing today.
    We will hear from BNSF and, hopefully we can be working on 
projects like this around the rest of the country, as we move 
forward, and as we build back better.
    Thank you, Mr. Chairman. I appreciate the opportunity.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
      Congress from the State of Oregon, and Chair, Committee on 
                   Transportation and Infrastructure
    Thank you, Subcommittee Chair Payne and Ranking Member Crawford, 
for holding this hearing. Chair Payne, congratulations on your first 
hearing as Chair of the Subcommittee on Railroads, Pipelines, and 
Hazardous Materials. I know that access to great rail service is very 
important for your constituents, and you will be a strong advocate for 
them in your new role.
    We are here today to discuss the importance of both passenger and 
freight rail service to our economy and our environment. Climate change 
is an existential threat to our very existence. Burying our heads in 
the sand is not going to work. We need to actively push for ways to 
mitigate emissions, and we need to be doing it now! Improved rail 
service can be part of the solution.
    People are sick and tired of spending an hour and a half to drive 
20 miles to get home from work. For years, the proposed solution to 
traffic was to add more highway lanes. But today we know that only 
creates ``induced demand''--meaning the more lanes you add, the more 
drivers you attract, creating a vicious cycle of more congestion, more 
carbon pollution, more time wasted sitting in traffic.
    According to Amtrak's statistics, traveling on the electrified 
Northeast Corridor system emits 83 percent fewer GHG emissions than 
driving and up to 73 percent fewer than flying. As a result, we need to 
start looking at rail as a central part of the solution to congestion. 
That is why the Moving Forward Act included a $60 billion rail title 
that was heavily focused on passenger rail investments and created a 
number of new multi-modal programs that include passenger rail 
eligibility.
    At today's hearing, we will hear testimony from the Virginia 
Secretary of Transportation about some of the rail investments the 
state of Virginia will be making in the coming years, and how a project 
like Long Bridge can help clear bottlenecks to improve passenger and 
freight service throughout the Northeast corridor and beyond. Instead 
of just adding more lanes to Interstate 95, the state is making the 
smart choice to invest in rail.
    Likewise, rail tops the list of the most efficient ways to move 
freight, second only to barges. Rail customers are tracking the overall 
carbon footprint of their goods movements, and corporate boards and 
shareholders are pushing for a greener supply chain--this all leads to 
an opportunity for freight rail. Freight railroads of all sizes should 
look to seize the moment not only because it's better for our 
environment, but because it's better for business.
    Finally, railroads are a source of good-paying jobs with great 
benefits that are capable of supporting middle class families. It's no 
coincidence that this industry has a high rate of union representation. 
About 84 percent of Class I railroad employees are represented by a 
labor union, as are roughly 85 percent of Amtrak's workers.
    The importance of those jobs reaches beyond the direct benefit to 
workers--they extend into the communities where workers spend their 
money, supporting local economies. Any consideration of the economic 
benefits of rail must include these downstream effects, as well as the 
many construction jobs created by rail expansion.
    The rail industry is well positioned to be part of the solution to 
addressing climate change and growing our economy. I look forward to 
hearing from our witnesses today about these important issues.

    Mr. Payne. Thank you, Mr. Chairman. We appreciate your 
leadership in this area.
    And I would like to remind Members in the committee hearing 
room to wear their masks at all times, including while 
speaking. Thank you for your cooperation in this matter.
    I would like to welcome the witnesses on our panel: Ms. 
Shannon Valentine, secretary of transportation for the 
Commonwealth of Virginia; Ms. Caren Kraska, president and 
chairman of the Arkansas and Missouri Railroad; Mr. Greg Regan, 
president of the Transportation Trades Department, AFL-CIO; and 
Mr. Tom Williams, group vice president of Consumer Products, 
BNSF Railway.
    Thank you for joining us today, and I look forward to your 
testimony.
    Without objection, our witnesses' full statements will be 
included in the record.
    Since your written testimony has been made a part of the 
record, the subcommittee requests that you limit your oral 
testimony to 5 minutes.
    We will first hear from Ms. Valentine.
    You may proceed.

 TESTIMONY OF SHANNON VALENTINE, SECRETARY OF TRANSPORTATION, 
COMMONWEALTH OF VIRGINIA; CAREN KRASKA, PRESIDENT AND CHAIRMAN, 
ARKANSAS AND MISSOURI RAILROAD, ON BEHALF OF THE AMERICAN SHORT 
LINE AND REGIONAL RAILROAD ASSOCIATION; GREG REGAN, PRESIDENT, 
TRANSPORTATION TRADES DEPARTMENT, AFL-CIO; AND TOM G. WILLIAMS, 
 GROUP VICE PRESIDENT, CONSUMER PRODUCTS, BNSF RAILWAY COMPANY

    Ms. Valentine. Thank you. Good morning, Chairman DeFazio. 
Thank you for those opening remarks from Virginia. Chairman 
Payne, Ranking Member Crawford, members of the Railroads, 
Pipelines, and Hazardous Materials Subcommittee, thank you for 
the opportunity to testify today on behalf of the Commonwealth 
of Virginia and our $3.7 billion Transforming Rail in Virginia 
initiative.
    Under this program, the Commonwealth will construct a 
bridge over the Potomac dedicated to passenger rail, acquire 
386 miles of rail right-of-way and 223 miles of track, and 
invest more than $1 billion in infrastructure over the next 
decade. Our purpose: to expand and improve passenger, commuter, 
and freight rail; establish a pathway to separate passenger and 
freight operations; and create a vital link in our national 
rail network by connecting the Northeast and Southeast 
Corridors.
    It was an honor to announce this innovative partnership 
with CSX, Amtrak, and the Virginia Railway Express (VRE) in 
December of 2019. Over these past 14 months, Virginia has 
worked diligently and deliberately to finalize all agreements 
to complete this multilateral initiative.
    Why is Virginia investing in rail?
    Simply put, the Northam administration has prioritized 
projects that will move as many people and goods as possible 
across all modes of transportation in an equitable and 
environmentally sustainable manner. It is a multimodal approach 
to creating an economy that works for all people.
    One of the worst rail bottlenecks, mentioned by Chairman 
DeFazio, along the east coast is at the Potomac River between 
Virginia and DC, and it is called the Long Bridge, which is 
owned by CSX. The bridge carries all passenger, commuter, and 
freight rail along the corridor, nearly 80 trains a day, and is 
at 98 percent capacity during peak periods. Due to these 
constraints, Virginia has been unable to expand passenger rail 
service, even though demand prior to the pandemic was reaching 
record highs.
    At the same time, Virginia has been engaged in corridor 
planning studies, one of which was the I-95 corridor, which, as 
you all know, is heavily congested. Even today, as we emerge 
from this pandemic, traffic has returned to 90 percent of 
prepandemic levels. Through the study we learned that adding 
just one lane in each direction for 50 miles would cost $12.5 
billion.
    While the cost was staggering, the most sobering part of 
the analysis was that, by the time the construction was 
complete in 10 years, the corridor would be just as congested 
as it is today. That finding is what led Virginia to rail--a 
mode that could provide the capacity at one-third of the cost.
    With a willing partner in CSX, the Commonwealth reached out 
to Amtrak and VRE to join us in this unique opportunity to be 
phased in over 10 years, which will double Virginia-supported 
Amtrak trains, providing nearly hourly service between Richmond 
and DC; increase VRE commuter service by 60 percent; lay the 
foundation for a southeast high-speed rail corridor; and 
increase the potential to expand rail to all parts of our 
Commonwealth.
    Equally important, this is being done in cooperation with 
the host railroad, increasing reliability and capacity for both 
freight and passenger. We are working collaboratively with CSX 
to create that win-win. And as we create this opportunity, we 
are also moving more goods and people in an environmentally 
sustainable way.
    According to APTA, rail travel emits up to 83 percent fewer 
greenhouse gases than driving, and up to 73 percent fewer than 
flying. In addition, a study by George Mason University 
estimates the construction of a new Long Bridge will generate 
more than $6 billion in additional economic impact in northern 
Virginia and the Greater Washington region each year.
    Benefits can also be measured by increased access to jobs 
and improving the quality of life. The new service plan 
includes late night and weekend service, because many essential 
jobs are not 9 to 5, Monday through Friday. That is why we 
worked to add trains leaving Washington in the late evening and 
on weekends, matching train schedules to the reality of our 
economy.
    With a commitment of State and regional funds, $200 million 
in VRE funding, and $944 million in Amtrak funding, the 
Commonwealth has been able to produce a $3.7 billion financial 
plan. With additional funds we could fully build out the 
Washington-to-Richmond corridor, upgrade the east-west freight 
route, and develop the S-line that will cut travel between 
Raleigh and Richmond by 90 minutes.
    We----
    Mr. Payne. Please wrap.
    Ms. Valentine [continuing]. Continue to deliberate----
    Mr. Payne. Please wrap up.
    Ms. Valentine. I will. I ask you to consider a capital 
grant program.
    In closing, I will just say that I really thank you for 
this opportunity, and I welcome your questions.
    [Ms. Valentine's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Shannon Valentine, Secretary of Transportation, 
                        Commonwealth of Virginia
    Chairman Payne and Members of the Rail Subcommittee:
    Thank you for the opportunity to testify today on behalf of the 
Commonwealth of Virginia and our $3.7 billion Transforming Rail in 
Virginia initiative. Under this program, the Commonwealth will 
construct a $1.9 billion bridge over the Potomac dedicated to passenger 
rail, acquire 386 miles of rail right-of-way and 223 miles of track, 
and invest an additional $1 billion in rail infrastructure projects 
over the next decade. Our purpose in doing so is to expand and improve 
passenger, commuter, and freight rail service, establish a pathway to 
separate passenger and freight operations, and create a vital link in 
our national rail network by connecting the Northeast and Southeast 
corridors.
    It was an honor to be with Governor Northam to announce this 
innovative partnership with CSX, Amtrak, and Virginia Railway Express 
(VRE) in December 2019. Over these past 14 months, the Commonwealth has 
worked diligently and deliberately to finalize the definitive 
agreements, environmental permits, and legislative requirements to 
complete this multilateral initiative. And today, I am pleased to 
report to this Committee that we are in the final hours of completing 
this work.
                               Background
    I believe it would be helpful for this Committee to understand why 
Virginia is investing in rail. Simply put, Governor Northam and our 
Administration have prioritized projects that will move as many people 
and goods as possible across all modes of transportation in an 
equitable, environmentally sustainable manner, with a focus on job 
retention and creation.
    This is a multimodal approach for creating an economy that works 
for all people--which is why Virginia supported HR 2, the Moving 
Forward Act, and its new Passenger Rail Improvement, Modernization, and 
Expansion (PRIME) grants. These grants would provide $19 billion over 5 
years for passenger rail improvement and expansion projects. We believe 
these grants should be administered in a manner similar to FTA's 5309 
Capital Investment Grant Program so that larger projects or a program 
of projects could receive multi-year, full-funding grant agreements to 
match significant state and local investments, allowing states to 
properly plan for large-scale intercity passenger rail projects.
    Before I became Secretary of Transportation, I had the privilege of 
serving in the Virginia General Assembly and on the Commonwealth 
Transportation Board. I saw first-hand the growth in all modes of 
transportation across Virginia--highways, transit, rail, ports, and 
aviation. I had the opportunity to lead the legislative effort to 
launch the first state-supported Amtrak train in 2009 anchored in 
Lynchburg, Virginia--a pilot that has now expanded to 6 trains and 4 
routes--Richmond, Newport News, Norfolk, and Roanoke--all connecting to 
Washington, DC, and the Northeast Corridor.
                          How did we get here?
    One of the worst rail bottlenecks along the East Coast is at the 
Potomac River crossing between Virginia and Washington, DC, which is 
called the Long Bridge. The two-track Long Bridge was built in 1904 and 
reinforced in 1942. The bridge and tracks on both sides of the Potomac 
are owned by CSX railroad. The bridge carries all passenger, commuter, 
and freight trains along the corridor, including the North Carolina 
state-supported service and five long-distance routes.
    The construction of a new, two-track Long Bridge is the centerpiece 
of our Transforming Rail in Virginia capital investments. The current 
bridge is the only rail connection linking the Southeast and the 
Northeast, with the closest rail bridge being more than 70 miles away 
(as the crow flies), carrying nearly 80 trains a day with capacity at 
98 percent during peak hours. This constrains Amtrak and VRE from 
adding more trains to accommodate passenger demand which, prior to the 
pandemic, was reaching record highs. In 2019, VRE was averaging more 
than 19,000 trips a week, and Amtrak carried nearly 1 million riders on 
our state-supported routes that year--a 680 percent increase since the 
inception of this service in 2009. While this momentum was interrupted 
by the pandemic, a recent Greater Washington Partnership survey 
indicated that, while 58 percent of the region's employers have 
implemented full-time telework, only one percent expect their employees 
to continue to work remotely full time once we emerge from the 
pandemic. With current traffic on our highways nearing pre-pandemic 
levels, we believe we are presenting a solution for today and for 
generations to come. However, without a second Long Bridge, the 
Commonwealth would not be able to grow its current service or expand to 
new areas.
    To allow the entire rail network to operate efficiently, we are 
also making investments south of the bridge to improve reliability and 
create a path for separating passenger and freight rail--a four-track 
corridor north of Alexandria, a third-track corridor north of Lorton, 
including a bypass at Franconia, and six additional sidings--all to 
resolve conflicts along the rail network. While this initial scope 
(Phases 1 and 2 on the attached map) does not provide for a complete 
dedicated track separation, our ultimate long-term goal is to identify 
partners and seek funding to complete a four-track corridor from 
Washington to Richmond, with two tracks dedicated to passenger trains 
and two to freight trains.
Corridor Planning Studies
    Since 2018, the Commonwealth has engaged in corridor planning 
studies that analyze all modes of transportation across the north-south 
I-81 and I-95 corridors as well as the east-west I-64 and I-66 
corridors. As most know all too well, the I-95 corridor is heavily 
congested. Even today, as we emerge from this pandemic, traffic has 
returned to 90 percent of pre-pandemic levels. Prior to the pandemic, 
on a daily basis, cars and buses carried more than 350,000 people, 
trucks carried more than 271,000 tons of freight, trains carried 83,000 
tons of freight, and Metro, VRE, and Amtrak trains carried more than 
112,000 passengers through this corridor.
    The I-95 Study analyzed many potential improvements to this 
critical corridor. It found that widening I-95 by one lane in each 
direction for 50 miles would cost $12.5 billion. While the cost was 
staggering, the most sobering part of the analysis was that by the time 
construction was completed in 10 years, the corridor would be just as 
congested as it is today. That finding is what led Virginia to rail--a 
mode of transportation that could provide the additional capacity along 
the corridor at a third of the cost. With a willing partner in CSX, we 
joined together in thinking outside of the box and discussions began. 
As these discussions continued, we reached out to Amtrak and VRE to 
join us in the unique opportunity I am presenting to you today.
   Transforming Rail in Virginia Program: Passenger and Commuter Rail
    Virginia negotiated improvements with CSX to increase service 
levels. These improvements, phased in over 10 years, will:
    <bullet>  Double Virginia-supported Amtrak trains;
    <bullet>  Provide nearly hourly Amtrak service between Richmond and 
Washington, DC;
    <bullet>  Increase VRE commuter service by 60 percent along the I-
95 Corridor, with 15-minute intervals during peak periods, and 
introduce weekend service;
    <bullet>  Increase Amtrak service to Newport News and allow for an 
improved schedule for a third Amtrak train to Norfolk;
    <bullet>  Lay the foundation for Southeast High Speed Rail through 
the acquisition of an abandoned S-line which runs from Petersburg into 
North Carolina;
    <bullet>  Preserve the existing Buckingham Branch freight corridor 
between Doswell and Clifton Forge for future east-west passenger 
service;
    <bullet>  And create the potential to expand rail service to all 
parts of our Commonwealth, including Southwest Virginia, that can now 
be unlocked by the construction of a new Long Bridge across the 
Potomac.
Transforming Rail in Virginia: Freight Rail
    What is also transformative is that this initiative is being done 
in cooperation with the host freight railroad, as this agreement 
increases capacity, reliability, and fluidity for BOTH freight and 
passenger rail. Rather than increase passenger rail at the expense of 
throughput capacity for freight operators, we have worked 
collaboratively with CSX to create a ``win-win'' for both freight and 
passenger rail.
    The rail industry generates more than $73 billion in economic 
output to the Commonwealth each year. The Port of Virginia in the 
Hampton Roads region handles 4 million containers annually from all 
around the world. Currently, the Port moves a greater percentage of 
containers by rail--35 percent--than any other port along the East 
Coast, with a goal of increasing that movement to 40 percent. The 
construction of a new Long Bridge opens freight capacity on the 
existing bridge. Without this added capacity, freight trains alone in 
2040 will experience more than 10 times the current delay.
Environmental Benefits
    As we create infrastructure for passenger, commuter, and freight 
rail, we also are moving more goods and more people in an 
environmentally sustainable way. According to the American Public 
Transportation Association (APTA), rail travel emits up to 83 percent 
fewer greenhouse gases than driving and up to 73 percent fewer than 
flying. The Long Bridge Environmental Impact Statement states that CSX 
is planning to expand from 18 trains per day now to 42 in 2040. For a 
company that moves one ton of freight 508 miles on a single gallon of 
gas, this provides four times the fuel savings and environmental 
benefits than moving freight on our highways.
    The total truck Vehicle Miles Traveled--VMT--reduced by the Long 
Bridge project alone in the fifth year after construction is 482 
million. VMT reduced for cars is 332 million in that fifth year. This 
results in a reduction of 66 million gallons of diesel fuel and 10 
million gallons of gas in that year.
    A cost-benefit analysis developed by consultant Kimley-Horn reveals 
that in that fifth year, the Commonwealth would experience 
environmental benefits in terms of:
    <bullet>  474,000 metric tons of carbon dioxide emissions avoided 
due to moving freight by rail, and
    <bullet>  90,000 metric tons of carbon dioxide emissions avoided 
due to passenger rail trips added,
    <bullet>  for a total value of avoided carbon emissions of 564,000 
metric tons.

    These are not cumulative statistics, but simply represent the 
environmental benefit in a single year.
             Creating an Economy that Works for all People
    The Long Bridge construction reaches beyond the benefits to the 
rail and road networks and the environment. A study by George Mason 
University estimates that construction of a new Long Bridge will have 
exponential economic impacts. Construction of the Long Bridge project--
and the resulting increase in passenger trains--is expected to 
facilitate more than $6 billion in additional economic activity in the 
Northern Virginia and Washington, DC, region each year.
    The program's benefits can also be measured by increased access to 
jobs and improvement in quality of life. The new service plan for 
Amtrak and VRE includes late-night and weekend service for an important 
reason. We know that many jobs--especially in the service sectors--are 
not 9 to 5, Monday through Friday. That is why we worked with CSX, 
Amtrak, and VRE to add trains leaving Washington in the late evening as 
well as on the weekends. We needed to match train schedules to the 
reality of our economy. In addition, construction of the new Long 
Bridge will open up the possibility for ``run through'' service of 
commuter trains between Maryland and Virginia. While these services are 
not yet funded, these are the types of opportunities and partnerships 
created by this project.
       Capital Grant Program Needed for Intercity Passenger Rail 
                             Infrastructure
    While the Commonwealth funds 100 percent of the operating cost of 
state-supported trains, per the 2008 PRIIA guidelines, and applies for 
funding from various INFRA, BUILD, CRISI, and other USDOT programs to 
expand rail, there is no major, long-term, predictable funding program 
to assist states with the capital costs needed to expand state-
supported passenger rail initiatives.
    Through a commitment of state funds, regional funds, state priority 
transportation funds, more than $200 million in VRE funding, and $944 
million in Amtrak funding, the Commonwealth was able to produce a $3.7 
billion financial plan. With additional funding, we could fully build 
out the Washington to Richmond corridor, upgrade the Buckingham Branch 
corridor, and develop the S-Line that will cut travel time from Raleigh 
to Richmond by 90 minutes and bring the Southeast closer to the 
Northeast.
    As you continue to deliberate the crafting of a surface 
transportation bill, I again ask you to consider a capital grant 
program--such as the PRIME grant program--that would assist states in 
expanding passenger rail by funding at least 50 percent of the capital 
costs needed for these expansion projects. According to APTA, every $1 
billion invested in rail creates 24,000 highly skilled jobs and every 
$1 invested generates $4 in wider economic benefits.
                                Closing
    I would be remiss if I did not thank Chairman DeFazio, 
Representative Norton, and Members of this Committee for including in 
last year's HR 2 a provision that authorized the National Park Service 
to convey land to Virginia and the District of Columbia for the purpose 
of constructing a rail bridge. Roughly four acres of NPS land adjacent 
to the current CSX track is needed for the new Long Bridge project, and 
bipartisan House support and passage of the provision in HR 2 went a 
long way in ensuring the provision was included in the year-end Omnibus 
Appropriations bill.
    In closing, I want to share a statistic that I shared at the 10-
year anniversary of the inauguration of that first state-supported 
route in Lynchburg, Virginia.
    In 2009, rail reached 49 percent of Virginians and 53 percent of 
jobs.
    Today, rail reaches 77 percent of Virginians and 88 percent of 
jobs.
    In other words . . . not enough.
    I thank you for this opportunity to testify before you today and 
sincerely look forward to working with you now and in the future. I 
would be pleased to answer your questions.
                     Transforming Rail in Virginia
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 After completion of Phases 1 and 2, Phases 3 and 4 would complete the 
   dedicated 3rd track to Spotsylvania, which is the end of the VRE 
                             Service area.

                          Amtrak Service Plan
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            VRE Service Plan
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Payne. Thank you very much. Next we will hear from Ms. 
Kraska.
    You have 5 minutes.
    Ms. Kraska. Thank you. I am Caren Kraska, president and 
chairman of the Arkansas and Missouri Railroad, speaking on 
behalf of the Nation's 600 Class II and III railroads. These 
railroads operate in 49 States, over nearly 50,000 miles of 
track, or approximately one-third of the Nation's railroad 
network. In 36 States, short lines operate at least one-quarter 
of the State's rail network.
    New Jersey is 1 of the 10 States where short lines operate 
more than 70 percent of the State's rail network. My home State 
of Arkansas has 23 short line railroads. Twenty-eight of the 
thirty-three members of this subcommittee have a short line in 
their district.
    Short lines are most often associated with smalltown and 
rural America. But they also serve large, urban areas in many 
of the Nation's busiest ports, including Miami, Los Angeles, 
Long Beach, Hampton Roads, New York, and New Jersey. Short 
lines operate freight traffic over two of the busiest commuter 
rail corridors in the country.
    The lexicon of railroading permeates American vocabulary. 
While many of those phrases carry a negative connotation--he 
was ``railroaded,'' the project was a ``train wreck,'' the 
talks were ``derailed''--I much prefer your committee's 
selection from that lexicon: ``full steam ahead for rail.'' 
That phrase captures the attitude of short line entrepreneurs 
endeavoring to preserve and grow what began as the Nation's 
most vulnerable railroad infrastructure, and what is today a 
huge American success story.
    For those of you new to this story, let me give you four 
defining characteristics of today's short lines. Most short 
lines operate track that was headed for abandonment. As money-
losing lines, they received little capital investment by their 
previous Class I owners. To be successful, short lines invest 
up to 33 percent of their annual revenues in maintaining and 
rehabilitating their infrastructure. As confirmation, you only 
need to talk to Chairman DeFazio, who for years made it his 
personal mission to put together the millions of Federal, 
State, and local dollars needed to save the Coos Bay line.
    For large areas of the country, short line railroad service 
is the only connection to the national railroad network. While 
my Arkansas frozen poultry shippers cannot complete the journey 
to west coast ports for export without Class I service, they 
cannot start that journey without short line service.
    Flexible local service is a key driver of our success. We 
deal face-to-face with our customers, and can respond quickly 
to their needs. For example, my railroad serves George's Inc. 
facilities in Arkansas and Missouri. They need feed corn for 
poultry, and lots of it, consistently. When the local harvest 
is good, they truck the corn from local sources. But when the 
harvest is not, the customer needs to shift gears. So they turn 
to us to bring in unit trains of corn from grain-producing 
States.
    Short lines are small businesses. Our combined annual 
revenues are less than the annual revenues of any single one of 
the Nation's four largest Class I railroads.
    Before I talk about what short lines can do, let me take a 
moment to thank you for what you have already done. The members 
of the Transportation and Infrastructure Committee, past and 
present, played a critical role in making the short line 
rehabilitation tax credit permanent in 2020, so that it will 
continue to help us rebuild our infrastructure. It is, as you 
suggest, full steam ahead for rail. And your support for the 
tax credit has given us a full head of steam as we move 
forward. For that, we are most grateful.
    My fellow railroad panelist will highlight the substantial 
economic and environmental benefits of the railroad industry 
writ large. I will put a short line spin on some of those.
    For thousands of communities across the country, short line 
rail service is the only connection to the national railroad 
network, and this connection is an economic lifeline. Short 
lines lower transportation costs for shippers. One railcar 
holds the equivalent of three to four truckloads. For example, 
on my railroad, a shipper's cost to move a ton of freight 54 
miles from Butterfield, Missouri, to Springdale, Arkansas, is 
approximately one-third of the truck rate.
    The environmental benefits of rail transportation have been 
well documented. You will hear those statistics from my Class I 
colleague, particularly with regard to fuel efficiency. And 
those statistics also apply to short lines.
    We do not know what programs you will be considering in an 
infrastructure bill. So my written testimony touches on how 
today's programs can best be used by short lines. I also list a 
variety of general principles that will maximize our ability to 
make the best use of whatever programs you end up including, be 
they current or new.
    I appreciate the opportunity to present the short line 
perspective, and would conclude with a personal observation. I 
am a businesswoman running a small business, and I do not 
pretend to understand the pressures, processes, and politics 
that govern your world. I was, however, involved in the 
decades-long effort to extend and then make permanent the short 
line tax credit. And I learned an important lesson from that 
experience: regardless of party control, and often in the face 
of fierce partisan battles, our chief congressional sponsors 
never wavered in their commitment to sticking together in 
bipartisan support of the legislation.
    It showed me that Government works when you work hard at 
working it out. We need that today more than ever. And I hope 
that can be the spirit in which you approach creating a much-
needed infrastructure package.
    Thank you very much.
    [Ms. Kraska's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Caren Kraska, President and Chairman, Arkansas 
    and Missouri Railroad, on behalf of the American Short Line and 
                     Regional Railroad Association
    I am Caren Kraska, President and Chairman of the Arkansas and 
Missouri Railroad (A&M). I am speaking on behalf of the American Short 
Line and Regional Railroad Association (ASLRRA), the trade association 
representing the nation's 600 Class II and III railroads. These 
railroads operate in 49 states over nearly 50,000 miles of track, or 
approximately one third of the nation's railroad network. Short lines 
are often called the first mile/last mile of the nation's railroad 
system and handle in origination or destination one out of every five 
rail cars moving on the national system. In 36 states short lines 
operate at least one quarter of the state's rail network. Chairman 
Payne's State of New Jersey is one of ten states where short lines 
operate more than 70% of the state's rail network--11 short line 
railroads operating nearly 800 miles of track. In Ranking Member 
Crawford's state of Arkansas, my home state, there are 23 separate 
short line railroads--we work in tandem with the 3 Class I's in the 
state to provide Arkansas with a world class freight rail network.
    Twenty-eight of the 33 Members of this Subcommittee have a short 
line in their District. As examples, I've attached maps of short lines 
in the home states of Chairman DeFazio, Ranking Member Graves, Chairman 
Payne, and Ranking Member Crawford.
    Although short lines are most often associated with small town and 
rural America, they also serve large urban areas and many of the 
nation's busiest ports, including Miami, Los Angeles and Long Beach, 
Hampton Roads, and New York/New Jersey. Likewise, various short line 
railroads operate as neutral terminal switching carriers for multiple 
Class I railroads in Chicago, New Orleans and St. Louis. The Chicago 
South Shore and South Bend Railroad and the Long Island Railroad 
operate freight traffic over two of the busiest rail commuter corridors 
in the country.
    The name ``short line'' can create the mistaken impression that 
these railroads are all very short rail lines. The fact is we come in 
all sizes. The Tyburn Railroad in Congressman Brian Fitzpatrick's 
District is 1.5 miles long. The Rapid City, Pierre & Eastern Railroad 
in Congressman Dusty Johnson's District is 743 miles long. In Florida, 
Iowa, Massachusetts, Michigan, Minnesota, Montana, New Hampshire, South 
Dakota, and Vermont short lines operate track that stretch almost the 
entire length or breadth of the state.
    Regardless of our size or our geographic location, our common 
denominator is that we operate track that was not viable under the 
structure of the larger national Class I railroads, that we run small 
efficient operations, that we stay very close to our customers, and 
that we hustle, fight, scratch and claw for every last carload of stuff 
we can get our hands on. We are obsessed with growth and want every 
piece of business that comes our way.
    My own railroad operates 150 miles of track from Monett, Missouri 
to Fort Smith, Arkansas, employs 66 people and handles 32,000 carloads 
annually. We serve 75 customers on that 150 miles and, in conjunction 
with our Class I connections, deliver or receive their products to and 
from states as far away as California, Florida, New Jersey, and 
Washington State.
    The A&M also runs excursion trains in a very scenic portion of 
northwest Arkansas. Approximately 36,000 people ride these trains in a 
normal year.
    The lexicon of railroading permeates American vocabulary. While 
some of those phrases carry a negative connotation--he was 
``railroaded'', the project was a ``train wreck'', the talks were 
``derailed'', it's the ``end of the line'' for you, I much prefer your 
Committee's selection from that lexicon--``Full Steam Ahead for Rail.'' 
That is the phrase that captures the attitude of short line 
entrepreneurs endeavoring to preserve and grow what began as the 
nation's most vulnerable railroad infrastructure and what is today a 
huge American success story.
    Those of you who have served on this Committee are very familiar 
with that story and have contributed much over the years to that 
success. For those of you who are new to this story, let me comment 
briefly on four defining characteristics of the today's short lines.
    Most short lines operate track that was headed for abandonment 
under previous Class I owners. These were light density lines that 
could not make enough money under the cost structure of the big 
national carriers. They served customers that were located ``off the 
beaten path'' for the large railroads and that typically shipped 
smaller volumes. Because these were marginal or money losing lines, 
they understandably received little or no capital investment by their 
previous owners, resulting in deferred maintenance. To be successful, 
short line owners must not only eliminate that deferred maintenance but 
must upgrade the track to handle the heavier, longer trains operated by 
our Class I connecting partners. To do that, short lines invest on 
average from 25% to 33% of their annual revenues in maintaining and 
rehabilitating their infrastructure, and this makes short line 
railroading one of the most capital-intensive industries in the 
country. You need only talk to Chairman DeFazio to confirm the 
significance of this fact. For years he made it his personal mission to 
save the Coos Bay Rail line that was on the verge of being sold for 
scrap after decades of troubles. The line's crumbling infrastructure, 
and a very problematic tunnel in the middle of the line, required a 
herculean effort to bring together tens of millions of dollars of 
federal, state, local and private resources needed to fund the 
necessary rehabilitation. After being closed down completely, the line 
was re-opened in 2011. There is still work to be done, but the rail 
line now moves the equivalent of 16,500 truckloads annually and serves 
as a critical link to the local port, connecting Oregon's lumber 
industry to the national economy.
    Our importance is not our size or our total market share but in who 
and where we serve. For large areas of the country and particularly for 
rural and small-town America, short line railroad service is the only 
connection to the national railroad network. For the businesses and 
farmers in those areas, our ability to take a 25-car train 75 miles to 
the nearest Class I interchange is just as important as the Class I's 
ability to attach that block of traffic to a 100-car unit train and 
move it across the country. While my Arkansas frozen poultry shippers 
cannot complete the journey to West Coast ports for export without 
Class I service, they cannot start that journey without short line 
service.
    Flexible local service is a key driver of our success. One reason 
short lines can make a go of it where the Class I's cannot is our 
ability to deal face to face with customers and offer the flexible 
service their businesses require. Large national railroads running 
thousands of trains a day over long distances are not particularly well 
suited to the needs of the small businesses we serve. For example, my 
railroad serves George's Inc. facilities in Springdale, AR and 
Cassville, MO. They need corn for feed, and lots of it, consistently. 
When the local harvest is good, they truck in the corn from local 
sources. But when the harvest is not good, the customer needs to shift 
gears, so they turn to us to bring in unit trains of corn from states 
where the corn harvest is more abundant, such as Iowa, Nebraska, 
Minnesota, and Kansas.
    Short lines are small businesses. Our combined annual revenues are 
less than the annual revenues of each one of the nation's four largest 
Class I railroads. All Class II and III railroads in the U.S. meet the 
Small Business Administration's small business industry size standard. 
The average short line employs 30 people or less, and a significant 
number run with fewer than a dozen employees. Like all small 
businesses, we are forced to do more with less. A very large number of 
our customers are also small businesses, who depend on the economics of 
rail service and direct connections to the rail network that we provide 
to remain competitive in a cutthroat global economy.
    Your hearing today is exploring the ways rail can contribute to the 
nation's economic and environmental progress going forward. Before I 
talk about what short lines can do, let me take a moment to thank you 
for what you have already done to help us move forward. In 2004 
Congress enacted a short line rehabilitation tax credit to maximize 
private investment to repair and upgrade our track and bridges, to help 
realize the full potential of the benefits we could provide the 
country. The original term of the provision was three years, and it was 
temporarily extended six times since first enacted. In the last 
Congress legislation was introduced to make the credit permanent. It 
was one of the most heavily co-sponsored pieces of legislation in the 
116th Congress, with a bi-partisan majority of 303 Representatives. The 
T&I Committee and particularly your Rail Subcommittee led the way in 
this effort. Almost every one of your Members co-sponsored the 
legislation and you were constant cheerleaders on our behalf. The 
credit was made permanent in December of 2020. As I noted at the 
outset, short line railroading is one of the most capital-intensive 
industries in the country. We were old infrastructure operating in a 
new world and the tax credit was and will continue to be a critical 
element in helping us preserve and rebuild that infrastructure.
    It is as you suggest ``full steam ahead for rail'' and your support 
for the tax credit has given us a full head of steam as we move 
forward. For that we are most grateful.
    My fellow railroad panelist from BNSF will I'm sure highlight the 
substantial economic and environmental benefits of the railroad 
industry writ large. I will not repeat those same points but let me put 
a short line slant on some of them.
    In 2019 the Short Line Association engaged Price Waterhouse Coopers 
(PwC) to take an independent look at the economic contribution of the 
short line industry. I have attached a copy of that report, along with 
an easier-to-digest 2-page overview of the short line industry which 
repeats some of the same information. Among the study's findings:
    <bullet>  The short line industry directly provides 17,000 jobs 
annually, paying labor income of $1.1 billion and adding $2.2 billion 
to the nation's GDP;
    <bullet>  Operational spending by the industry supported 33,730 
indirect and induced jobs and capital spending supported another 10,240 
jobs;
    <bullet>  Across the US economy .51% of business inputs rely on 
transportation services provided by short lines, amounting to 478,820 
jobs, $26.1 billion in labor income and $56.2 billion in value added.

    Our contribution to economic progress is also measured in ways 
beyond these more traditional statistical measurements.
    Short lines preserve service and jobs over track that was headed 
for abandonment. For thousands of communities across the country, short 
line rail service is the only connection to the national railroad 
network. For the businesses and farms in those communities, this 
connection is an economic lifeline.
    Railroads not only allow shippers to succeed but also support 
thousands of contractors and suppliers and the broader American 
economy. Much of what goes into our track--the ties, the rail, the 
ballast--is made in America, so most of the dollars we spend are spent 
in America, supporting American workers, and American industry and 
innovation. Over the last five years, the Arkansas and Missouri has 
spent over $26m on maintenance-of-way operating and capital expenses.
    Rail rehabilitation is labor intensive. As small businesses, most 
short lines do not have the necessary in-house labor force or 
specialized equipment to complete major rehabilitation projects so they 
must hire additional contractors and lease heavy machinery for most of 
the work. The Federal Railroad Administration estimates that half of 
every dollar spent on short line track rehabilitation goes to pay 
workers.
    As those of you who represent rural areas know, it is difficult to 
create jobs in rural America. According to the U.S. Department of 
Agriculture, from its post-recession low in 2010 through 2017, rural 
employment grew at an average annual rate of only 0.5% compared to 1.8% 
in urban areas. Short lines and the shippers they serve are a 
significant source of good paying jobs in rural America.
    Short lines lower transportation costs for shippers. One rail car 
holds the equivalent of three to four truckloads. In addition, here is 
a typical example from my railroad--our rate for moving a ton of 
freight 54 miles from Butterfield, MO to Springdale, AR is about one-
third of the truck rate. That level of savings can be cited for most 
short lines and is a very meaningful number for the businesses and 
farmers we serve.
    I cannot pretend that these numbers are more than a footnote in an 
economy measured in the trillions of dollars. But for those shippers we 
keep connected, for those communities where we create economic 
activity, for the employees we hire, these are most assuredly 
meaningful numbers.
    The environmental benefits of rail transportation have been well 
documented and are impressive. The transportation sector is the biggest 
source of greenhouse gases in the United States. EPA data show that 
rail, which accounts for 40% of U.S. long distance freight volume, is 
responsible for just 2.1% of the sector's emissions. You will hear 
today from my Class I colleague, Tom, that freight trains move on 
average one ton of freight more than 470 miles on one gallon of diesel 
fuel.
    Highway congestion is a significant contributor to harmful 
emissions. As noted, the average railcar holds the equivalent of three 
to four truckloads and removing those trucks from the highway helps 
reduce congestion. The rail industry handles about 12 million carloads 
annually which is the equivalent of about 40 million truckloads, plus 
another 13 million intermodal containers and trailers annually.
    Trucks impose an exponentially greater amount of wear and tear on 
pavement than do passenger automobiles. Each truckload avoided thanks 
to short lines saves resources that would otherwise have to be used to 
more frequently rehabilitate or replace road facilities. This is a 
particular concern for rural areas and small cities and towns that are 
commonly served by our industry.
    Short lines are often the custodians of expensive bridges and 
tunnels that were originally built by the much larger railroads and are 
reaching the end of their useful life. Rehabilitation or replacement of 
this legacy infrastructure results in substantial benefits. In 2018 the 
Arkansas & Missouri successfully secured a TIGER grant, now known as 
BUILD grants, to rehabilitate three deteriorating railroad bridges. A 
successful application requires a detailed analysis of the 
environmental benefits of the grant. In this instance that analysis 
showed substantial benefits associated with the reduction of harmful 
emissions.
    From all indications it appears the new Administration and many in 
Congress will be pushing for a robust infrastructure program. The 
Transportation and Infrastructure Committee will surely play an 
important role in developing that program and your Rail Subcommittee 
will have a significant say in how short lines are included. As you 
begin to craft that legislation let me offer some programmatic 
recommendations that we think would maximize the economic and 
environmental benefits that we offer.
    We strongly support the CRISI program as it specifically provides 
for short line eligibility and puts a focus on benefit-cost analysis. 
We think with that level playing field, short line projects will fare 
well. The authorization levels for the program should be significantly 
increased and there should be no big, new set-asides (e.g. for commuter 
or passenger or large projects) to ensure an even playing field for all 
applicants, including small business freight railroads.
    We are also supportive of the INFRA grant program, or a successor 
program such as PNRS as proposed in H.R. 2 in 2020. There is value in a 
merit-based discretionary grant program open to multiple modes of 
transportation, especially one that is focused on freight and goods 
movement. We recommend three changes to this program.
    <bullet>  Allow the program to support the most efficient and 
effective freight projects by fully removing or at least significantly 
increasing the $500 million cap on non-highway portions of the 
multimodal freight projects, as suggested in H.R. 2 in 2020.
    <bullet>  Ensure that the program can fund efficient and effective 
projects by increasing the ``small projects'' set aside. Currently, the 
10% cap on small projects, defined as a minimum grant of $5 million for 
projects that do not meet the $100 million project minimum, does not 
provide enough opportunity for INFRA grants to be used to help with 
most short line infrastructure projects. The small set-aside 
discourages short lines from applying for this program. The 10% set 
aside should be increased to 25% to more accurately represent the many 
needs in the less populated regions of the country. The proposal in 
last year's H.R. 2 to eliminate the small set-aside entirely in PNRS 
would move in the wrong direction and we hope will be reconsidered.
    <bullet>  Maintain reasonable non-federal share requirements for 
INFRA grants, and consider increasing the maximum permissible share of 
INFRA program funding per project from 60% to 80% for small projects. 
Giving increasing preference to grant requests with ``over-matching'' 
may appear logical but can lead to missing otherwise important short 
line projects that cannot overmatch with internal funds or are not 
located in urban areas that enjoy significant taxing and bonding 
authority.

    Include short line railroad projects in any new transportation 
grant programs targeting emissions, congestion reduction, resilience or 
any other goal where short lines can help be part of the solution. For 
instance, H.R. 2 in 2020 created two new programs (Sec. 1202, 
Increasing the Resilience of Transportation Assets--Pre-disaster 
Mitigation Program and Sec. 1213--Carbon Pollution Reduction) in which 
short line projects were not eligible but could have and should have 
been. Not only is rail an environmentally friendly way to move freight, 
it is also an attractive option to provide resilient infrastructure 
that can serve as an alternative to the highway system. Adding freight 
rail project eligibility would help achieve the goals of the program 
and moving some freight to rail also improves mobility on public roads.
    As was done in H.R. 2 in 2020, the state freight highway formula 
program should become more multimodal and eliminate the non-highway 
cap, so that program can become a source of funds for State DOTs to use 
to support freight rail projects if they choose. There are a growing 
number of states that manage small freight rail grant programs--while 
these programs pale in comparison to the state road programs, and there 
are still many states that don't have any program, they are a step in 
the right direction.
    In addition to these specific programs, we would suggest several 
general principles that would help short lines better utilize any 
infrastructure program.
    1.  Short lines should be directly eligible applicants for project 
grants, similar to CRISI. Too often in the past, federal programs have 
been only open for application to local units of government, which in 
turn requires short lines to create unnecessarily complex and 
burdensome applicant structures and which sometimes favors politically 
popular projects over economically beneficial projects.
    2.  The application process needs to be as simple and transparent 
as possible. Short lines are small businesses and generally the 
individuals writing and engaging with the government on our 
applications are employees with other duties on the railroad. We do not 
have full time grant writers or the resources to hire expensive 
consulting firms.
    3.  The analysis used to judge a project should not be a rigid one-
size-fits-all process. For example, the process to apply, the public 
planning and the engineering required, and the appropriate benefit-cost 
analysis format for incrementally upgrading a ten-mile segment of 
existing track serving five small grain elevators should not be the 
same as building a new subway line or adding lanes to an interstate 
highway.
    4.  If there is to be an associated environmental approval process, 
it must be completed in a reasonable period of time. Approval processes 
that last for years are a deal-killer to those running a business.
    5.  The process of getting from award to grant agreement can be 
very slow. The committee should work with appropriators to ensure a 
sufficient ``take down'' is authorized and provided within grant 
programs for the FRA's grant administration tasks, so that the 
resources are ample to enable the most efficient grant agreement 
negotiation and execution process possible. Short lines, more so than 
many other modal recipients, can be at a disadvantage in terms of the 
administrative and legal resources with which to engage the FRA's grant 
program managers and environmental and permitting specialists following 
award.
    6.  Imposing limits on a state DOT's number of grant submissions 
allowed in a round of a program forces pre-application competition 
between smaller short line projects and other larger projects, often 
putting the smaller short line project at a disadvantage.
    7.  Do not equate funding for passenger rail with funding for short 
line railroads. There is certainly a strong case to be made for taking 
people off the highways and onto Amtrak and other commuter rail 
services. But if passenger rail becomes the dominant placeholder for 
``checking the rail box'' Congress will lose a significant opportunity 
to fund short line programs that offer significant economic and 
environmental benefits.

    Avoid any Increases to Truck Size and Weight (TSW) limits--Any 
increases and exceptions to current federal limits would further 
subsidize our competition on the highway, alter the economics of 
freight shipping, and would result in a shift from freight rail to 
truck transportation which would be harmful to everyday drivers, the 
environment and the public infrastructure paid for with taxpayer 
dollars. We oppose any legislation that increases current limits. 
Personally, I expect that with an increase to the size and weight of 
trucks, my railroad could lose more than 50 percent of our business.
    Avoid unnecessary operational mandates such as a crew size 
mandate--This would be a major problem for all railroads. We maintain 
this entire concept is unnecessary considering the lack of data 
regarding any safety benefits of such a mandate and the overall safety 
record of freight railroads. It would also discourage future innovation 
and legislates on an issue that has properly been the subject of labor 
negotiations for more than a century. Further, this mandate would 
disadvantage railroads in the competition for freight and over time 
shift freight to the highway, where it is inherently more dangerous and 
less environmentally sustainable.
    I sincerely appreciate the opportunity to give the views of the 
short line industry at this hearing. I would like to conclude with a 
personal observation which I believe is shared by many of my 
colleagues. I am a businesswoman running a small business and I do not 
pretend to understand the pressures, processes and politics that govern 
your world. I was however involved in the decades long effort to extend 
and then make permanent the short line industry's 45G tax credit and I 
learned an important lesson from that experience. When we launched that 
initiative in 2003, short line economics were little understood by the 
majority in Congress. Indeed, for many, short lines were just a quaint 
name on the Monopoly board.
    We worked hard at developing and documenting our story and Members 
of Congress gave us the time to tell that story, took the time to 
understand the story, and visited our local properties to get a first-
hand look at who we were and what we did. Most importantly, our 
Congressional allies committed to leading a bi-partisan effort, 
regardless of who controlled Congress. We worked to extend this 
legislation in seven separate sessions of Congress, and party control 
of the House and/or Senate changed many times during that period. 
Regardless of party control, and often in the face of fierce partisan 
battles, our chief sponsors never wavered in their commitment to 
sticking together in bi-partisan support of the legislation. It showed 
me that government works when you work hard at working it out. We need 
that today more than ever and I hope that can be the spirit in which 
you approach creating a much-needed infrastructure package.
     attachment 1: fact sheet--short line and regional railroad 101


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  attachment 2: report entitled ``the section 45g tax credit and the 
      economic contribution of the short line railroad industry''
    The report is retained in committee files and is available online 
at the House of Representatives document repository at https://
docs.house.gov/meetings/PW/PW14/20210310/111275/HHRG-117-PW14-Wstate-
KraskaC-20210310-SD002.pdf
    Mr. Payne. Thank you, Ms. Kraska.
    Now we will hear from Mr. Regan for 5 minutes.
    Mr. Regan. Thank you. On behalf of the Transportation 
Trades Department, AFL-CIO and our three affiliated unions, I 
want to first thank Chair Payne and Ranking Member Crawford for 
inviting me to testify before you today.
    I also want to recognize that this is Chair Payne's first 
hearing since taking the gavel. TTD and our rail unions are 
looking forward to your leadership on the subcommittee, and 
working together on an ambitious, pro-rail, pro-worker agenda.
    The railroad sector is one of the most storied industries 
in American history. From the founding of the Baltimore and 
Ohio Railroad in 1827, to the laying of the first 
transcontinental railroad, to today's best-in-world freight 
network, the rail industry has been and continues to be a core 
driver of the American economy and a way of life.
    For decades, railroad employment has provided a path to the 
middle class for millions of Americans, due to strong 
collective bargaining agreements and high union density. While 
the total amount of employees represented by a union has, 
unfortunately, decreased, representation remains strong at 
railroads. As a direct result, rail employees continue to earn 
good wages and benefits, even as economic progress has stalled 
for many.
    These good jobs are not only found on the coasts or in 
major cities. In fact, there are railroad employees in every 
single congressional district in the United States, whether 
urban or rural, coastal or inland, Midwest or Deep South.
    Importantly, these jobs are accessible to everyday 
Americans. Most railroaders do not have a college education, 
but through rail employment have become highly skilled and earn 
compensation that significantly outpaces average wages for high 
school graduates. As the U.S. economy has changed over time, 
and various industries have risen and fallen, jobs in the 
railroad continue to be a path forward toward a financially 
secure livelihood and a dignified retirement.
    The industry also creates good jobs outside of the 
railroads themselves. Two shining examples of this are the 
manufacture of Amtrak's new Acela train sets by International 
Association of Machinists and Aerospace Workers members at 
Alstom's Hornell, New York, plant, and the construction jobs 
associated with rail infrastructure projects like Gateway and 
new high-speed rail systems.
    Rail employees power a key economic background for our 
economy. Most recent data shows that Class I railroads alone 
generated approximately $219.5 billion per year in economic 
output. In fiscal year 2019, Amtrak carried 32.5 million 
passengers, including 820,000 trips per day along the Northeast 
Corridor, moving a workforce that contributes more than $50 
billion annually to the national economy.
    While the economic impacts of the rail industry today are 
impressive, we must continue looking toward the future. For 
example, intermodal traffic is increasingly a key source of 
business for the freights. But we also know that rail 
connectors and on-dock rail at our Nation's ports and harbors 
are badly lacking, leaving revenue and good jobs on the table.
    On passenger rail, for years we have fought for 
improvements on Amtrak's Northeast Corridor and to preserve 
Amtrak's national network, which connects many of Amtrak's 
rural destinations. Amtrak is our national passenger rail 
carrier, and we will continue to advocate for its existing 
services. But we also believe that there is room, opportunity, 
and, frankly, demand for expansion to cover new and underserved 
destinations, as well as new and innovative high-speed rail 
enterprises.
    I hope that Congress will support these new frontiers of 
passenger rail service, and to provide the appropriate Federal 
investments, labor protections, and procurement requirements 
necessary to expand passenger rail and meet service demands and 
open new markets.
    In relation to both freight and passenger rail, my fellow 
panelists have discussed the environmental benefits of the 
railroad industry. To maximize these benefits, Congress, rail 
employers, and manufacturers must act to leverage the 
developments and procurement of new green technologies to 
create good jobs. They must work in partnership with rail 
employees when building and deploying these technologies to 
best promote safety, reliability, and interoperability.
    While there is a bright future for rail and its workforce, 
we must maintain the promise of the industry as a meaningful 
sector of good jobs capable of elevating employees to the 
middle class. However, we sit at a critical juncture for the 
future of railroads.
    As noted in my written testimony, employment in Class I 
railroads has fallen precipitously and rapidly. Recent 
reporting shows that employment in Class I's has hit its lowest 
levels in at least 10 years. And in just the last few years, 
these railroads have cut approximately 25 percent of their 
entire workforce. These rapid changes in the industry are not 
due to sudden obsolescence or deep declines in revenue, but 
rather they are due to maximizing profit margins. However, 
operating on such thin headcounts has and will continue to have 
negative impacts on safety, a railroad's ability to serve its 
customers, and the existence of good jobs and the long-term 
health and viability of the sector.
    Freight, passenger, and commuter railroads represent an 
integral component of our economy and our efforts toward a 
greener future. It is our hope that today's testimony will 
shine a greater light on the importance of this industry. And 
we look forward to working with you to secure that position for 
decades to come. Thank you for the opportunity to testify 
today.
    [Mr. Regan's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Greg Regan, President, Transportation Trades 
                          Department, AFL-CIO
    On behalf of the Transportation Trades Department, AFL-CIO (TTD) 
and our 33 affiliated unions, I want to first thank Chairman Payne and 
Ranking Member Crawford for inviting me to testify before you today. I 
also want to recognize that this is the Chairman's first hearing since 
taking over the gavel--TTD and our rail unions are looking forward to 
your leadership on the Subcommittee and working together on an 
ambitious pro-rail and pro-worker agenda.
    We concur in the strongest terms with the theme of this hearing. 
The positive economic and environmental impacts of our freight and 
passenger rail networks are vast, and we appreciate their recognition 
at this hearing. We would be remiss if we did not also highlight that 
recognition must also be extended to the dedicated workforce who have 
kept these systems running over the course of the COVID-19 pandemic. 
Rail employees have continued to brave the risks of infection or even 
death to continue to move people and goods across the nation. The 
present, and future, of this industry is dependent on hard-working 
railroaders of every craft and class. We strongly support recent 
efforts by the Department of Transportation and the Federal Railroad 
Administration to keep these employees safe, and hope that such efforts 
will remain a focus going forward.
                      Economic Impacts for Workers
    The railroad sector is one of the most storied industries in 
American history. From the founding of the Baltimore and Ohio Railroad 
in 1827, to the laying of the First Transcontinental Railroad, to 
today's ``best-in-world'' freight network, the rail industry has been, 
and continues to be, a core driver of the American economy and way of 
life.
    For decades, railroad employment has provided a path to the middle 
class for millions of Americans due to strong collective bargaining 
agreements that have allowed unionized employees to access some of the 
profit of their labor. To put this in perspective, in 2020 private 
sector unionization rates broadly dropped to 6.3% of workers.\1\ 
However, nearly all employees of Class I railroads, Amtrak, and heavy 
rail commuters are union represented and representation is also high at 
other employers in the industry. This union density has led directly to 
the adoption of labor agreements that provide good wages and benefits. 
In contrast, earnings for most of the country have stagnated, as real 
average wages have not increased for most workers in 40 years, millions 
of Americans struggle to achieve a living wage, and healthcare costs 
remain prohibitive for many.
---------------------------------------------------------------------------
    \1\ https://www.bls.gov/news.release/union2.nr0.htm
---------------------------------------------------------------------------
    These goods jobs are not found only on the coasts or in major 
cities. In fact, there are railroad employees in every Congressional 
District in the United States--whether urban or rural, costal or 
inland, Midwest or Deep South.\2\ Further, these jobs are accessible. 
Most railroaders do not have a college education, but through rail 
employment they can become highly skilled and earn compensation that 
significantly outpaces average wages for high school graduates.\3\ 
Unions have also led the way in the development of partnerships for 
training and certifications for the skilled positions required for rail 
operations. Where these programs have been deployed in conjunction with 
labor representatives, these programs have proven to be extremely 
valuable. As the U.S. economy has changed over time, and sectors have 
risen and fallen, jobs on the railroad continue to be a path towards a 
financially secure livelihood and a dignified retirement through the 
Railroad Retirement system.
---------------------------------------------------------------------------
    \2\ https://www.rrb.gov/sites/default/files/2020-09/District.pdf
    \3\ In 2019, those without a high school diploma had median weekly 
earnings of $592, those with a high school diploma had median weekly 
earnings of $746. https://www.bls.gov/careeroutlook/2020/data-on-
display/education-pays.htm
---------------------------------------------------------------------------
    Workforce impacts also go beyond direct employment at the 
railroads. With the help of well-considered domestic procurement 
policies, the production of rail equipment like trainsets contributes 
to the revitalization of the U.S. manufacturing base. The construction 
of Amtrak's new Acela trainsets by International Association of 
Machinists and Aerospace Workers members at Alstom's Hornell, NY plant 
is a shining example for other rail carriers seeking to procure 
innovative 21st century rail equipment while creating good domestic 
jobs.
    The substantial infrastructure needs of both freight and passenger 
rail also generate jobs in the construction sector. Whether that be 
repairing aging tunnels, like the Civil War-era Long Bridge connecting 
D.C. and Virginia; building entire new rail systems, like California 
High Speed Rail or the Texas Central Railway; or maintaining the 
infrastructure needed to move freight and passenger rail over the 
140,000 miles of track, 100,000 bridges, and thousands of stations that 
make up the U.S. network; both today's needs and tomorrow's investments 
will put construction employees to work.
                    Economic Impacts for the Nation
    The impacts of the freight rail network on the broader economy are 
substantial. According to the Federal Railroad Administration (FRA), 
rail accounts for approximately 40 percent of U.S. freight moved by 
ton-miles, the most of any mode of transportation, and 16 percent by 
tons.\4\ In 2017, the share of that movement by the Class I railroads 
alone generated approximately $219.5 billion in economic output, and 
$26 billion in total tax revenues.\5\ In totality, the vast expanse of 
the freight rail network connects ports to factories to farms to small 
businesses, and in doing so is an irreplaceable cog in the movement of 
goods and domestic commerce.
---------------------------------------------------------------------------
    \4\ https://railroads.dot.gov/rail-network-development/freight-
rail/freight-rail-overview-0
    \5\ https://www.aar.org/wp-content/uploads/2018/11/AAR-Class-I-
Railroad-Towson-Economic-Impact-October-2018.pdf
---------------------------------------------------------------------------
    However, even with the largest freight rail network in the world, 
opportunities for growth are many and must not be ignored. For example, 
intermodal carloads, generally shipping containers travelling by water, 
truck, or air in addition to rail, are an increasingly large component 
of railroads' business. In a report conducted by the American 
Association of Port Authorities, 80% of ports said they were seeking 
better rail access, 90% said better rail access would help meet growing 
demands, and almost half of ports said that more access would allow 
them to increase capacity by more than 25%.\6\ In conjunction with 
record volumes at large costal ports like New York/New Jersey, and LA/
Long Beach, these responses underscore that there are still unmet needs 
and untapped growth for freight rail and rail jobs.
---------------------------------------------------------------------------
    \6\ https://aapa.files.cms-plus.com/PDFs/
State%20of%20Freight%20III.pdf
---------------------------------------------------------------------------
    In FY '19 and FY '20, Congress took an aggressive approach towards 
the need for on-dock rail at ports through robust funding of the Port 
Infrastructure Development Program. In 2020, of 18 projects awarded, 10 
were partially or exclusively for rail improvements. TTD is strongly 
supportive of these efforts and of future efforts to identify areas 
where federal investment may be warranted.
    The connectivity offered to communities around the country by 
passenger rail is equally essential. In FY' 19, Amtrak carried 32.5 
million passengers, setting ridership records on its Northeast Corridor 
(NEC) and state supported routes. On the NEC, this largely consists of 
business and work travel. Former CEO Richard Anderson noted that along 
the Corridor ``commuter rail and Amtrak intercity services provide 
820,000 trips each day, moving a workforce that contributes more than 
$50 billion annually to the national economy.'' Off the Corridor, 
Amtrak's National Network connects many of Amtrak's rural destinations, 
providing critical service to cities unconnected or underserved by 
other transportation modes, and fulfilling Amtrak's obligations to 
function as a true national passenger rail network.
    As we look forward to the future of passenger rail, we hope for 
Congress' continued support for Amtrak and its 20,000 employees. 
Support not only to maintain a robust network, but also to improve 
service and reach more communities. In a recent letter to Congress, CEO 
Bill Flynn called for support for new ``corridor'' routes, connecting 
destinations of less than 500 miles apart that currently do not have 
service, or have service that is too infrequent or inconvenient. TTD 
strongly supports Amtrak's expansion in these markets and the improved 
services and job creation that would come with. We are also encouraged 
by other efforts to bring state-of-the-art passenger rail projects to 
the U.S., including the previously discussed high-speed rail endeavors. 
It is our hope that Congress will consider multiple new frontiers of 
passenger rail service, and the appropriate application of federal 
investments, requisite labor protections, and procurement requirements, 
in order to expand passenger rail to meet service demands, open new 
markets, and spur job growth.
    For both passenger and freight rail, continued economic and 
environmental importance is predicated on both bold strategies and 
investments for the future but also on ensuring that today's challenges 
are not permitted to go unaddressed. As mentioned above, there is no 
lack of critical infrastructure projects across the country, and 
frequently the cost of inaction is high. The Northeast Corridor creates 
and supports 30 percent of the nation's jobs and 20 percent of our GDP, 
yet without the completion of the Gateway Project, trains will continue 
to be forced to rely on infrastructure more than a century old that 
creates constant bottlenecks, has high maintenance costs, and carries 
substantial risks to both human lives and the economy.
    Similarly, the B&P Tunnel was constructed in 1873, and is both near 
the end of its useful life and no longer suitable for the traffic that 
passes through it. Currently, the tunnel is a chokepoint in which the 
right-of-way is reduced from four to two tracks, and the curve of the 
tunnel requires speed to be reduced to 30 miles per hour. These 
limitations slow down the approximately 55 MARC trains and 88 Amtrak 
trains that pass through the tunnel daily, carrying over 20,000 people 
pre-pandemic.\7\ In both examples, addressing today's needs will be 
essential to having a world-class rail network in the future that 
remains capable of delivering economic growth and good jobs.
---------------------------------------------------------------------------
    \7\ http://www.bptunnel.com/content/dam/bptunnel/pdfs/
PurposeAndNeed/PurposeAndNeed_BPTunnel.pdf
---------------------------------------------------------------------------
                         Environmental Impacts
    Today's industry witnesses will discuss the details of the green 
technologies which are currently in use, making rail the ``greenest'' 
form of freight transport by land, as well as the innovations they plan 
to introduce in the future. The environmental considerations of rail 
will safeguard the industry's viability going forward as businesses and 
policymakers choose cleaner solutions, and TTD encourages these 
efforts.
    We further call on Congress, rail employers, and manufacturers to 
leverage the development and procurement of new green technologies to 
create new jobs in this country, and to work in partnership with rail 
employees when building and deploying these technologies to best 
promote safety, reliability, and interoperability, and to further 
ensure that enthusiasm for these new developments is not adopted as a 
replacement for well-considered and strongly enforced safety 
regulation.
                     Fulfilling the Promise of Rail
    While there is a bright future for rail and its workforce, we must 
maintain the promise of the industry as a meaningful creator of good 
jobs capable of elevating employees to the middle class. However, today 
we sit at a critical juncture in the direction of the sector. Recent 
reporting shows that employment at Class I freight railroads has hit 
its lowest levels in 10 years, if not longer, and is down a disturbing 
11.6% from January 2020.\8\ While some job loss was directly 
attributable to the pandemic, industry data demonstrates that even as 
carload volume began to normalize to 2019 levels in the second half of 
2020, headcounts have failed to increase in keeping with increased 
business, or to record revenues recorded in recent years.
---------------------------------------------------------------------------
    \8\ https://www.freightwaves.com/news/us-class-i-rail-headcount-
sinks-to-near-decade-low
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

---------------------------------------------------------------------------
                              Source: AAR

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Source: Freightwaves via Bureau of Labor Statistics

    Unfortunately, this is not a new trend, nor is it exclusive to the 
pandemic. Due in large part to changes to operating models, employment 
at Class I carriers has been in precipitous decline over the last 
several years--between September 2016 and this January, Class I's 
collectively have shed 25% of their workforce.\9\ Similar data also 
appears in the Railroad Retirement Board's accounting of rail industry 
employment broadly.
---------------------------------------------------------------------------
    \9\ STB Employment Data ``STB EMP COMP JAN 21''.
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Source: Railroad Retirement Board, Average Railroad Employment, 5 Year 
                                 Graph

    These rapid changes to the industry are not being made due to 
sudden obsolesce or deep declines in revenue, but are instead borne out 
of decisions to increase profit margins. Historically, the financial 
performance of the railroads has been intrinsically linked to the well-
being of its workforce. However, in this case we are gravely concerned 
with the consequences of such a dramatic decrease in employment in such 
a short time frame, and the implications this has for safety, the 
railroads' ability to serve their customers, and the long term health 
and viability of the sector. TTD recently raised these concerns at a 
similar hearing held by the Senate Commerce Committee.
    Finally, the quality of employment offered by the rail sector is 
tied not only to fair wages and compensation, but also to workplace 
safety and the existence of strong safety culture. The members 
represented by TTD-affiliated unions have long been at the vanguard of 
fighting for safety improvements in the industry, and their combined 
skill and expertise prevent accidents and save lives on a daily basis. 
However, it is essential that rail employers are considered equal 
partners in promoting safety as new technologies and reimaginings of 
the function of the rail network are developed. No one understands the 
realities of rail operations on the ground as well as frontline 
workers, and whether it be the deployment of new technologies, the 
crafting of new work rules, or the promulgation of new regulations, the 
meaningful inclusion of rail workers in these conversations is the only 
way to maintain and promote safety now and in the future.
    Whether freight, passenger, or commuter, railroads represent an 
integral component of our economy and of our efforts towards a greener 
future. It is our hope that today's testimony has shined a greater 
light on the relevancy of the industry, and we look forward to working 
with you to secure that position for decades to come. Thank you for the 
opportunity to testify.

    Mr. Payne. Thank you, Mr. Regan.
    Now we will move on to Mr. Williams for 5 minutes.
    Mr. Williams. Thank you and good morning, Chairman DeFazio, 
Chairman Payne, Ranking Member Crawford, and members of the 
subcommittee. Thank you for inviting me today to discuss BNSF's 
perspective on the economic and environmental advantages of 
freight rail.
    I currently serve as group vice president for the Consumer 
Products business group at BNSF. Consumer Products is BNSF's 
largest business unit, consisting of domestic and international 
intermodal freight. And, including our automotive business, it 
represents more than 50 percent of the freight volume moving on 
our railroad.
    BNSF transports, on average, about 15 percent of all 
intercity ton-miles of freight that move in the United States, 
and does so safely. We have made significant safety progress 
and partnership with our employees, and also by continually 
exploring and investing in innovative technology that helped 
make the railroads safer, more efficient, and more sustainable.
    Despite the pandemic, our railroad handled more than 9\1/2\ 
million carloads, trailers, and containers of freight last 
year. BNSF reinvests significant capital into our network each 
year to safely and efficiently handle these traffic volumes, 
and to position our railroad for growth opportunities into the 
future. Since 2000, BNSF has invested more than $70 billion 
back into the railroad.
    Rail has historically and will continue to play a critical 
role in serving the Nation's freight transportation needs. 
According to the Association of American Railroads, rail 
accounts for more than 40 percent of long-distance freight 
volumes.
    There are significant economic and environmental advantages 
to moving all kinds of freight by rail. But this morning, I 
would like to focus in particular on the value proposition of 
rail intermodal. There is a good reason for the continued 
strong growth of intermodal across U.S. supply chains. It is 
the most cost effective and environmentally efficient mode of 
transporting freight. Intermodal combines the strength of 
different transportation modes to yield an efficient total 
movement of the goods that Americans use and rely on every day.
    Rail's role in intermodal is critical. For perspective, one 
BNSF intermodal train can carry up to several hundred 
containers and trailers of freight, removing that same number 
of trucks from our Nation's highways. The resulting safety, 
economic, and environmental benefits are compelling. Utilizing 
rail is now widely recognized by our customers as an effective 
strategy to achieve significant carbon emission savings in 
their supply chains.
    BNSF has even developed a tool to aid our customers in 
quantifying the environmental benefits of rail by estimating 
the carbon footprint and savings when shipping on our railroad. 
Over the past decade, BNSF has helped our customers and the 
Nation avoid more than 80 million metric tons of CO2 emissions. 
EPA data shows that freight rail accounts for just 2 percent of 
transportation-related greenhouse gas emissions. So just the 
fact that rail exists in its current form creates opportunities 
to reduce emissions in supply chains.
    But beyond just relying on this inherent benefit, BNSF 
continues to work to increase the efficiency of our network, to 
maximize our competitiveness in the global marketplace, while 
minimizing our impact on the environment. This includes 
utilizing the latest fuel-optimizing technologies and improving 
locomotive efficiency, with BNSF having the largest number of 
the newest and cleanest burning locomotives in North America.
    We are also actively pursuing other means to reduce our 
carbon emissions and utilize more sustainable technology in our 
operations. For example, we are currently partnering and 
testing a battery electric locomotive, an initiative which 
builds on other BNSF investments in and commitment to 
sustainable technologies that were outlined in my written 
statement. These include the use of battery-electric hostler 
trucks; the deployment of zero-emission, electric, wide-span 
cranes at our intermodal facilities; and the broad rollout of 
intermodal automated gate systems, just to name a few.
    In closing, freight railroads are poised to play an 
increasingly important role in meeting the growing demand for 
goods movement in the U.S. The economic and environmental 
advantages of rail, supported by significant private capital 
investment and ongoing innovation, will help maintain U.S. 
competitiveness, and position the country to play a leading 
role in sustainable transportation.
    And finally, as I highlighted in my written testimony, 
smart public policy decisions can help all of these goals.
    Thank you for this opportunity to address the committee, 
and I look forward to any questions.
    [Mr. Williams' prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Tom G. Williams, Group Vice President, Consumer 
                     Products, BNSF Railway Company
                              Introduction
    Good Morning Chairman Payne, Ranking Member Crawford and members of 
the Subcommittee. My name is Tom Williams and I am Group Vice President 
for the Consumer Products business unit of BNSF Railway Company (BNSF). 
Consumer Products is BNSF's largest business unit--consisting of 
domestic and international intermodal freight along with automotive--
and represents more than 50% of the freight volume moving on our 
railroad. Thank you for inviting me today to discuss BNSF's perspective 
on the economic and environmental advantages of freight rail.
    BNSF is a wholly-owned subsidiary of Berkshire Hathaway and one of 
North America's leading freight transportation companies with a rail 
network of 32,500 route miles in 28 states and three Canadian 
provinces. BNSF transports on average about 15% of all intercity ton-
miles of freight that moves in the United States. In 2020 and despite 
the impacts of the COVID-19 pandemic on the U.S. economy and around the 
world, BNSF handled 9.5 million units (carloads and intermodal 
containers and trailers) of freight. In total, BNSF typically operates 
about 1,500 trains per day, including 245 passenger trains that run 
over our network.
    To handle these traffic volumes safely and efficiently, BNSF 
reinvests significant capital into its network every year. These 
investments play a key role in our ability to operate a safe and 
reliable network, and support operating and technology improvements 
that drive sustainability, efficiency, resiliency and capacity. Since 
2000, BNSF has invested more than $70 billion into the railroad, 
providing the foundation to reliably and consistently meet customer 
expectations and position for future freight opportunities. The 
predominately privately funded U.S. freight rail industry continues to 
be a tremendous competitive advantage for our country.
                     The U.S. freight supply chain
    The U.S. freight supply chain plays a critical role in ensuring our 
nation's economic competitiveness by efficiently connecting producers, 
manufacturers and consumers domestically and in export markets around 
the globe. According to the latest Federal Highway Administration 
(FHWA) and Bureau of Transportation Statistics (BTS) data, nearly 20 
billion tons of goods worth almost $19 trillion moved on the U.S. 
freight transportation network in 2017. Total freight across all 
transportation modes is projected to reach 27 billion tons by 2045 with 
a value of $38 trillion.
    Significant investment along with innovation in asset utilization, 
operational efficiencies and resiliency will be needed across the 
entire supply chain to meet this anticipated growth in freight demand. 
Rail has historically and will continue to play a critical role in 
serving the nation's freight transportation needs. According to the 
Association of American Railroads (AAR), rail accounts for 40% or more 
of long-distance freight volumes and hauls close to one-third of the 
country's exports. International trade accounts for approximately 35% 
of U.S. rail revenue and 42% of the carloads and intermodal units 
carried by U.S. railroads. The inherent economic and environmental 
advantages of rail are likely to result in the industry handling an 
increased share of intercity freight volumes in the future.
              Moving freight during the COVID-19 pandemic
    BNSF plays an important role in moving freight across the nation 
every day. Our customers ship consumer goods, industrial products 
including construction and building materials, agricultural 
commodities, energy products and various other freight on our railroad. 
And while the world around us changed last year due to the COVID-19 
pandemic, our important freight delivery mission did not and ultimately 
showcased the dependability of our people and operations.
    BNSF had expected to achieve modest freight volume improvements 
heading into 2020 but the pandemic caused the economy and freight 
environment to deteriorate in a very short period of time. BNSF volumes 
began falling in the first quarter of the year and this trend 
accelerated as the COVID-19 economic shutdown became widespread heading 
into the summer.
    As BNSF adjusted to this new environment, our leadership focused on 
two main objectives: Protecting the health of employees and continuing 
to deliver essential freight needed by our customers and the nation. 
BNSF made ongoing adjustments to its policies and protocols to protect 
the health and safety of our employees and the integrity of our 
operations. Railroaders were recognized early on as essential critical 
infrastructure workers and the men and women of BNSF responded to the 
call with optimism and perseverance, keeping trains moving during a 
very challenging time.
    A freight rebound began in the summer and we saw significant volume 
improvement during the second half of the year, led mainly by our 
Consumer Products business. Lower international intermodal and 
automotive volumes in the first three quarters were offset by higher 
domestic intermodal volumes, which ultimately reached record levels for 
the year on our railroad. Increased retail sales, retail inventory 
replenishments, and e-commerce activity drove the second half recovery. 
We also saw strong demand in our grain export business while softness 
in U.S. industrial production and lower coal demand driven by reduced 
electricity demand, low natural gas prices and other factors (including 
the continued structural decline of coal) contributed to overall BNSF 
volumes being down 7% compared to 2019.
    There are positive signs that the U.S. economy continues to gain 
strength and that volume recovery will continue. BNSF serves every 
major port along both the West Coast and Gulf of Mexico with key 
transcontinental routes between Southern California and Chicago, the 
Pacific Northwest and Chicago and beyond. This past December and 
January were the two largest months in BNSF history for moving volume 
direct to rail off the ports in Southern California. We have called 
back furloughed employees and pulled railcars and locomotives out of 
storage to help handle the increased freight demand and drive improved 
fluidity through this gateway.
    BNSF did experience significant weather-related impacts in recent 
weeks following record-breaking cold temperatures as well as heavy snow 
and ice accumulations across large segments of the rail network. The 
extended duration of these extreme conditions, and their reach deep 
into our headquarters state of Texas, impacted our ability to maintain 
normal train operations. The railroad has since made significant gains 
in network velocity and fluidity but it will take some additional time 
to safely restore service to the level expected by our customers.
      The economic and environmental advantages of rail intermodal
    While there are significant economic and environmental advantages 
to moving all kinds of freight by rail, I will focus largely on our 
Consumer Products business and specifically the value proposition of 
rail intermodal. As I highlighted at the outset, more than 50% of the 
freight volume moving on BNSF is intermodal and those volumes are 
growing. This did not happen by accident; BNSF has devoted considerable 
effort and investment in developing the world's leading rail intermodal 
franchise.
    Intermodal is the most cost-effective and environmentally efficient 
mode of transporting freight, creating value for our customers, 
communities and the environment. BNSF remains upbeat about continued 
growth prospects in intermodal driven by projected future freight 
demand, changes in consumer behavior and related freight logistics, 
along with the increasing importance environmental issues--specifically 
carbon reduction--play in our customers' decisions about 
transportation.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The term ``intermodal'' was coined in the 1960s as the use of 
standardized shipping containers increased in popularity. Intermodal 
combines the strengths of different transportation modes to yield an 
efficient, cost-effective total movement of goods that Americans use 
every day. Intermodal is separated into two distinct categories: 
Domestic and international. Domestic intermodal is the movement of 53-
foot containers and 28 or 53-foot trailers within the U.S. that could 
travel exclusively by truck but that benefit from the cost savings and 
environmental advantages of riding on the railroad for the long haul 
portion of their journey.
    BNSF maintains the largest and most advanced domestic rail 
intermodal network in the world that combines the speed and flexibility 
of a truck with the efficiency, capacity and economies of scale 
provided by a train. Our intermodal facilities provide direct access to 
major distribution centers and warehouses throughout the U.S. These end 
points or ``hubs'' are located in key markets helping to maximize 
supply chain efficiencies and speed-to-market for our customers' 
freight. Domestic intermodal ultimately optimizes the roles and 
division of labor between truck and rail.
    International intermodal relates to goods shipped in 20 and 40-foot 
containers that travel between domestic and international ports and 
then move by rail to inland destinations. Inbound international 
container shipments arrive on a container ship at a port and those that 
are not distributed locally are loaded onto a train headed for the 
interior of the country. Containers may be loaded onto trains ``on 
dock'' or trucked a short distance to an ``off dock'' or ``near dock'' 
intermodal yard where they are sorted and loaded onto trains. BNSF's 
direct access to the major U.S. West Coast ports--the largest gateway 
between Asia and North America--helps our customers minimize their 
transit times and reduce overall emissions associated with their 
freight shipments.
    According to the Intermodal Association of North America (IANA), 
95% of worldwide manufactured goods move at some point in a container. 
Containers accounted for 47% of intermodal volume in 1990, 69% in 2000, 
and 92% in 2019. At $40 billion, the North American intermodal market 
value is the largest in the world with the share of rail intermodal 
having grown tremendously over the past 25 years. According to the AAR, 
U.S. rail intermodal volume increased from 5.6 million containers and 
trailers in 1990 to a record 14.5 million in 2018 before modestly 
declining in 2019. Intermodal accounted for close to 25% of revenue for 
major U.S. railroads in 2019, more than any other traffic segment.
    One intermodal train can carry up to several hundred containers and 
trailers, removing that same number of trucks from congested roadways 
and eliminating wasted time and fuel from trucks sitting in traffic. 
Shifting freight from trucks to privately funded railroads also reduces 
the pressure on policy makers at all levels of government to come up 
with new funding to maintain existing infrastructure and build new 
roads and bridges. As discussed in more detail below, trains are also 
much more fuel-efficient than trucks overall, which contributes to 
lowering carbon emissions, decreasing environmental impacts and 
enhancing safety.
    BNSF share gains over time in intermodal have come as the result of 
billions in capital investment in our rail routes, terminals to load 
and unload containers and technology to provide the customer the high 
levels of service and efficiency needed to ensure intermodal remains an 
enduring part of the supply chain. Since every container or trailer on 
a BNSF train could also travel by truck, we must provide service that 
is both cost effective and meets the stringent delivery needs of 
intermodal shippers. As you will read later in my closing comments, 
policymakers can play an important role in supporting the future of 
intermodal.
                             Sustainability
    Steel wheels on steel rail is the most sustainable way to move 
goods long distances over land. On average a U.S. freight train can 
move one ton of freight more than 470 miles on just one gallon of 
diesel fuel, making rail three or four times more fuel efficient than 
trucks and reducing greenhouse gas (GHG) emissions.
    One timely example to highlight how ongoing investments in rail 
infrastructure and multimodal transportation assets can promote 
sustainability and contribute to reducing transportation related 
emissions is the Salmon Bay Rail Bridge rehabilitation project located 
in Seattle, Washington. The bridge is a critical link to the Pacific 
Northwest's economy and gateway for international commerce with 30 to 
40 trains crossing the bridge every day, including Sound Transit and 
Amtrak passenger trains. The bridge requires a 200-foot movable span to 
accommodate the more than 40,000 marine vessel trips traversing the 
Ballard Locks and Lake Washington Ship Canal each year to and from 
Puget Sound.
    The movable span's counterweight system is in need of 
rehabilitation, which will include replacing the structural steel 
members and components that have reached the end of their useful life. 
Failure of the system would cause the bridge to be forced to the ``up'' 
position, cutting off freight and passenger rail traffic. A recent 
analysis found that a bridge outage would shift freight traffic to more 
circuitous rail routes or onto the highway system. Commuter and 
intercity rail passengers would also be impacted and diverted to area 
roadways. The analysis concluded that maintaining reliability of the 
movable span would save more than 200 million gallons of diesel fuel 
and associated emissions from alternative and less efficient freight 
movement, avoid the addition of more than 600 million over-the-road 
passenger miles, and preserve maritime access through the locks and 
canal.
    BNSF and other public and private stakeholders in the State of 
Washington are now working together on an innovative public private 
partnership to ensure continued reliable operation of this unique 
multimodal asset, to be completed in a manner responsive to community 
interest in preserving the bridge's historic features and minimizing 
impacts on the environment.
    At BNSF we know that environmental issues and specifically carbon 
reduction play an ever more important role in the transportation 
choices our customers are making. Shipping by rail can be part of an 
effective strategy to achieve significant carbon emissions savings and 
BNSF has developed a tool to aid our customers in quantifying the 
environmental benefits of rail by estimating the carbon footprint for 
their shipments on our railroad. The carbon estimator tool can also be 
used to calculate the reduction of a potential customer's carbon 
footprint should they choose to incorporate BNSF into their 
transportation supply chain.
    BNSF's intermodal customers reduced their carbon emissions by 
roughly 7.5 million metric tons in 2019 and as shown in the graph 
below, BNSF has helped our customers and the nation avoid more than 80 
million metric tons of CO2e over the past decade. This is the 
equivalent of removing more than 17 million passenger vehicles off the 
road.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    While Environmental Protection Agency (EPA) data shows that freight 
rail accounts for just 2% of transportation-related GHG emissions, BNSF 
continues to challenge the status quo by working to further increase 
the efficiency of our network and minimize our impact on the planet. 
Efficiency also improves our position in the marketplace and helps 
preserve the competitive advantage of the U.S. supply chain.
    Locomotive technology has been essential to improving our network 
fuel efficiency and reducing air emissions, and as such we have made a 
significant investment in three key areas of locomotive technology: New 
locomotives, Automatic Engine Start/Stop (AESS) systems and Energy 
Management Systems (EMS). BNSF is proud to have the largest number of 
the newest and cleanest-burning locomotives in North America. Since 
2005, BNSF has purchased more than 3,600 new locomotives, including 
more than 500 locomotives since Tier 4 EPA standards took effect in 
2015.
    BNSF has also equipped more than 3,500 locomotives with EMS, which 
allows throttles and dynamic brakes to be controlled automatically, 
similar to cruise control in an automobile. We are integrating EMS with 
the safety technology Positive Train Control (PTC), which I will touch 
on again later, to maximize the utilization of EMS and minimize fuel 
consumption. Finally, BNSF significantly reduced its locomotive fleet's 
average emission rate of nitrogen oxides (NOx) and particulate matter 
(PM) over the past decade. In just the five years from 2015 to 2019, 
our NOx and PM emissions decreased by more than 11% and 25% 
respectively.
    BNSF is actively pursuing other means to reduce our carbon 
emissions and utilize more sustainable technology in our operations. We 
are currently working with Wabtec--a leading rail technology supplier 
and locomotive manufacturer--and have begun testing in revenue service 
a prototype 100% battery-electric locomotive. This work is supported in 
part by a $22.6 million grant awarded to BNSF and the San Joaquin 
Valley Air Pollution Control District from the Zero- and Near Zero-
Emission Freight Facilities (ZANZEFF) project by the California Air 
Resources Board to pilot several emissions-reducing technologies in and 
around railyards. BNSF installed a charger for battery-electric 
locomotives at our Mormon Yard in Stockton, California.
    The battery-electric locomotive initiative builds on other BNSF 
investments in sustainable technologies along our network and in our 
hubs including:
    <bullet>  Idle control: Reduces air emissions and fuel consumption 
by automatically shutting down locomotives that aren't being used.
    <bullet>  Electric wide-span cranes: Produce zero emissions on site 
while generating power each time they lower a load. The wide stance 
design of these new cranes eliminates as many as six diesel trucks 
(hostlers) for shuttling containers within the intermodal facility, 
reducing emissions and improving fuel efficiency.
    <bullet>  Battery-electric equipment: Hostlers, cargo handling 
equipment and drayage trucks.
    <bullet>  Intermodal automated gate systems (AGS): AGS uses digital 
cameras to record images of the containers, chassis, tractors and unit 
numbers as they enter an intermodal facility. These new gates have 
increased facility throughput and reduced truck idling time and air 
emissions by 50%. In addition, BNSF's RailPASS Mobile App for truck 
drivers cut each gate transaction time in half, allowing drivers to 
pass through the AGS in as little as 30 seconds.

    BNSF is focused on ensuring that rail continues to be the most 
environmentally preferred mode of surface transportation and remains 
committed to playing a constructive role to test and prove the 
commercial viability of emerging technologies that further reduce 
emissions.
                            Railroad safety
    Safety is the most important thing we do at the railroad, and no 
discussion of rail's advantages is complete without highlighting the 
industry's safety advancements and ongoing risk reduction efforts. 
These include robust capital investment, operational and technological 
innovation, training that reinforces safe operating practices and 
maintenance of a strong safety culture among our employees. The graphic 
below highlights the industry's safety record over the past 20 years.

                   Railroad Accident Rates: 2000-2020
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Total accidents                               -35%
  Collisions                                  -52%
  Derailments                                 -37%
  Other                                       -24%
Employee injuries                             -52%
Grade crossings                               -32%
Hazmat incidents <dagger>                     -64%
------------------------------------------------------------------------
<dagger> Through 2018 Source: FRA, AAR

    BNSF is committed to a culture that continuously examines the 
effectiveness of its safety processes and performance, and we've made 
steady improvements over time in reducing employee injuries and the 
number of mainline derailments. We've also made steady improvements in 
grade crossing safety. Since 2000, BNSF's employee injury frequency 
ratio has been reduced by 62% while the rail equipment incident rate 
has been reduced by 45%. BNSF's highway grade crossing incident rate 
has decreased by 50% over this same time period.
    BNSF has made significant safety progress in partnership with our 
employees and by continually exploring and investing in innovative 
technologies that help make the railroad safer and more efficient. PTC 
is an example of this, with deployment of the technology helping to 
address human factor risks associated with train operations. BNSF has 
invested well over $2 billion to deploy PTC on 99 subdivisions, 
including on several not mandated by the federal government, and 
covering more than 14,000 routes miles. 93% of total freight volumes 
moving on our railroad is protected by PTC. The graphic below shows 
BNSF's current PTC footprint (green lines indicate non-mandated 
subdivision implementation scheduled for 2021).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    While PTC has received the most public attention in recent years 
when it comes to railroad safety, there are also many other important 
safety technologies related to equipment health and track inspection 
being developed and deployed around the rail network. It is important 
to note that safe rail operations are not achieved simply through 
compliance with federal regulations. Rather, railroads employ 
comprehensive risk based safety programs that often go well beyond 
federal requirements. This is why you will hear the freight rail 
industry continue to voice support for a performance-based, data-driven 
safety regulatory paradigm that allows innovation--as opposed to 
command-and-control mandates--to drive solutions that improve rail 
safety and efficiency.
            Closing thoughts and policymaker considerations
    Freight railroads are poised to play an increasingly important role 
in meeting growing demand for goods movement in the U.S. As the 
American Society of Civil Engineers wrote in a report released recently 
on the state of the nation's infrastructure, the freight rail industry 
``maintains a strong network . . . investing on average over $260,000 
per mile.'' The economic and environmental advantages of rail, 
supported by such significant private capital investment and ongoing 
innovation across the industry, will help maintain U.S. competitiveness 
in world markets and position the country to play a leadership role in 
sustainable transportation solutions. Smart, long term public policy 
decision-making can help support this outcome. Here are a few items for 
policymakers to consider:
    <bullet>  Innovation: Railroads must be allowed to innovate to 
improve safety, efficiency and sustainability. Innovation can include 
the development and deployment of new technologies along with process 
and operational improvements. Safety regulatory oversight should 
identify expected safety outcomes and support and encourage innovative 
solutions to meet those goals.
    <bullet>  Modal equity: A level playing field across competing 
freight transportation modes is required to ensure railroads remain 
competitive. Publicly-funded highway and bridge infrastructure should 
be supported by an appropriate and sustainable user fee mechanism to 
avoid subsidizing freight moving on already congested highways (and 
ultimately incentivizing that outcome) at the expense of privately 
funded freight railroads. Modal equity also includes ``innovation 
equity'' to ensure equal opportunity across modes to pursue innovative 
transportation solutions that enhance safety and efficiency.
    <bullet>  Balanced regulation: Railroad rates and service are 
regulated by the Surface Transportation Board, the successor agency to 
the Interstate Commerce Commission. The Board performs an important 
role and must take care to maintain a balanced regulatory environment 
that will allow railroads to earn sufficient revenues to support 
ongoing reinvestment in their networks.
    <bullet>  National uniformity: Preserve a nationally uniform rail 
regulatory framework that avoids a patchwork of state and local rules 
that are not appropriate for, and inconsistent with, the needs of 
interstate commerce.
    <bullet>  Infrastructure capacity: Railroads are becoming ever more 
efficient but still anticipate needing to build additional 
infrastructure--in particular yard and intermodal hub capacity at rail 
endpoints--to handle anticipated growth in freight demand. This has 
become ever more challenging and the rail industry looks forward to 
working cooperatively with public officials at all levels of government 
to facilitate these efforts, which are needed to support the policy 
goal of keeping more of our nation's freight moving by rail.
    <bullet>  Public-Private Partnerships: Provide flexible federal 
funding opportunities that support public-private partnerships with 
freight railroads, including through competitive USDOT grant programs 
such as INFRA, BUILD and CRISI. Also, increase funding to respond to 
community calls for more highway-rail grade separations.

    Thank you again for inviting me to testify today and I would be 
happy to answer your questions.

    Mr. Payne. Thank you, Mr. Williams.
    I will now move on to Member questions. Each Member will be 
recognized for 5 minutes, and I will start by recognizing 
myself.
    Secretary Valentine, in your testimony you highlight the 
Long Bridge, built in 1904, as one of the worst rail 
bottlenecks along the east coast. The bridge carries all 
passengers, commuter, and freight rail along the corridor, 
moving nearly 80 trains a day, with a capacity of 98 percent 
during peak hours. In response, your State is building a new 
two-track Long Bridge for $1.9 billion to serve passenger rail, 
leaving the current bridge for freight. Removing this 
bottleneck along the corridor will improve passenger rail 
capacity and on-time performance from Maine to Florida.
    Another bottleneck along the east coast is the Hudson River 
Tunnel. Like the Long Bridge it only has two tracks, built in 
1910, and moves up to 24 trains an hour, over 400 trains a day. 
Building a new Hudson Tunnel is one piece of the most critical 
infrastructure projects in the country. It is called the 
Gateway Program. If one of the Hudson Tunnel tubes fails, what 
is the impact to passenger rail in Virginia, almost 400 miles 
away?
    Ms. Valentine. Well, thank you, Mr. Chairman. Thank you for 
the question.
    I will say that, you know, many of these projects were all 
looking at the choke points along what is really a system. No 
rail system--very few end at a State or jurisdictional 
boundary. So the improvements that we are able to make here and 
across the Potomac here in Virginia, we open that capacity to 
expand existing rail. It allows us to expand to additional 
rail, to places that are underserved.
    We are making a dedicated passenger rail connection between 
the Northeast and the Southeast Corridor.
    [Audio malfunction] . . . reliability and the performance 
of the system, so that those in the Southeast and those in the 
Northeast can benefit from these investments. The investments 
made along the entire corridor, whether the Gateway Project, 
among many others, all of these investments support our rail 
network. That is how we see all of us working together, 
supporting each other to really create a true national rail 
system.
    Mr. Payne. Thank you.
    Mr. Regan, providing everyone with access and opportunity 
for employment is an important issue for me. Your testimony 
states that the rail sector offers a path to skilled work and 
the middle class, even for those who do not have a college 
degree. We need to grow these types of jobs exponentially.
    But you caution a downward trend in the overall railroad 
workforce. Is that trend a result of the COVID pandemic?
    And if not, then what is the cause, and what 
recommendations do you have for growing the railroad jobs and 
expanding opportunities like those described in your testimony?
    Mr. Regan. Thank you for the question. We saw a dip in 
railroad employment early in the pandemic, but that does not 
explain, certainly, the drop in employment at the Class I 
railroads. We have seen a very sharp decline over the last few 
years, and one that is a result, frankly, of a shifting in 
business model towards a focus on quarterly returns from--in 
terms of shareholder returns. And it is one that, frankly, 
gives us a lot of pause. It is one that we think has a negative 
effect on safety, it has a negative effect on operations.
    Frankly, we are looking for a way to make sure that we 
continue the steady, upward trend of freight rail in a way that 
will grow jobs, continue to serve the customers, and ensure 
that we have a sustainable future for freight.
    Mr. Payne. Thank you. And trying to be a good example, I 
will yield back before my time is over. And we will next hear 
from Mr. Crawford for 5 minutes.
    Mr. Crawford. Thank you, Mr. Chairman.
    I want to ask Ms. Kraska, how has the COVID-19 pandemic 
affected short line railroads?
    And is there anything policymakers here in Washington can 
do to help the short line industry better respond to the 
pandemic?
    Ms. Kraska. Thank you for the question. The COVID 
experience has impacted the various short lines in many 
different ways. I have been affected differently than other 
local railroads, so there is no strict one-answer-fits-all, as 
is typically the case.
    Initially, we experienced a significant drop in freight. We 
had guaranteed our workers 40 hours, so we provided that to 
them. We reassigned them to do other jobs, and we wanted to 
keep our payroll the same. And basically, we have seen a fair 
amount of recovery, although some railroads have not.
    In terms of what can be done: training, providing jobs. It 
is difficult to hire right now for me, and I am looking for 
more people.
    So guidelines as to how to handle COVID, training programs 
for the workers would all be very helpful.
    Thank you.
    Mr. Crawford. OK, thank you. I may get back to you with 
another question, but right now I want to ask Mr. Williams.
    You mentioned in your comments the need to innovate. Can 
you talk about that a little bit? Flesh that out a little bit 
more. What can Congress do to address your need, your desire 
for the rail industry to innovate?
    Mr. Williams. Well, I think about innovation supporting 
three specific objectives that ultimately help us be more 
competitive with our customers.
    The first always is safety. So any innovation that would 
help us more safely operate our network and protect the safety 
of our employees. And the second is efficiency. And then 
finally, environmental sustainability.
    And we are in a very competitive marketplace. And so 
innovating in ways that help us be more efficient so that we 
can grow, which is going to be good for our employees in the 
long run, but it is also going to be good for the employment of 
the supply chains that rely so heavily on freight rail, and 
their employment bases, and ultimately the competitiveness of 
the U.S. and the global economy. So we want to be innovative.
    And in terms of help, making sure that we have got a level 
playing field with other competitive transportation modes so 
that we are able to advance both process and technology on the 
same level that our competitors are doing in their space.
    Mr. Crawford. Thank you, I appreciate it. Let me go back to 
Ms. Kraska.
    It is my understanding that short line railroads make 
considerable investments in rehabilitating and maintaining 
their own infrastructure. How does this investment translate to 
jobs and local economies?
    And you mentioned that you were actually looking for more 
employees. And can you kind of talk about that a little bit, 
and the rehabilitation and maintenance of your own 
infrastructure, and how that would impact that?
    Ms. Kraska. We----
    [Pause.]
    Mr. Crawford. I think you are muted.
    Ms. Kraska. It keeps clicking back and forth.
    We have a maintenance-of-way team that we use to do 
operating, which is general maintenance, and capital projects, 
which is the more expensive projects that we undertake.
    To the extent where maintenance is general maintenance, we 
have our crews. But sometimes, when we do the larger capital 
projects, we are unable to support that ourselves, in terms of 
the fluctuation in manpower, so we will hire contractors. We 
have those relationships with people right now on property. We 
have one contractor working on our bridges. So we are staffed 
and ready to do that work.
    But there are some types of workers where we are having 
difficulty hiring, whether it be for lack of interest--since we 
are willing to train, it is not necessarily lack of a skill 
set.
    So I hope I have answered your question. But if not, 
please----
    Mr. Crawford. No, I--that is perfect. Thank you. I 
appreciate it.
    Ms. Kraska. OK.
    Mr. Crawford. And I yield back.
    Ms. Kraska. Thank you.
    Mr. Payne. OK, the gentleman's time has expired. We will 
now go to the chairman of the full committee, Chairman DeFazio.
    Mr. DeFazio. I thank you, Mr. Chairman.
    Mr. Williams, during your remarks you mentioned electrified 
locomotive. I am curious. I mean, of course, there are some 
historic lines where we have very long, electrified railroads, 
historically. The infrastructure no longer exists. Would this 
run off a catenary, or would it be self-contained?
    Mr. Williams. So thank you for the question, Chairman 
DeFazio. And the technology behind our battery-electric 
locomotive test is a little beyond my scope. But I would just 
say this is a test in partnership with the manufacturer that we 
are going to do within the State of California. And it does 
have the potential to expand, as a lot of our efficiency, 
environmental, and safety initiatives over time, they start 
with tests in a specific region. And if successful, just as PTC 
rolled out broadly across the railroad after a significant 
amount of testing, that is the potential.
    But in terms of the specific technology, we would have to 
follow up with your office on that.
    Mr. DeFazio. Great, yes, I would recognize--and I think you 
were the first to fully implement PTC. I congratulate you on 
that. Obviously, you are a bit more innovative than some.
    Ms. Valentine, how did you get CSX to the table?
    I am approached by people in Texas and in my State and 
elsewhere who are trying to deal with--I am going to say 
names--Union Pacific, and they never want to come to the table.
    Ms. Valentine. Well, thank you, Mr. Chairman. You know, it 
really shows the power of a discretionary Federal grant.
    Back in 2016--it was the beginning of the INFRA grant 
program, and the Commonwealth had applied for funding. We did 
receive some funding, about $165 million; $45 million of it was 
for rail. And it was really through that discretionary grant 
that we received that we were in discussions with CSX and 
Amtrak. And those funds actually have morphed into what is now 
our $3.7 billion initiative.
    So those discussions have been going on for a while, 
seriously for these past 2 years. Working with the railroad, 
how could we make rail more efficient for both of us? And that 
is how it was launched.
    Mr. DeFazio. So just a little bit of Federal investment.
    Ms. Valentine. Yes. Well, you know, the power of bringing 
us together.
    Mr. DeFazio. OK, all right. Well, we are going to see if we 
can replicate that model.
    Mr. Regan, would you want to comment on PSR [Precision 
Scheduled Railroading] a little bit?
    Mr. Regan. Sure. This is a rising trend within the 
industry. It is one that we see a lot of negative impacts, from 
the employment perspective. We also have concerns about safety, 
about encouraging cutting corners when it comes to maximizing 
profits.
    It is something that has become widespread among the Class 
I railroads, and something that is, frankly, disconcerting for 
us, and one that we think there needs to be some oversight from 
the Federal Government to make sure that whatever business 
model is being implemented is done so in a way that continues 
to manage both the common carrier obligations of the freight 
railroads, as well as making sure that we are continuing to 
operate in a safe manner.
    And that is at our core, making sure that our members are 
operating these railroads in a safe way, both for their own 
safety and for the communities they operate through.
    Mr. DeFazio. Yes, it kind of reminds me of the Frank 
Lorenzo days, when he destroyed Eastern Airlines. I have 
concerns.
    We have certainly had a lot of customer complaints on the 
first experiment with CSX. I think we are still getting some. 
But it has gotten better. But I am concerned, particularly when 
we have some railroads running trains as long as 3 miles, and 
they want to go to a single crew for a 3-mile-long train.
    I asked the head--the former head--of the FRA under Trump, 
well, if the train broke down in Albany, Oregon, and it is 
blocking every crossing through the city, it means no police, 
no fire, no ambulance. How long is it going to take the 
engineer to walk 3 miles from the front of the train to, say, 
the second car from the rear, which is having a brake problem?
    And he said, ``Well, I don't know, an hour.'' So, there are 
some real concerns here that we have to pursue. So thank you.
    Thank you, Mr. Chairman. No further questions.
    Mr. Payne. Thank you. The gentleman yields back. Now we 
hear from Mr. Davis.
    Mr. Davis. Hey, Mr. Chairman.
    First off, I want to congratulate you on your chairmanship. 
I told your predecessor, Chairman Lipinski, that I would miss 
him. But since you are chair, I won't miss him anymore. And I 
hope somebody reminds him of that, too, because I will if you 
don't.
    But I also want to recognize your efforts in Colorectal 
Cancer Awareness Month, this month, of what you have done to 
really affect the fight against that disease that killed your 
father and affects my wife and my family today. So I appreciate 
your leadership, your friendship, and your partnership in that 
arena. And I am looking forward to working with you on this 
subcommittee, and also Ranking Member Crawford. So thank you.
    Mr. Payne. I thank the gentleman.
    Mr. Davis. Well, thank you, sir. And I have to go to 
another committee hearing, so I am just going to talk real 
quick about my One Federal Decision Act. It is a bill that I 
have introduced. Hopefully it would be part of any 
infrastructure push to put the environmental review process at 
a 2-year maximum timeframe.
    I am going to have to yield back my time to get to this 
other hearing, but I would prefer if the chairman would allow 
them to--Ms. Kraska and also Mr. Williams--to be able to make 
comments on the record about how a shorter review process and 
that maximum 2-year time period process could impact the short 
lines and also the BNSF.
    So with that I yield back, and I hope Mr. Williams and Ms. 
Kraska can respond to that. Thank you.
    Mr. Payne. Thank you. The gentleman yields. And now we will 
hear from Mr. Moulton.
    I am sorry, hold on. Would you like them to respond on the 
record? It is still your time. Yes, sir.
    Would the two witnesses respond to Mr. Davis' questions?
    Mr. Williams. Yes. This is Mr. Williams. Certainly, having 
a timeline for environmental review and giving us more 
certainty into that process would help us. Our objective is to 
be able to expand our network as our customers expand their 
need and growing their supply chain.
    So if a retailer builds a new distribution center, they are 
going to need a little bit more rail service over time. That is 
going to require us to incrementally add capacity to our 
network. And so having more certainty around that permit review 
process would enable us to better keep up our pace of 
investment with our customers' needs.
    Ms. Kraska. This is Caren Kraska. I agree with everything 
that has just been stated.
    My perspective is somewhat different, being a much smaller 
railroad. So the comments that I have revolve around the 
uncertainty created by the length of the process. I don't 
necessarily know at what point in time a project will start and 
if, in fact, the expected duration will be what I anticipate or 
not.
    Probably more concretely, there are impacts on cost. A 
longer timeframe means, you know, what has been the impact of 
inflation, what will the costs be. If you then look at it in 
what we have experienced with COVID, potential supply chain--
translate--locations and disruptions. Will the things that I 
have needed still be available, or will I have a 6-month 
waiting time?
    Further to that, if you have a circumstance where the scope 
of the project has changed because the asset has deteriorated 
further, you could, in fact, have a higher cost and a re-
evaluation of the process and the work that needs to be done.
    Finally, a longer process could suggest that there are, in 
fact, additional studies and costs associated with completing 
that particular project. And that is an unknown, and 
particularly as a small business, that is an undesirable 
outcome. Thank you.
    Mr. Payne. Thank you. Now we will go to the gentleman, Mr. 
Moulton, for 5 minutes.
    Mr. Moulton. Chairman Payne, congratulations on your first 
hearing, and thank you to all the witnesses for being here 
today.
    Last May I released a white paper on the role high-speed 
rail can play in rebuilding the U.S. economy, not just from 
this pandemic, but building back better for the future. And in 
December, I introduced the American High-Speed Rail Act.
    So, Mr. Chairman, I would like to submit my white paper, 
``American High-Speed Rail and Rebuilding the U.S. Economy,'' 
for the record.
    Mr. Payne. Without objection.
    [The white paper is on pages 94-111.]
    Mr. Moulton. Thank you.
    Having worked, myself, on a short line in New England--I 
spent some time working for Burlington Northern Santa Fe--and 
then serving as the managing director of Texas Central's high-
speed rail project between Dallas and Houston, I understand how 
important your work is for the American economy, and how much 
potential it holds for our future. So to all the witnesses 
here, thank you for your work in doing what you can to bring 
our rail system in America up to par with the rest of the 
world.
    We do some things really well, and many nations admire our 
freight service. But, as several people have already noted, our 
passenger rail is pathetically behind the times. And that just 
points to how much opportunity we have for the future.
    But we shouldn't think of high-speed rail as something that 
just exists in the Northeast Corridor, or perhaps in the 
Northeast Corridor or California, because high-speed rail has 
the capacity to connect many different parts of our country 
and, in particular, to connect smaller cities that have not 
taken such a leading role in the tech economy of the last 30 
years to larger cities that they lie between.
    And that is important when we think about how we bridge the 
divide that exists in so many ways in American society today, 
but particularly between those who are thriving in our coastal 
cities and those in other parts of the country that in many 
ways feel left out.
    Secretary Valentine, I would like to start with a question 
for you. When you pursued this project in Virginia, you and the 
chairman have both noted how it was so unusual to look at this 
transportation problem and say, rather than just build more 
highways, we should look at what other solutions might be on 
the table. If you step back and think about this for a minute, 
this is pretty extraordinary because it is the only logical way 
to address a problem like this.
    We don't address communications problems by simply saying, 
``How do you solve it by improving a telephone network?'' No, 
we look at all the options that are on the table, including new 
technologies that are coming online every single day. And yet 
in America, and uniquely in America, we try to answer every 
transportation bottleneck by just building more highways.
    So tell us why that is the case, why that has been the case 
in the past. And perhaps you could explain some of the 
obstacles that you encountered in doing things in a totally 
sensible way to approach your problem, but in a way that was, 
nonetheless, quite unusual.
    Ms. Valentine. Well, I really appreciate that question. 
Thank you.
    In Virginia we have made a commitment to a multimodal 
transportation system. It is incredibly--from the Port of 
Virginia, rail, Metro, transit, I-66, airports--we have a 
spaceport over on Wallops Island. So we really have made that 
commitment to this.
    As we have done this, we have really begun to look at 
corridors, full corridors. And it really began at looking at 
the I-81 corridor in the western part of Virginia, 325 miles, 
looking at what are the operational technology improvements 
that could bring multimodal improvements, just looking at what 
we could do to target solutions. Four billion dollars of need 
was identified. We are managing to address $2 billion of those 
needs, but we are trying to do it in a very managed way.
    That program is actually what led to future corridor 
studies. That is how we began to look at I-95, look at I-66, 
and that is how we are approaching transportation in Virginia. 
With limited resources, how can we find the right solution? And 
that is the approach we took on I-95.
    When we looked at the other options, they were either 
unaffordable or ineffective, which is worse. And so that is 
really what led us to this.
    Mr. Moulton. My time is almost up. But if I could ask a 
question for the record, and would very much appreciate your 
response, what are some of the obstacles to doing this that you 
have encountered?
    Why is it that this is such an unusual approach when, 
really, if you think about it, it is just a sensible approach 
we should all take: how best to solve a problem, not how do you 
solve a problem, or how do you fit a particular solution--i.e., 
adding lanes to highways--to whatever transportation problem 
that we have?
    So thank you, Mr. Chairman. I yield back.
    Mr. Payne. Thank you. The gentleman yields back. We will 
now hear from the gentleman, Mr. Weber, for 5 minutes.
    Mr. Weber. Ms. Kraska, this will be for you, primarily. On 
the short line railroads, do you have the figures of the 
percentage of employees of those SLRs as to be compared with 
the regular complete lines?
    And I will tell you why. Hold on 1 second. What I am 
getting at is with the COVID, with the pandemic hitting, is it 
determinable what percentage of employees were put on hold, 
lost their jobs, if you will, with the SLRs versus the major 
railroads?
    [Pause.]
    Mr. Payne. It might be on mute.
    Ms. Kraska. Yes, I was on mute, apologies.
    I will need to get back to you with that specific bit of 
information. But what I can tell you is that--at least 
information on the SLRs--no employees have lost their jobs as a 
result of COVID with me, though. So I can see if I can find 
some industry figures, but I will have to get back to you.
    Mr. Weber. OK, that would be great if you could get back to 
the office.
    And then do you have a gauge of how much--not everybody has 
a railroad that goes right to their back door, obviously, thus 
the need for SLRs. But do you have any idea of how much--was 
there a time when SLRs were not available for the major 
railroads, and there was a freight hold up? Any facts or 
figures on that?
    Ms. Kraska. Again, I will have to get back to you on that.
    Mr. Weber. OK, I am just trying to gauge how much the 
pandemic has done.
    You guys do a great job and, of course, I have five ports 
in my district, more than any other Member of Congress. Some 
have four, but we have five there on the gulf coast of Texas.
    I am an air conditioning contractor by trade, 35 years I 
owned my company, so a little bit of a technical question. Do 
you know if any of the locomotives or any of the train systems 
or office systems--have any of the HVAC--the air systems--been 
redesigned because of the pandemic?
    Ms. Kraska. Are you talking specifically about me and my 
structures, or are you talking about on equipment? Could you 
please clarify?
    Mr. Weber. You and your structures. And I would assume 
maybe the locomotives, as well, or the trains themselves. Of 
course, I realize you all have basic locomotives into that 
part.
    But in your offices have there been any technical changes 
in the air distribution systems, do you know?
    Ms. Kraska. We have, in fact, done that, in terms of what 
upgrades the HVAC vendors provided to us, in terms of filters. 
And I guess there are some various technologies that we availed 
ourselves of to do that, in terms of we have some business 
cars, the like, and the office buildings.
    The locomotives, per se, I am not aware that we had done 
anything in particular. But again, we can get back to you on 
that.
    Mr. Weber. Well, thank you. There is a system that 
eliminates microbes and bacteria and all that kind of stuff 
that people can buy for their homes and office buildings. I 
just didn't know if that had increased your operating cost. If 
you would, look into that.
    And then, again, any idea--would you say that your revenue 
had dropped, I don't know, 10 percent, 20 percent, 5 percent, 
your job--availability of moving product? Slow-down reduction? 
Any idea on that percentage?
    Ms. Kraska. We are a privately held company, so those 
figures are not disclosed, and generally not available to 
anyone but shareholders.
    Having said that, at the outset our revenue dropped 
precipitously. By the end of the year we had seen a rebound, 
and we were basically what I would consider flat with the prior 
year, but the prior year also had some down-flows, as a 
function of the fact that we had flooding.
    So I consider my operation an aberration in that we did 
fairly well, considering everything that had happened in the 
industry. And there were other short lines that were hurt very, 
very dramatically, and much more significantly, you know, 50 
percent-plus.
    Mr. Weber. Wow. Well, thank you for that.
    And Mr. Chairman, I appreciate you being here, and I yield 
back.
    Mr. Payne. Thank you, sir. Next we will hear from Mr. Cohen 
for 5 minutes.
    Mr. Cohen. Thank you, Mr. Chair and Ranking Member, Mr. 
Crawford. I appreciate your having this important hearing.
    And I would like to talk about the regional passenger rail 
commission program. It is important for passenger rail, which I 
have enjoyed from early in my life to now. I am a big fan of 
Amtrak and passenger rail. And one way to get that going is 
through regional rail commissions.
    There is a Southern Rail Commission that covers Alabama, 
Mississippi, and Louisiana. There needs to be more, because I 
think they can highlight the need for transportation throughout 
a State. Memphis has got hopes of having transportation to 
Nashville, could connect to Knoxville, and even to Chattanooga, 
and make travel to all those cities much more feasible, rather 
than automobile.
    We used to have nonstop air traffic to all those cities. We 
don't have it, even out of Memphis, which was formerly a hub. 
So it is not an easy flight, and rail would be so much easier. 
We have also got interest in going to Little Rock. We have 
looked into that in the past. Memphis is one of, like, two 
cities in Tennessee--Nashville the other--that has passenger 
rail service. There should be more. And we need a second train 
to go up to Chicago. And we consider that Cairo stop one that 
could--train could come down here. So we are looking at 
regional rail and the Southern Rail Commission kind of as a 
guide for us.
    Ms. Valentine, what are the limitations to organize, 
implement, invest in, and expand interstate passenger rail 
service to connect to communities across the country? Are there 
limitations that you have experienced?
    Ms. Valentine. You know, I am familiar with a bill that you 
have that certainly--you recognize many of the limitations, one 
being that passenger rail has been undercapitalized for years. 
And so how do we make those kinds of investments?
    In the Commonwealth of Virginia, we do have dedicated 
funding for rail, but it is still a small percentage, and we 
are working on building it up.
    Two, that planning for rail may often be--you know, extends 
beyond the term of an administration of--either the Federal 
Government and at the State level, as well. So making those 
longer term commitments is really important.
    And then the collaboration it takes, because a rail system 
often crosses jurisdictions. The Commonwealth sees the part 
that we are playing right now in constructing a bridge 
dedicated solely to passenger rail as opening the capacity, 
unlocking the gridlock there, so that rail can be expanded. It 
is going to create redundancy. The closest rail connection is 
70 miles away. I always say, ``as the crow flies,'' because we 
take longer to drive over to Harpers Ferry, West Virginia. But 
we are creating redundancy.
    We are opening up the northeast-to-southeast corridor, and 
we are creating a path to separate passenger and freight rail 
for the Southeast Corridor. We are a member of the Southeast 
High-Speed Corridor Coalition. We believe that this is a 
critical start to this, and we are building on many of the 
recommendations that have come out of that.
    So that kind of collaboration, I believe, is fundamental 
for us to--building out. What you have articulated are the 
needs for increased connectivity.
    Mr. Cohen. Thank you so much, and good luck with your 
projects.
    Mr. Williams, you talked about intermodal corridors, or 
intermodal facilities, and BNSF has probably one of the largest 
ones here in Memphis. Is there a need for improvements along 
Lamar Avenue, or coming in to Lamar, to make BNSF even more 
successful with its intermodal corridor?
    Mr. Williams. Yes, and that facility there in Memphis was 
actually where we deployed--and you probably know this--I think 
among our first electric wide-span cranes.
    So the ingress and egress to intermodal facilities is very 
important. I am not familiar with a specific issue on Lamar 
Avenue, but would be happy to follow up with your office. 
Because, truly, intermodal is a part of an integrated supply 
chain. And so it is not just the rail operations that are 
important, but also the last-mile delivery, and the trucks that 
are getting into and out of facilities very efficiently. That 
is also very important.
    Mr. Cohen. So if we did--in the past there have been 
concerns that we needed some widening of Lamar to make the 
trucks coming in from Mississippi--facilitate their entry into 
the facility. That would be helpful for BNSF. And would you all 
participate in any kind of a program, as a public-private 
partnership?
    Mr. Williams. Well, because of the broader community 
benefit, I would see that as a potential for public-private 
partnership. But again, I would want to get into the specifics, 
and get a better understanding on exactly what the ingress and 
egress issues are there on Lamar Avenue.
    Mr. Cohen. If you could get me----
    Mr. Payne. The gentleman's time has expired.
    Mr. Cohen. And with that I yield back the balance of my 
time.
    Mr. Williams. Will do, Congressman Cohen. Thank you.
    Mr. Payne. Thank you, sir. Next we will hear from Mr. 
Stauber for 5 minutes.
    Mr. Stauber. Thank you, Chairman Payne, and congratulations 
on your new position, and to Ranking Member Crawford for 
holding this hearing.
    You know, we talk about the importance of railroads and 
shipping our goods across this great Nation, from our 
agricultural products to our finished goods to coal to LNG and 
taconite in my State of Minnesota, northern Minnesota. Taconite 
is shipped by rail to the docks in Duluth, the port of Duluth 
is the most inland port in our Nation. Those taconite pellets 
are shipped to make United States steel products.
    I want to thank the rail industry for keeping these 
products and the goods moving across our Nation during this 
pandemic. People wouldn't have the food the industry has 
provided across this Nation. And really, the farmers wouldn't 
necessarily have had the markets for their commodities.
    So I have a few questions for Ms. Kraska.
    What are the biggest obstacles that you could see coming 
out of this committee that could impact your business and make 
it harder to operate?
    [Pause.]
    Mr. Payne. Unmute.
    Ms. Kraska. Increased regulation is always a challenge for 
us.
    A personal one, if--and forgive me, this may or may not be 
the purview of this committee or subcommittee, but truck size 
and weights. An increase in those could dramatically tilt the 
difficulties we have in competing with truck.
    In terms of other areas, in terms of the grant programs, we 
would like a fair shake, in terms of our opportunity to apply 
and have it work through that with us. If you look at INFRA and 
some of the other programs, the ability to perhaps not partner 
with another entity to get them done.
    I believe, as a whole, we try to do a fair job. We try to 
do--or ``fair'' isn't the word--a good job, and try to do what 
is right for our communities, our workers, our customers. So 
things that impact that will make it harder for us.
    Mr. Stauber. Thank you, and one last question to Ms. Kraska 
again.
    When thinking about liquid natural gas, what are some of 
the legislative obstacles that you see arising, and how can we 
ensure that they do not impede the transport of affordable, 
clean energy?
    Ms. Kraska. That is not something that I am very familiar 
with. I would think, though, as a whole, given that the 
industry handles a lot of sensitive, dangerous materials, that 
the requirements can be put in place so that they can be 
handled appropriately. And I think that could be done.
    Mr. Stauber. All right, thank you, and thank you to all our 
witnesses for their testimony. It is greatly appreciated.
    And I will yield back, Mr. Chair.
    Mr. Payne. I would like to thank the gentleman for yielding 
back, and we will now hear from the gentleman from New Jersey, 
Mr. Sires.
    [Pause.]
    Mr. Payne. You are on mute.
    [Pause.]
    Mr. Payne. I believe you are on mute, Mr. Sires.
    Mr. Sires. OK, can you hear me now, Chairman?
    Mr. Payne. Yes, yes.
    Mr. Sires. I went back on mute again. I just love this 
stuff. Can you hear me now?
    Mr. Payne. Yes, we can hear you.
    Mr. Sires. OK. Well, first of all, thank you, Chairman, for 
holding this hearing. This is a very important hearing, not 
only for our district, but for America. And I also want to 
thank the witnesses for being here today.
    You know, I am a big rail person. I believe that rail is 
critical to this country, especially when you come from the 
districts that we come from, the chairman and I. It is so 
congested. So over the years I have been very involved with 
light rail. And we have a light rail in Hudson County. At its 
peak it used to move about 45,000 people. But it is so 
important. It moves people from north to south, it ties in to 
the ferry, it ties in to the train stations that go into the 
city. And it moves people a lot quicker than by road, believe 
me.
    Ms. Valentine, can you speak about the investment in light 
rail that supports growth and efficiency in intercity passenger 
rail?
    Ms. Valentine. Thank you, thank you for the question. I 
love light rail, by the way. We do have light rail over in 
Norfolk, Virginia. And as far as moving people within an urban 
area, I believe it is a very effective way to do that.
    What we are really trying to do with the rail initiative 
today is that intercity passenger rail to really make those 
connections along major corridors, and still try to connect 
with communities along the way.
    Most of our applications for light rail come from 
jurisdictions. We have not received as many applications for 
that. It goes through a program called SMART SCALE, where we 
actually do a cost-benefit analysis for various opportunities. 
And so that is something that we are going to follow more 
closely.
    But I am really grateful to hear that you really like and 
appreciate it, as well.
    Mr. Sires. Believe me, I have been very involved with it 
for about 25 years, even before I got elected to office.
    But one of the things that I found out when I was vice 
chair of the Circle of Mobility Committee in my area is the 
idea of the cost analysis. Obviously, if you don't have the 
ridership, light rail doesn't work. So you will always have to 
subsidize with big amounts of money a light rail. So light 
rail, I don't think, is for every part of the country. I feel 
that it is for the areas that are densely populated, so you can 
move people around.
    Sometimes people love to come to the district and see the 
light rail, and they say, ``Oh, maybe we can have this in our 
area.''
    And I tell them, ``Well, if you don't have the ridership, I 
don't think you are going to be able to sustain a light rail 
system.''
    Subsidies help, and what I can tell you is that, with the 
light rail, I see the development on the waterfront in New 
Jersey facing New York City.
    Ms. Valentine. Yes.
    Mr. Sires. It is amazing what it has done to that area.
    Ms. Valentine. Yes.
    Mr. Sires. So, in terms of creating jobs, in terms of 
people moving in, in terms of people spending money in the 
area, it is a transformation of an area----
    Ms. Valentine. Yes.
    Mr. Sires [continuing]. That has--it is an old, old area 
where people used to come in, and when they first came to this 
country and settled. I mean, you can't afford living in Hoboken 
today. It has transformed the whole area.
    Ms. Valentine. May I just add this one point, that when we 
first launched the intercity passenger rail, Virginia-sponsored 
passenger rail back in 2009, it really started with a pilot. It 
was $17 million for 3 years from Lynchburg, Virginia, into DC, 
into the Northeast Corridor. And I had to make sure that we had 
51,000 riders. And we didn't know if we were going to be able 
to sustain it.
    And in that first year we had 125,000 passengers. It always 
exceeded expectations for ridership and profitability. And 
today that rail service, which we now extend over to Roanoke, 
and we are working to get it to Blacksburg, Christiansburg, is 
really one of our most profitable rail services. In fact, 
probably in the country. It doesn't even need a subsidy, 
because they are able to generate that kind of ridership.
    Sometimes, when we are looking at solutions, targeted 
solutions, these are the investments we can make to really tie 
in those connections between centers and between business 
owners. So your point is----
    Mr. Sires. Thank you very much.
    Thank you, Chairman.
    Mr. Payne. Thank you, sir. Next we will hear from Mr. 
Burchett.
    Mr. Burchett. Thank you, Mr. Chairman. Thank you, and 
congratulations on chairing this great subcommittee.
    I want to thank you for something you do--it seems like 
every time I am on the floor, giving a floor speech, you are 
there, as well. And you are always, as a friend of mine who has 
passed away--he was very famous in our community, a man named 
Alex Haley used to say, ``Find the good and praise it.'' And, 
dadgummit, every day you are down there praising somebody in 
your district, some person that maybe won't ever get any Nobel 
Peace Prize, but dadgummit, they are doing something for our 
community. And I want to thank you for doing that, because that 
means a whole lot to a lot of people when you do that. So thank 
you.
    Mr. Payne. Thank you.
    Mr. Burchett. It does not go unnoticed. I just want you to 
know that, Mr. Chairman.
    Mr. Payne. Thank you for recognizing that.
    Mr. Burchett. Yes, sir. I think we would probably all be 
better served if we did a little more finding some good and 
praising it than we are running each other down.
    Ms. Kraska, we have four short line railroads that run 
through Tennessee's Second Congressional District I am 
fortunate enough to represent. And nearly 30 of those operate 
across the State. And you might have answered this before at 
the end of someone else's questions, but I wanted to lead with 
this: What unique challenges do short lines face, and how can 
Congress help improve operational flexibility for those small 
businesses?
    [Pause.]
    Mr. Burchett. I believe you are muted, ma'am.
    [Pause.]
    Mr. Burchett. Or maybe, like a lot of people in this body, 
you just don't want to talk to me.
    Ms. Kraska. No, no, I am more than happy to talk to you. 
Can you hear me?
    Mr. Burchett. Yes, ma'am.
    Ms. Kraska. OK.
    [Pause.]
    Mr. Burchett. How can we get off your back, and make your 
life a little easier?
    Ms. Kraska. That is an interesting question, one that I was 
actually not expecting.
    Regulations are difficult for us, and that would probably 
be the top area.
    Mr. Burchett. Could you name me a couple of those? I know I 
am kind of putting you on the spot, but just a couple maybe we 
could address at some point?
    Ms. Kraska. OK, well, let--if you don't mind, if I could 
get back to you with the priorities on those.
    But in terms of other items, as well, to make it easier for 
us, truck size and weight grants would be helpful for us to 
build our infrastructure.
    In terms of the specific regulations, we have a fair amount 
of reporting that is challenging. I don't know the specifics, 
but I hear my safety individual complaining about a new 
regulation that is going to go ahead and create hours and hours 
of labor in reporting. So I think I would request that when new 
things are put in place, that there be a look at how much work 
it involves for us, as we are small companies.
    I know many things are phased through the short lines after 
they go through the Class I's. But I will get back to you 
specifically with----
    Mr. Burchett. Yes, ma'am. I appreciate that. It is Tim 
Burchett from the Second Congressional District in Tennessee. I 
would really appreciate that.
    Mr. Williams, the Federal Highway Administration expects 
U.S. freight shipments to increase 30 percent over the next 20 
years. And what are railroads like yours doing to prepare for 
this increase in freight shipping?
    As you know, in my colleague Congressman Cohen's district, 
BNSF Railway operates over there in western Tennessee. And I am 
wondering what regulatory changes do you need to see that we 
could make to better serve our Nation?
    Mr. Williams. Yes, there are several that I outlined in my 
written testimony. But one specific--and it is important to me, 
as the leader of our intermodal business, and this is where we 
expect a lot of those trucks to find their rail opportunity--is 
that we are able to get through the permitting process at a 
pace enough to allow us to invest, especially in the endpoints 
of our network.
    And our network connects the Mississippi River Basin 
through Chicago, all the way to all of the west coast ports. 
And so the efficiency of intermodal along those long-haul 
corridors between the Midwest and the west coast, and being 
able to invest in additional safe and clean lift capacity in 
those locations, as this demand pace ramps up, I think is going 
to be very important.
    Mr. Burchett. All right. Thank you, sir.
    Mr. Chairman, I yield back the remainder of my time, and do 
some good today, sir.
    Mr. Payne. Thank you, and I appreciate the comments, and 
look forward to continue working with you.
    Next on the roster is Mr. Wilson.
    You have five--I am sorry. Ms.--I apologize, Ms. Wilson. 
Oh, my goodness. My friend, my friend.
    Ms. Wilson of Florida. How are you today?
    Mr. Payne. I am going to pay for that one.
    Ms. Wilson of Florida. You know that.
    Mr. Payne. Where is your hat?
    Ms. Wilson of Florida. I am voting virtually today, so I 
decided not to wear a hat. But I don't see a red tie.
    Mr. Payne. That is right.
    Ms. Wilson of Florida. So congratulations, your first 
meeting, your first hearing, and I am so very proud of you.
    I want to say to everyone thank you for your testimony. 
This is quite interesting.
    Freight and passenger rail service plays an integral role 
in my district's economy and across our Nation. Miami was a 
town of fewer than 300 people before the arrival of Henry 
Flagler's railroad. Today Miami is one of our Nation's largest 
cities, and a leader in global commerce.
    Services like Metrorail, Tri-Rail, Amtrak, and Brightline 
help mitigate congestion, while reducing greenhouse emissions. 
My constituents and I have experienced immeasurable benefits of 
the industry, and we appreciate it in south Florida. The rail 
industry also is a glowing example of the strength of unions, 
and the unions' ability to provide a path to the middle class, 
even for those without a college degree.
    As we tout the benefits of the rail industry, we also must 
ensure that safety efforts keep pace with growth and 
innovation. I look forward to working with my colleagues to 
improve America's rail system and safety efforts to meet our 
environmental and economic needs.
    With that, I have a few questions. Mr. Regan, as a 
cosponsor of the PRO Act and strong supporter of unions, I have 
worked so hard to help keep this legislation passing during the 
past two Congresses. I am pleased to have the opportunity to 
speak with you today. And although the PRO Act does not impact 
rail workers specifically, it will still bring unionization to 
other sectors. Please share with us the benefits that 
unionization brings to its workers.
    Mr. Regan. Thank you, Congresswoman. And I appreciate your 
strong support of the PRO Act. While, as you noted, it does not 
affect rail or aviation workers, it would be a huge benefit to 
our economy and to workers throughout the country.
    From our perspective, from TTD's perspective, we represent 
industries, including rail, that are highly unionized. And 
because of that, these are jobs that are a pathway to the 
middle class. They have higher wages and benefits. They are 
industries where, truly, we have a middle-class job base. And 
that is true across transportation: rail, aviation, transit, 
maritime.
    And it is not an accident. It is because of the strong 
unionization in those industries. It is because of the strong 
collective bargaining rights. And it is something that should 
be afforded to workers throughout our economy and throughout 
the country.
    Ms. Wilson of Florida. So how can Congress work with the 
rail industry to effectively develop and deploy green 
solutions?
    Mr. Regan. Certainly. We think that many of our 
transportation modes, the investments that we can make in 
transportation, are inherently green. We think rail is a green 
industry, and it is one that we, frankly, should see more 
Federal investment in, as we make sure that we can expand 
passenger rail access, that we can expand commuter rail access, 
things like this. So these are green investments that Congress 
can make.
    But we need to actually make the investments. It needs to 
be a situation where Congress is setting the course and making 
those initial investments into these industries so that we are 
going to have the passengers come, we are going to see the 
increase in freight. But it needs to have that initial 
investment. Otherwise, we are not going to see the benefits, 
unless people are willing to take that first step to make the 
investments that are needed.
    Ms. Wilson of Florida. Oh, we will certainly be helping you 
with that.
    Ms. Valentine, in your testimony you called on Congress to 
consider a capital grant program to help expand passenger rail 
in your State. In Miami, Brightline is privately funded. And 
although we do have safety challenges, what impact could a 
capital grant program have in helping States and localities 
expand passenger rail? That is important for Miami.
    Ms. Valentine. Yes, yes. And we really appreciate 
everything that is being done in Miami, from a multimodal 
perspective.
    One of the things that passenger rail is really lacking is 
a long-term, sustainable source of funding that would allow 
States to make investments in larger passenger rail 
initiatives, or a program of projects. It is allowing us to 
create a vision and being able to implement it.
    Even this piece that I am bringing to you today, we have 
put together with State regional resources, working with 
partners, trying to put together a financial plan that works. 
If we could work with Congress on capital funding that would be 
sustainable over a longer period of time, I believe we could 
build out a national rail network with meaningful connections 
in a far more accelerated way.
    Ms. Wilson of Florida. Thank you. Thank you so much.
    I yield back.
    Mr. Payne. I would like to thank the gentlelady for 
yielding back, and good to see her.
    I next go to Mr. Johnson for 5 minutes.
    Mr. Johnson of South Dakota. Thank you, Mr. Chairman, and I 
will start with Mr. Williams.
    And Mr. Williams, I suspect you know as well as I do, if 
not better, that the United States competitive advantage in the 
global grain and soybean markets comes so much because of our 
ability to quickly and efficiently move product from the 
Midwest, ag products from the Midwest, to our ports. And I know 
BNSF has invested a lot of money in trying to make that more 
efficient. I think, in the report you included as a part of 
your testimony, you noted you all have invested $3.5 billion in 
2019, and I am sure a lot of that did help with agricultural 
transport.
    But aside from the private investment that the railroads 
are making, should we be looking at any particular role for the 
Federal Government in maintaining that American superiority and 
competitiveness in those grain markets vis-a-vis the efficient 
shipment?
    Mr. Williams. Well, I appreciate the question. Our 
agriculture business is certainly core to our franchise.
    And I agree with the point that our rail system helps 
support the comparative advantage that the agriculture and 
farming community has in the global economy.
    And I would really say just let us keep doing what we are 
doing with our private investment. And we have invested 
significantly to support the bulk ag franchise, and we have 
also opened up some new facilities to support agricultural 
loading and containers.
    And again, working through that private investment has been 
a successful model for us, and it really has positioned our 
agriculture business quite well.
    Mr. Johnson of South Dakota. So you mentioned containers, 
and I thought in your testimony you did a good job of walking 
through the interconnectedness of the system. And I think you 
all moved 5 million intermodal shipments last year, which is 
just mind-blowing.
    I mean, we are getting increasing reports of ocean carriers 
refusing to carry ag products, which means that we are getting 
empty containers hauled back to Asia from American ports. Is 
that impacting you all at all?
    I mean, is it backing up? Is it disrupting in any way your 
network?
    Mr. Williams. I have read about that occurrence. And our 
intermodal contracts are directly with carriers, whether it is 
domestic truckload companies on the domestic side of our 
intermodal business, or the shipping lines on the international 
side.
    We are moving what is tendered to us by the shipping lines 
to support the westbound movement, both loaded and empty 
volumes back. So I wouldn't say that there is anything there 
that is inherently disrupting our rail operations.
    Mr. Johnson of South Dakota. So you haven't seen any 
particular change in your volumes, particularly with regard to 
empties moving back to the Midwest?
    Mr. Williams. Empty container loadings are up, that is a 
fact. And there are certain locations--I would say we still do 
have a very robust operation loading agricultural commodities 
in containers, as well. But it is a fact that the empty 
westbound movements are up.
    Mr. Johnson of South Dakota. Well, if you see, Mr. 
Williams, any bigger, more substantial, more material changes 
in that, certainly let the committee know. I know a number of 
Members of Congress on both sides of the aisle are really 
following this ocean carrier situation.
    A question for Ms. Kraska--and I thought you did a really 
good job, particularly in the attachment to your testimony, 
walking through the incredible benefits of the 45G tax benefit, 
how it has increased safety, improved investment.
    I also thought your testimony did a good job walking 
through specific improvements that could be made to the INFRA 
program to make it more usable for short lines.
    With regard to 45G, the short line rail tax credit, is 
there anything Congress should be looking at to make that even 
more effective for you all?
    Ms. Kraska. I certainly appreciate the fact that Congress 
had made it permanent, and keeping it such would be a huge boon 
to us.
    As a small business owner, one of the things that I have to 
say is, prior to that, what I had done was, on an annual basis, 
provide two budgets for my company, one with 45G, one without 
45G. I am happy to have it in place, as long as it is in place.
    Of course, I would appreciate the dollar amounts being 
increased. But knowing that you have something and that you can 
rely on it is more important.
    Mr. Johnson of South Dakota. Very good, that makes sense. 
Thanks, Ms. Kraska, and thank you for your testimony calling 
out the over 700-mile-long RCP&E line in South Dakota. I 
enjoyed reading that, of course.
    And with that, Mr. Chairman, I will yield back.
    Mr. Payne. I thank the gentleman for yielding back. Next we 
will have Mr. Garcia.
    Mr. Garcia of Illinois. Thank you, Chairman Payne and 
Ranking Member Crawford, and, of course, thank you to all the 
witnesses that have appeared today.
    I represent Chicago, the busiest freight rail hub in the 
country. And each day over 500 freight trains and over 750 
passenger trains move through my city. Nearly 25 percent of all 
freight trains pass through Chicago. And our Union Station 
serves as a corridor gateway to Amtrak's entire national 
network.
    To Mr. Greg Regan, Mr. Regan, the railroad sector has been 
an extremely important industry to the city of Chicago. My 
district is home to over 700 rail employees, with thousands 
more in surrounding districts. I am concerned about your 
comments on the loss of good union jobs in the freight rail 
industry, given that these well-paid jobs have supported 
Chicago families for decades. Can you explain what is causing 
these job losses?
    Mr. Regan. Sure, and thank you so much for your question, 
Congressman.
    You know, I do think it is a, in my view, Wall Street 
mindset that is coming to the freight railroad industry. As 
opposed to a longer term sort of sustainable growth that we 
have seen for a long time, it is, frankly, more of a focus on 
short-term returns. And that is something that we have seen 
from a reduction of both the number of people that are being 
employed by the railroads, as well as, you know, frankly, sort 
of changes in how they are operating for the shippers.
    As I said before, our primary focus is on the impact of 
safety of this operating model. We want to make sure that our 
members and the communities that these railroads are operating 
through are being done so in a safe manner. And so we are just 
going to continue to focus on that, and make sure that they are 
being appropriately regulated to maintain safety.
    Mr. Garcia of Illinois. Thank you.
    Secretary Valentine, on February 24th, the U.S. Department 
of Transportation issued a 30-day notice adjusting the rail 
passenger transportation liability cap, as required by the 
Fixing America's Surface Transportation--FAST--Act, by raising 
it from $294 million to $322 million.
    The current state of the passenger rail liability insurance 
market is poor, and there are limited to no domestic insurance 
providers that offer this coverage. The situation has led to 
high premiums to commuter railroads, and has required commuter 
railroads to purchase complex insurance tiers from 
international markets, instead of a single insurance policy to 
meet the liability cap. This can be extremely expensive and 
somewhat cumbersome to implement.
    Could you please describe how the passenger railroad 
liability cap has impacted commuter railroads in Virginia, to 
your understanding?
    And also, what can the Federal Government do in the long 
term to address the insurance markets, to provide more cost-
effective insurance policies for American commuter railroads?
    Ms. Valentine. Well, hello, thank you. I was actually just 
being briefed yesterday on some of the impacts of that increase 
in the liability cap. Certainly, it is an issue of funding, and 
making sure everyone can afford it. But my understanding is 
that the greater issue is access, access to getting the 
insurance in time for the deadline, which I believe is March 
27th.
    So I know that there is a coalition of commuter railroads 
working with our Federal partners to see if there could be some 
actions taken to either extend it by Executive order or perhaps 
some congressional authorization to allow the commuter 
railroads to secure that additional liability insurance in time 
to meet that.
    And then, over the longer term, working with the insurance 
industry, as you have alluded to, how can we address this 
issue, prepare for it, and make sure that all of our railroads 
are protected and able to provide service?
    Mr. Garcia of Illinois. Thank you. And Mr. Williams, 
turning to you, given that BNSF has already purchased 500 tier 
4 locomotives, what do you think can be done to encourage the 
further adoption of tier 4 locomotives at BNSF? And 
industrywide, of course.
    Mr. Payne. Thirty seconds.
    Mr. Williams. Our customers are demanding that we continue 
to press on environmental sustainability. And so I think our 
customers are going to be our biggest motivation to continue to 
deploy and explore sustainable technologies, including the 
sustainability of our locomotive fleet. But we do have the 
newest and cleanest burning locomotive fleet in North America.
    Mr. Garcia of Illinois. Great, thank you. Mr. Chairman, I 
yield back.
    Mr. Payne. I thank the gentleman for yielding back. Now we 
will have Mr. Nehls.
    Mr. Nehls. Mr. Payne, congratulations on your position as 
chairman of this subcommittee. And I look forward to working 
with you and the other Members.
    Mr. Payne. Thank you, sir.
    Mr. Nehls. Yes, sir. My comments and question are directed 
at Mr. Williams.
    I want to thank you, Mr. Williams, for being with us today. 
I would like to commend BNSF on the safety record. Your written 
testimony details a significant reduction in rail accidents 
over the past two decades, in addition to an impressive safety 
record for your employees. So I want to commend you for that, 
and I want to say you are moving in the right direction.
    I believe one could attribute the success to your proactive 
approach to innovation and capital reinvestment. I know that 
BNSF has a huge presence in the great State of Texas, and you 
are certainly very visible in my district, Congressional 
District 22.
    So my question, you mentioned in your testimony the recent 
cold weather event in Texas impacted normal train operations. 
Could you elaborate more on the impact this had on BNSF?
    Mr. Williams. Yes, thank you for the question and the 
comments. We do prioritize safety as the top of our decision 
tree, when we are making decisions at BNSF.
    As a Fort Worth resident--and I am in Fort Worth today--I 
had personal experience with the storm in Texas. But it 
certainly had impacts to our operation.
    And any time there is a disruptive weather event, 
especially one as significant as the storms we had a couple of 
weeks ago, it has impacts on the entire North American network, 
because these freight networks are so interconnected. You have 
railcars that are deployed on trains going into the weather 
event, but you also have shipping containers that are queuing 
to get to facilities that may have been closed for a couple of 
days due to the outage. And all of that slows down the cycle 
time of the assets that need to be redeployed back to high-
demand places--for example, the ports on the west coast--to get 
those next loads.
    And so weather events like that do have impact, broadly, to 
freight networks.
    Mr. Nehls. Very well. Are there any Federal policies that 
we should be aware of in this subcommittee that could maybe 
alter for you to have a quicker return to normal operations?
    Are there any issues that need to be addressed on our side?
    Mr. Williams. I am not aware of anything new, but I do 
understand that, when we have events like that, our 
transportation team works with the FRA on waivers that allow us 
to safely redeploy assets or recover quickly. And so that 
temporary waiver process, when we have a big, disruptive event, 
to help us safely get back on track, continuing that, I think, 
would be important.
    Mr. Nehls. Thank you, Mr. Williams.
    Chairman, I yield back.
    Mr. Payne. I thank the gentleman for yielding back. Next we 
will have the gentlelady from Washington, Ms. Strickland.
    Ms. Strickland. Great. Thank you, Chairman Payne and 
Ranking Member Crawford.
    As our witnesses and many of our colleagues have shared 
today, the Federal Highway Administration predicts that total 
U.S. freight shipments will increase by 30 percent in the next 
20 years. And with nearly 140,000 workers in our rail industry, 
we know that so much of our economic success and recovery 
hinges upon the success of our rail system and on the 
employment and safety of our rail workers.
    And since I represent Washington State in a district with 
key roles in trade that cannot be overstated, I would like to 
start with Mr. Williams of BNSF. And BNSF, of course, is no 
stranger to Washington State.
    So as your testimony noted, Mr. Williams, over 40,000 
marine vessel trips go through the Ballard locks in Lake 
Washington's ship canal each year to and from the Puget Sound. 
It is a big corridor, as you know. And there is also the Salmon 
Bay Rail Bridge, which is a key part of our State's economy. So 
can you just speak to us about the value of investing in rail 
infrastructure projects like these, like this bridge, and the 
impact that it could have on our State and our economic 
competitiveness?
    And then secondly, please let us know what you are doing to 
look to the future, and your vision on the economy, in ensuring 
that resiliency and environmental efforts on safety are part of 
what we do. Thanks.
    Mr. Williams. Thank you for the question, and thank you for 
having me today, Congresswoman Strickland.
    And I probably could use the entirety of your remaining 
time to talk about the Salmon Bay Bridge, because it is such an 
interesting----
    Ms. Strickland. Yes.
    Mr. Williams [continuing]. Part of the engineering history 
of our railroad, there on the North Side of Seattle. But as you 
noted, it is a bridge that raises up and down to support both 
freight and commuter trains, as well as the marine traffic that 
goes in and out of the Puget Sound. And so it is an old piece 
of technology.
    There is a significant amount of community benefit. And so, 
think about it in terms of a public-private partnership. If the 
bridge was stuck up, freight would have to move on the 
highways, commuters would have to find another route. If the 
bridge was stuck down, the marine traffic would be suspended. 
And so, working out a long-term solution to that, as you know--
and I know you are very familiar with the project--is very 
important.
    And then, long-term outlook on the economy, I think all of 
the west coast ports--and certainly we work very closely with 
the Northwest Seaport Alliance on trade, but international 
trade is so important to our economy. And so continued 
investments around those connector points, and certainly 
enabling us to continue to aggressively invest in our 
intermodal network, I think, are important factors for how 
trade impacts the U.S. economy.
    Ms. Strickland. Great, and then I want to switch now to 
passenger rail. And, as you know, this hits close to home for 
us in the 10th Congressional District. And there have been big 
strides made in Positive Train Control, with railroads meeting 
the end of the 2020 deadline for implementation. But there is 
still so much more that we can do, not just in one State, but, 
really, across the entire system.
    So can you talk about what we are doing to look even beyond 
Positive Train Control to keep our workers and passengers safe?
    And how does that tie into our economic success?
    Mr. Williams. So PTC is one of many risk mitigation efforts 
in the rail industry, and certainly on our network. But the 
advancement of PTC, no doubt, is an important measure.
    We were excited to be, I would say, a pioneer in PTC before 
it was a Federal mandate. And we have gone significantly beyond 
just the mandated corridors for PTC to a point where I think it 
is 93 percent--it is in my testimony--of the freight that moves 
on our network, moves on a subdivision that is controlled by 
PTC.
    So, I know I have said it multiple times today, but safety 
is a priority, and I think you have seen numbers that bear out 
there is continued improvement in safety over time in the rail 
industry. We are very motivated to protect our employees and 
continue that good path. And PTC is just one of many measures 
in our safety program.
    Ms. Strickland. Thank you, Mr. Chairman. I yield back.
    Mr. Payne. I thank the gentlelady for yielding back. Next 
we have Mrs. Steel.
    Mrs. Steel. Thank you, Chairman, Ranking Member, and the 
witnesses today. I think it is important that, as a committee, 
we have conversations like this about the future of rail in our 
country. As a California taxpayer, I want to use this 
opportunity today to talk about a rail project in our State 
that is expected to cost residents more than $100 billion--with 
a B.
    Construction on the California high-speed rail project 
started in 2015. In 2010, the Obama administration gave the 
project $2 billion with a requirement to have the first segment 
operational by 2022. It has been 6 years, and construction has 
barely inched along.
    Meanwhile, a 2018 report from the California State Auditor 
referenced the California High-Speed Rail Authority's flawed 
decisionmaking and poor contract management, which contributed 
to billions in cost overruns and delays in construction.
    This project is a waste of taxpayer dollars. In 2019, 
Governor Newsom shortened the project by more than 200 miles. I 
don't think any more Federal money should go to this project. I 
introduced a bill that prevents more taxpayer dollars from 
funding this train to nowhere.
    I have taken high-speed rail from Osaka to Tokyo so often 
when I was raised in Japan. It is very efficient and cost-
effective. But we don't have the infrastructure here to support 
the bullet train like this in California. And unfortunately, 
this has been figured out in real-time at taxpayers' expense.
    To be clear, I don't oppose all high-speed rail projects, 
but I am very concerned about protecting private landowners and 
taxpayer dollars.
    Having said that, I want to ask just one really simple 
question to Ms. Kraska, that there are so many conversations 
about high-speed rail in the country, and I want to ask you how 
you believe future high-speed rail projects can be successful, 
while at the same time protect taxpayer dollars in the United 
States.
    Ms. Kraska. I am a small short line, 150 miles, and we do 
not have any passenger trains. It is possible at some point in 
the future that something like that might happen. But I don't 
think it is particularly likely in my timeframe for my area.
    So having said that, basically, I think passenger 
transportation, high-speed, is very desirable. But there needs 
to be the public-private partnership with all parties involved, 
making sure that the various aspects of it that are important, 
that will contribute to the success of a program, are in fact 
discussed and laid out in advance.
    I, too, have been on the bullet train. So I know exactly of 
what you speak. And I understand that, yes, for us to be 
successful here, the infrastructure would have to be further 
developed, as well.
    Mrs. Steel. Thank you, Mr. Chairman, I yield my time.
    Mr. Payne. I thank the gentlelady for yielding. Next we 
have the gentleman from Georgia, Mr. Johnson, for 5 minutes.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman, and 
congratulations on your maiden voyage as chair of this 
committee. And thank you for holding this hearing.
    Mr. Williams, rail----
    Mr. Payne. I would like to thank the gentleman.
    Mr. Johnson of Georgia [continuing]. Is one of the most 
climate-responsible transit options available to us. And 
freight railroads account for 28 percent of freight volume, but 
only .6 percent of total U.S. greenhouse gas emissions, and 
just 2.1 percent of transportation-related greenhouse gas 
emissions, according to EPA data. We know that the pace of 
climate change is rapid, it is real, and the crisis is only 
worsening. So the time to take bold action is now.
    Your testimony highlights the many environmental advantages 
of rail. How urgently do we need to expand our national rail 
network in order to have a more positive impact on climate 
change?
    Mr. Williams. Well, I think you pointed to the inherent 
underlying benefit of just rail as it exists today, and 
customers are more aggressively seeking rail solutions in their 
supply chains. And so we are very motivated to expand the 
capacity on our network to be able to handle more of our 
customers' freight. And so certainly, the ability to permit 
competitive rail projects for expansion is very important.
    And then our customers are also driving us not to just rest 
on our laurels, that rail, as it exists today, is inherently an 
environmental benefit, but continuing to push on greener 
technologies in our operation, whether it is the locomotive 
fleet, the cranes that operate at our intermodal facilities, 
the trucks that go in and out of our intermodal facilities, and 
so forth.
    But I think the biggest opportunity, in terms of expanding 
rail, is enabling us to invest in permit projects to grow as 
our customers' demand increases.
    Mr. Johnson of Georgia. Thank you. Do you believe that 
State and local governments generally appreciate the 
environmental impact, positive environmental impact, in terms 
of their plans on expanding their rail networks?
    Mr. Williams. I think it is very mixed, and we have had 
challenges permitting very green projects. Certainly in 
southern California, we have spent the better part of 15 years 
trying to permit what would have been the greenest intermodal 
facility in the country and have very significant environmental 
benefits locally. But it is still--getting through the 
permitting process has been a challenge.
    So I would say our experience is mixed on that.
    Mr. Johnson of Georgia. Thank you.
    The inclusion of women- and minority-owned small businesses 
in the expansion of our national freight network is imperative, 
in my view. And this means preserving and strengthening the 
DOT's Disadvantaged Business Enterprise program. Mr. Regan, do 
you have an opinion as to the importance of disadvantaged 
business enterprises to State and national economic 
development?
    Mr. Regan. Absolutely, we are entirely supportive of 
supporting Federal programs that will enhance minority- and 
women-owned businesses. And we think that, yes, the Federal 
Government rightfully plays a strong role in making sure that 
we can have more economic opportunity for different communities 
in the freight railroad industry.
    So whatever we can do to be supportive of these programs 
and to provide more investment and opportunity, we will do 
that.
    Mr. Johnson of Georgia. Thank you.
    Any witness can answer this question. As we prepare for the 
introduction of this new surface transportation reauthorization 
bill, how can this committee further prioritize robust rail 
investments?
    Mr. Regan. I am happy to. Congressman, if you are looking 
at the passenger side, for instance, there is a clear desire 
from the American people for more and expanded passenger rail 
service.
    I know there were some critical comments about high-speed 
rail earlier, and I think there are inevitably going to be 
hurdles when you are the first to make that big investment. But 
clearly, as other countries have demonstrated, it is possible, 
and we are, frankly, just falling behind in not making the 
investments to make high-speed rail, and real high-speed rail, 
possible in this country. So we need to continue those efforts.
    The other thing, I think, when it comes to freight, 
focusing on intermodal investments is an important part of 
that. I think one of the biggest concerns that you hear from 
ports is that there isn't enough access so that we are 
connecting our maritime shipping with our rail shipping. And we 
need to make the investments in our intermodal facilities, with 
the appropriate Federal protections, labor protections, a 
priority here to make sure that the entire system is operating 
appropriately.
    So I think there is a huge amount of opportunity here, and 
there is a huge amount of opportunity, both from an economic 
perspective, a jobs perspective, and a passenger and user 
perspective. And we just need to tap that investment from the 
Federal level to make it a possibility.
    Mr. Johnson of Georgia. Thank you.
    Mr. Payne. Thank you. The gentleman's time has expired, but 
I appreciate his line of questioning. It is very important. So 
I thank the gentleman.
    Mr. Johnson of Georgia. Thank you.
    Mr. Payne. Next we have Mr. Fitzpatrick.
    You have 5 minutes.
    Mr. Fitzpatrick. Thank you, Mr. Chairman. Thanks to all the 
panelists for joining us today. We really appreciate all your 
service. My questions actually are for Mr. Regan.
    Sir, it is very good to see you. If you have already 
answered this, forgive me, but I wanted you to expand on the 
record, so we have it on the record, the importance 
specifically of the freight rail workers, specifically the 
freight rail workers with respect to their roles keeping our 
economy going during the pandemic, because I think they get 
overlooked a lot. And I want that on the record. If you could, 
just share any additional thoughts that you haven't already 
shared.
    Mr. Regan. Absolutely. Thank you, Congressman. It is good 
to see you, as well.
    Freight rail workers have been frontline workers keeping 
our economy going throughout this pandemic, making sure that we 
had medical supplies, food throughout the country. They have 
provided that link that has been necessary throughout all of 
this.
    One thing that, unfortunately, is true is that there is a 
constant push to cut back on crew size, there is the push on 
PSR that has undermined, I think, the worker's role in this 
overall economy. And for us, we think that there are going to 
be necessary regulations to make sure that there is a balance 
in the safety, and balance in the workforce concerns as we move 
forward and grow this industry in the future.
    So we really think that there is an opportunity here to not 
only be one of the most forward-looking and advanced freight 
systems in the country, but also one that supports a middle-
class workforce that is key to bringing our economy back.
    Mr. Fitzpatrick. Thanks. And, you know, as our rail system 
faces a lot of challenges, for sure--according to STB, there 
are currently about 113,000 Class I freight railroad employees, 
which is down from about 152,000 less than 4 years ago. Could 
you share with our committee what Congress can do, what the 
rail industry can do to ensure that we have a strong workforce, 
going forward?
    Mr. Regan. Yes. I think Congress has a number of tools in 
its toolbox to create and promote good freight jobs. We 
strongly support a robust surface transportation bill that can 
address the crumbling infrastructure across our country that is 
slowing both freight and passenger rail.
    And we also need to look at policies that will increase 
intermodal rail connectors at ports and harbors, as I mentioned 
earlier, and just put the investment there to make sure that 
the industry can continue to grow.
    [Pause.]
    Mr. Payne. I am sorry, Mr. Fitzpatrick, I think you are on 
mute.
    Mr. Fitzpatrick. Yes, sir. I yield back, Mr. Chairman. I am 
sorry.
    Mr. Payne. Oh, thank you, sir.
    I ask unanimous consent that Members not on the 
subcommittee be permitted to sit with the subcommittee at 
today's hearing and ask questions.
    Without objection, so ordered.
    Next we will have the gentlelady from Nevada, Ms. Titus, 
for 5 minutes.
    Ms. Titus. Thank you very much, Mr. Chairman. I would like 
to ask Secretary Valentine a couple of questions, if I could.
    I represent Las Vegas, Secretary Valentine. We haven't had 
passenger rail service there since the late 1990s, when Amtrak 
ended their long-distance Desert Wind service. That particular 
train came to Las Vegas in the middle of the night. Now, 
knowing Las Vegas, that may not seem like such a deterrent, but 
looking at other railroad studies we know that that is not the 
best time to encourage passenger travel.
    Also in Las Vegas we welcome about 42 million travelers a 
year. One-fifth of them come from California, and 85 percent of 
those drive on I-15, which has gotten very congested as the 
highway that connects Los Angeles to Las Vegas.
    For all of those reasons, it makes sense to expand 
passenger rail service. We are now in the process of moving 
forward with what they are calling the Brightline West project, 
and that is trying to build new, private passenger service 
between the two areas, which will help reduce both traffic and 
emissions.
    You mentioned some of the work that you have done reviving 
the Southeast Corridor, the speed rail proposal for that area. 
I wonder if you could talk about some of the things you have 
learned, or best practices, or some of the things we could use 
to do the same thing in the Southwest.
    You also mentioned potential Federal support in the form of 
a capital investment program. I wonder if that can be used as a 
public-private partnership, as well.
    Ms. Valentine. Thank you so much, and congratulations on 
all your work out in Las Vegas.
    So, anyway, I did have to laugh when you were talking about 
the night time.
    Our project, in my mind, is really the first step in 
creating that southeast high-speed corridor. We have to build 
the bridge in order to expand access. We need to be able to 
begin separating passenger and freight. And even before that is 
able to occur, building sidings and creating the ability to 
move both.
    We took a lot of lessons from a study called the DC to RVA. 
Again, it is the first part of that high-speed Southeast 
Corridor. For us it was recommended that we take an incremental 
approach. Rather than having a large, $100 billion project, we 
were doing it in increments. And so this is a $3.7 billion 
approach, which is still going to help us over 10 years create 
hourly service between Richmond and DC.
    It was recommended that we use existing infrastructure, and 
right away. So in our negotiations with CSX, we are acquiring 
386 miles of right-of-way, and 223 miles of track. We are also 
purchasing as a part of this an S-line. It is abandoned. It 
goes down into Ridgeway, North Carolina, from Petersburg, 
Virginia, just south of Richmond. Because it is abandoned, we 
have a lot of opportunity for development for future phases, 
for even higher speed rail, and we actually included part of 
Buckingham Branch. It is an east-west freight corridor that we 
would like to upgrade and protect for east-west connection.
    All of these were incremental steps using existing right-
of-way and tracks, and achieving higher speeds where it was 
achievable. There are times when topography and different 
elements come into play, and so we are trying to go for the 
highest speeds that we are able to achieve.
    But what we are really delivering, and I think you know 
this from your question, is reliable, predictable 
transportation. We want to be able to deliver ridership on 
time, and with regular performance. So we are really striving 
in all of our negotiations to make performance and reliability 
the most important target.
    Ms. Titus. Well, thank you very much. Did you look at the 
possibility of development incentives around potential stations 
as a way to contribute to funding?
    Ms. Valentine. That is a longer term objective. At this 
point we are really just focused on building out the rail 
corridor, and what is possible. We have our stations, but that 
is not a part of this initiative.
    Ms. Titus. OK.
    Well, thank you, Mr. Chairman. I yield back.
    Ms. Newman [presiding]. I will now recognize each Member 
for 5 minutes for questions, and I will start by recognizing 
Mr. Auchincloss first.
    Mr. Auchincloss. Thank you. And I appreciate the 
opportunity to be here today to speak about rail and the 
economic power that it portends.
    Secretary Valentine, you put it well in your written 
testimony that in 2009, rail reached 49 percent of Virginians, 
53 percent of jobs. Today it reaches 77 percent of the 
population, and 88 percent of jobs. In other words, ``not 
enough.'' And in my district and in Massachusetts we also have 
a lot of work to do.
    South Coast Rail in my district is critical to two major 
cities: Fall River, which, along with New Bedford, are the only 
major cities within 50 miles of Boston that do not currently 
have commuter rail access. It is going to boost economic 
development, it is going to boost access to jobs and services. 
And yet it took 30 years to get South Coast Rail fully funded 
and to break ground on its construction.
    Secretary Valentine, it is my understanding that the 
Virginia Department of Transportation has been a pioneer in 
using SMART SCALE, which I know Transportation for America and 
the University of Wisconsin-Madison have helped foment. With a 
project like SMART SCALE that evaluates transportation 
infrastructure by how much it contributes to access to jobs and 
services, do you expect that rail projects like South Coast 
Rail and passenger rail in general would be easier to fund, and 
would be prioritized faster by virtue of connecting more people 
to jobs and services?
    Ms. Valentine. I believe elements could certainly be. You 
know, SMART SCALE is based on safety and accessibility, 
environmental impact, land use, various factors, including 
economic development. We actually measure those factors and 
score them against the cost of implementing them.
    Our rail and transit projects actually do very well through 
our SMART SCALE program. The issue being for larger intercity 
passenger rail, commuter rail projects, it would far exceed 
what we are able to actually invest in a SMART SCALE project. 
For Virginia, we were--you know, our last round was about $850 
million. This year, through the passage of an omnibus 
transportation program, we have about $1.3 billion for the 
entire Commonwealth.
    So if we could use and leverage these funds with other 
sources, partners, Federal dollars to create a vision and a 
long-term, sustainable investment in passenger rail, I believe 
we can accomplish what you are trying to accomplish.
    Mr. Auchincloss. And to make sure I am understanding that, 
I will frame it back to you. If the Federal Government under 
DOT was using a SMART SCALE-like evaluation that was looking at 
ROI for a given transportation project based on safety, as you 
said, but also connection to jobs and services, how much----
    Ms. Valentine. Yes.
    Mr. Auchincloss [continuing]. The labor market gets, you 
think that funding--that the Federal Government would match for 
States would tend to raise up commuter rail projects, passenger 
rail projects, relative to highways?
    Ms. Valentine. You know, in my mind, I am thinking how do 
we leverage State regional dollars, and how do we leverage 
Federal dollars? Imagine what we could do together. So, yes, 
creating that cost-benefit analysis, having skin in the game 
for everyone, but really, it is that longer term, sustainable 
investment that we really need to have to expand passenger 
rail.
    It has been quite an effort to put this $3.7 billion 
package together to initiate this phase.
    Mr. Auchincloss. Is SMART SCALE measuring sustainability 
from an environmental perspective?
    Ms. Valentine. It is measuring the impact of a proposed 
project, various environmental factors. So it is for a project.
    My wording back to you is really the sustainable investment 
of the Federal Government in these programs. If we could have 
it over a longer term----
    Mr. Auchincloss. I see.
    Ms. Valentine [continuing]. Over a longer period, where we 
can actually deliver larger projects and a program of projects 
where you create that connectivity.
    But again, it is leveraging what we have at the State with 
what the Federal Government is able to provide. And I believe 
we could actually work together to create much more of a system 
for that connectivity that you are looking for in your 
district.
    Mr. Auchincloss. Well, here I want to reference my 
colleague, Congressman Moulton's, national rail plan, which 
would, I think, provide that sustainability, that 
predictability, and I expect would incorporate much of the 
criteria of SMART SCALE to create a national funding paradigm 
for rail. That is why that initiative that he has spearheaded, 
I think, is so critically important----
    Ms. Valentine. Yes.
    Mr. Auchincloss [continuing]. To my State and to the 
Nation.
    And I yield back my time.
    Ms. Valentine. Thank you.
    Ms. Newman. Thank you, and I will now recognize Mr. 
Malinowski.
    [Pause.]
    Ms. Newman. Mr. Malinowski might not be with us still, so 
we will go to recognizing Mrs. Napolitano.
    Mrs. Napolitano. Thank you. And I would like to add my 
congratulations to the chair for the first hearing, and I have 
a few questions.
    Pardon me.
    [Pause.]
    Ms. Newman. Mrs. Napolitano, you might be on mute.
    [Pause.]
    Ms. Newman. Mrs. Napolitano, we will come back to you after 
we fix your audio, and now I will recognize Mr. Stanton.
    Mr. Stanton. Thank you, Madam Chair. I am here today to 
discuss a critical infrastructure project, the Rio de Flag 
flood protection project, and how local and Federal 
infrastructure investments interact with freight rail.
    The 100-year flood plain of the Rio de Flag covers large 
portions of the city of Flagstaff, Arizona. Flagstaff's 
downtown business district and historic neighborhoods stand to 
be seriously impacted by a major flood event. And for 
generations the city has been in a battle to prevent this from 
happening. A significant flood event could damage 1,500 
structures, including homes and businesses in the city, valued 
at more than $916 million, and cause $93 million in economic 
damages, a total impact of more than $1 billion.
    The BNSF Southern Transcontinental Mainline, which is 
critically important to BNSF to move freight from Chicago to 
Los Angeles, runs through the heart of Flagstaff, and it too is 
located in the same 100-year flood plain. As a result, it has 
the potential to experience serious negative impact to its 
operations in the case of a major flood.
    Congress, with bipartisan support, authorized and funded 
the Rio de Flag flood protection project. The existing 
undersized channel that needs improvement crosses under the 
BNSF corridor, and portions of the project are planned to be 
constructed on BNSF property, adjacent to the mainline. 
Flagstaff has been working on the design of this project with 
the Corps of Engineers and BNSF for more than 20 years. The 
total cost of the Rio de Flag flood project is estimated at 
$122 million.
    In fiscal year 2020, the Corps awarded the final $52 
million in Federal funds needed to complete its construction. 
The city is ready to proceed, but coordination has been 
challenging, due to BNSF's approval process and the level of 
mitigation that BNSF is requesting.
    Unfortunately, the anticipated mitigation costs $70 to $100 
million based on early estimates, a cost the city simply can't 
afford. These costs, which are in addition to what the 
community has already committed to the flood protection 
project, risk significantly delaying its construction or, 
worse, ending the project altogether.
    In addition to the flood project, the city has several 
other projects in development funded entirely with local 
resources, including grade-separated rail crossings, a large 
overpass, a pedestrian tunnel in an active trespassing area. 
These projects will improve rail safety and reduce vehicle 
traffic at existing crossings, all of which will benefit BNSF 
operations and support construction of its third mainline 
track.
    The city and the Army Corps have expressed concerns that 
the cost and scale of the requested mitigation for the flood 
protection project are vastly disproportionate to BNSF's 
operation, and does not incorporate the benefits BNSF will 
receive from community rail improvements and the flood 
protection project. If Federal funding cannot be obligated for 
the Rio de Flag project due to the lack of agreement on an 
appropriate level of mitigation, the project will lose these 
funds, and lose more than $30 million that the city of 
Flagstaff has already invested in this critical project.
    I believe we all share the same goals: permanent flood 
protection for families and businesses in Flagstaff; increased 
rail safety; and economic opportunity for both the city of 
Flagstaff and BNSF. So it is my hope that the necessary 
approvals can be advanced, and that efforts to reach resolution 
on mitigation can proceed expeditiously to keep this critical 
flood protection project viable so both Flagstaff and BNSF can 
reap the benefits.
    Mr. Williams, I look forward to continuing to work with 
BNSF and the city of Flagstaff on this important infrastructure 
project. I have several questions that I will submit for the 
record, and appreciate your prompt reply. And in the time 
remaining I would certainly welcome any comments you may like 
to make. Thank you very much.
    Mr. Williams. Well, you very appropriately recognized the 
importance of our line through Flagstaff on our network. And 
that route supports not only local, but certainly on the order 
of 80 or 90 intermodal trains a day that serve all points east, 
from Texas to the southeast to the upper Midwest.
    I am not familiar with the details of where this particular 
project stands. I understand that we are working toward a 
mutually agreeable solution, and look forward to following up 
with your office on the particulars.
    Mr. Stanton. Thank you very much. I look forward to working 
closely with you, and I yield back.
    Ms. Newman. Thank you, and I now recognize Mr. Balderson.
    Mr. Balderson. Thank you, Madam Chair, and thank you for 
being here. My question is for Mr. Williams.
    Mr. Williams, thank you for participating in the hearing 
today and providing information on the current state of the 
rail industry.
    Mr. Williams, my first question, last summer this committee 
marked up and passed H.R. 2, the INVEST in American Act. This 
bill included a provision that would implement a 10-minute time 
limit for trains blocking public grade crossings. This 
provision would have applied penalties of up to $25,000 even 
for the first-time violations for railcars and trains that 
block a crossing for just 1 second over the 10-minute limit.
    The bill also directs the Department of Transportation to 
submit a report containing a national strategy to address 
blocked crossings. While this report is a good start, the bill 
would give the Department up to 18 months to submit this 
strategy, while the penalties for blocked crossings would go 
into effect immediately.
    No one likes having their daily commute delayed or impacted 
because of blocked rail crossings. And I don't think solving 
this issue should be a partisan issue. It is important that 
this committee works with the entire rail industry to better 
understand how we can prevent blocked crossings, moving 
forward. But I am concerned that a one-size-fits-all approach 
would force crews to make split-second decisions in order to 
meet the 10-minute requirement.
    Mr. Williams, can you share what BNSF is doing to address 
this issue?
    And how can the Federal Government work with you to prevent 
blocked crossings?
    Mr. Williams. Thank you for your question, Congressman 
Balderson. And I can assure you even rail employees don't like 
waiting at blocked crossings for trains.
    And I would say we have concern with a one-size-fits-all 
approach. And certainly the community value within BNSF is 
strong. Our employees live in these communities that we serve. 
But, you know, issues around blocked crossings handled locally, 
we think, is the best way. We have our local operating teams 
that deal with local officials, and there are unique 
circumstances in local communities. We think those problems 
should be solved there, where they are, locally.
    Mr. Balderson. Thank you. Is there anyone else that has 
thoughts on this issue? You may address it, if you would like.
    [Pause.]
    Mr. Balderson. OK. Seeing none, Madam Chair, I yield back 
my remaining time. Thank you very much.
    Ms. Newman. Thank you. And we are going to go back to Mrs. 
Napolitano to see if she is available.
    Mrs. Napolitano. Can you hear me?
    Ms. Newman. We can.
    Mrs. Napolitano. Oh----
    Ms. Newman. Please, go ahead.
    Mrs. Napolitano. All right, thank you very much. I wanted 
to talk about Alameda Corridor-East, which is the transit for 
railroads out of the L.A. Port and Long Beach in southern 
California. And they can also be a burden to my communities, 
because it goes through all my communities, many streets, roads 
to school, yards of residences, within the yards of many 
residents and businesses, and they create----
    [Pause.]
    Ms. Newman. Did we lose her?
    [Pause.]
    Mrs. Napolitano. Hello?
    Ms. Newman. We can hear you now.
    Mrs. Napolitano. [Inaudible] . . . the impacts, mitigating 
the impacts by supporting grade separation project, rail safety 
projects, including the employee reduction--environmental 
improvement projects. To any of you.
    Mr. Williams. Congresswoman, this is Tom Williams from 
BNSF, and I apologize, but I don't know if it was just me or if 
all of us were not able to hear a good deal of the first part 
of your question. But I did hear related to the trains that 
touch the port complex down in Los Angeles.
    Mrs. Napolitano. Well, yes, that is--both ports create the 
traffic that goes through my whole district, the Alameda 
Corridor-East, and it does cause a lot of problems because it 
traverses through many of the cities that I represent. And 
there is congestion, there is idling from the cars, which 
creates pollution, and there are safety issues with first 
responders not being able to get through.
    And now, with the longer trains that are being proposed to 
go into Long Beach from either Texas or some other areas, it is 
important that we recognize that there has to be a solution for 
the communities, not just for the railroad and not just for the 
industries.
    Mr. Williams. I recognize that. And thank you for this 
question, and I agree that it is a very important issue.
    I know the Alameda Corridor did address several grade 
separations, and that was a good example of a public-private 
partnership that helped support more efficient rail growth, and 
helped take a lot of trucks off of the highway.
    We are very motivated to continuing to grow our on-dock 
rail presence, which will further, hopefully, reduce trucks 
that are on the highways in southern California. And certainly, 
grade separation efforts are important to keep the trains 
moving and have less disruption to the commuter traffic flows, 
as well.
    Mrs. Napolitano. But should some of the funding be directed 
to ameliorating these problems?
    Mr. Williams. Funding, in terms of grade separation?
    Mrs. Napolitano. Not only grade separations. The railroad 
safety and environmental projects.
    Mr. Williams. Yes, I mean, I do think grade separation 
efforts are a good opportunity for public-private partnerships, 
and with the local communities.
    Mrs. Napolitano. What is the normal length of a train 
anymore? Because I remember the 1\1/2\-mile-long train that 
came through my area a long time ago, about 6 years ago, and it 
came out of Texas to our ports in Long Beach and L.A. And a 
1\1/2\-mile-long train was enough to put a lot of concern in my 
residents and in my cities. What is the normal length of those 
trains now?
    Mr. Williams. Well, the normal length is certainly, on our 
system, less than 1\1/2\ miles long. And I do want to assure 
you that we would never operate a train that wasn't safe. But 
longer train initiatives are an important part of our 
efficiency initiatives to stay competitive in this competitive 
freight transportation marketplace. And as we run longer 
trains, we also run fewer trains for the same amount of volume.
    Mrs. Napolitano. Yes, but what length of train is the 
maximum that you run?
    Mr. Williams. Well, today trains can run well in excess of 
1\1/2\ miles long, on occasion. But the average length, in 
terms of our system, is less than 1\1/2\ miles long.
    Mrs. Napolitano. OK, and then some of the farmers in my 
area are saying that they are being denied access to exporting 
goods because of--whether it is capacity or whether it is--I 
don't know what the reason is. Would you be able to address 
that?
    Mr. Williams. Yes. So I addressed this and touched on this 
with an earlier question, but we certainly work with the 
shipping lines to move whatever they tender to us. We are not 
container owners on the railroad. We work with carriers both on 
the international and domestic side. And, you know, we are 
eager to move the volume that is tendered to us.
    Mrs. Napolitano. That is fine, thank you.
    Mr. Chair, I yield back.
    Ms. Newman. Thank you.
    Are there any further questions from members of the 
subcommittee?
    [No response.]
    Ms. Newman. Seeing none, I would like to thank each of the 
witnesses for your testimony today. Your comments have been 
very informative and helpful.
    I ask unanimous consent that the record of today's hearing 
remain open until such time as our witnesses have provided 
answers to any questions that may be submitted to them in 
writing.
    I also ask unanimous consent that the record remain open 
for 15 days for any additional comments and information 
submitted by Members or witnesses to be included in the record 
of today's hearing.
    Without objection, so ordered.
    The subcommittee stands adjourned. Thank you.
    [Whereupon, at 1:38 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              

  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Thank you, Chairman Payne, and thank you to our witnesses for being 
here today.
    I would also like to congratulate Chairman Payne on becoming the 
newest leader of this important subcommittee. I look forward to working 
together.
    The railroad industry makes significant contributions to the U.S. 
economy, and its high capacity to move freight with low emissions 
provides benefits to the environment.
    Freight rail is an essential part of the U.S. economy and is a 
major employer. Railroads themselves employ about 135,000 people.
    The rail industry is also continually working to improve rail 
safety and better utilize new technology and innovation, leading to 
increased fuel efficiencies and reductions in emissions.
    I look forward to hearing more from our witnesses about these 
efforts and the contributions of the rail industry.
    Thank you, Chairman Payne. I yield back.

                                 <F-dash>
   Statement of the Conference of Minority Transportation Officials, 
         Submitted for the Record by Hon. Donald M. Payne, Jr.
    Chairman Payne, and Members of the Subcommittee on Railroads, 
Pipelines, and Hazardous Materials, the Conference of Minority 
Transportation Officials (COMTO) appreciates the opportunity to submit 
a statement for the record for this most important hearing to fund a 
robust railroad infrastructure. We hope the discussion also addresses 
issues important to COMTO's constituency including diversity, 
inclusion, and economic and social equality. We thank the Chairman 
Payne for his leadership and look forward to a robust and productive 
agenda under his tenure as Chair.
    COMTO was established in 1971--we are marking the 50th anniversary 
of our founding this very year--and was established with the to ensure 
opportunities and maximum participation in the transportation industry 
for minority individuals, veterans, people with disabilities and 
certified M/W/DBE businesses through leadership training, professional 
development, scholarship and internship funding, political advocacy, 
partnership building and networking opportunities.
    We believe that diversity moves the nation. We believe that the 
leadership of a massive industry that has the responsibility of 
transporting all people and goods all the time should reflect the 
complex mosaic of those they serve. We believe that commitment to 
inclusion across race, gender, age, religion, identity, and experience 
moves us forward every day.
    To quote President Joe Biden's Infrastructure Plan, we support the 
Administration's goal to `` . . . provide every American city with 
100,000 or more residents with high-quality, zero-emissions public 
transportation options through flexible federal investments with strong 
labor protections that create good, union jobs and meet the needs of 
these cities--ranging from light rail networks to improving existing 
transit and bus lines to installing infrastructure for pedestrians and 
bicyclists.'' We understand the Mr. Biden's vision involves all modes, 
including freight, passenger, and high-speed rail.
    COMTO is looking forward enthusiastically to the opportunity to 
work closely and collaboratively with the T&I Committee and the Biden 
Administration to advance a common transportation infrastructure agenda 
that reflects the current culture of democracy, environment, and 
inclusion and equality. COMTO is looking forward to the details of an 
infrastructure program to ``Create millions of good, union jobs 
rebuilding America's crumbling infrastructure . . . to lay a new 
foundation for sustainable growth, compete in the global economy, 
withstand the impacts of climate change, and improve public health, 
including access to clean air and clean water.'' COMTO National and its 
thousands of members throughout 34 chapters across the country, offers 
its support and service to assist the Committee and the Administration 
in seeing this vision to fruition.
    We ask that the Committee, by virtue of entering this statement 
into the hearing record, will give weight to COMTO's perspective and 
legislative priorities during any consideration of reauthorization of 
the Surface Transportation Act or any upcoming infrastructure 
legislation.
            COMTO Legislative Program/Initiatives/Priorities
    <bullet>  Federal Railroad Administration (FRA) DBE Program--COMTO 
respectfully requests implementation, via legislative or executive 
order, that FRA immediately implement a DBE program using the FHWA/FTA/
FAA model. We advocate for consistency within the USDOT and the 
establishment of DBE participation goals on projects funded through the 
FRA and on monies funneled by FRA to state rail agencies--including 
High Speed Rail projects. When the DBE program was established as part 
of the Surface Transportation Act of 1982, the FRA funds were not made 
subject to DBE goals. The legislative history of this decision may be 
murky, but the consequences of this unfair policy are crystal clear. 
For the past 40 years, the FRA has dispensed taxpayer funds--including 
government-guaranteed loans--to public and private rail projects, with 
recipients having little accountability to minority communities and no 
consideration given to small and minority businesses. Again, this would 
appear to be a simple fix to a serious problem. An FRA DBE program 
would provide opportunities for new DBE start-ups, would mean millions 
of dollars for minority businesses, and would provide thousands of jobs 
for minority communities.

    <bullet>  U.S. Department of Transportation (USDOT) Disadvantaged 
Business Enterprise (DBE) Program Changes/Efficiencies/Goals Increase--
Revitalization of the USDOT Office of Small and Disadvantaged Business 
Utilization (OSDBU) and the USDOT Departmental Office of Civil Rights
        <bullet>  Improvements and Efficiencies--COMTO would like to 
see closer oversight by DBE officers to avoid fraudulent front 
companies, through more vigorous training programs for certification 
and compliance officers. We would like to include a stronger, clearer 
definition of ``good faith efforts'' and fewer opportunities to seek 
waivers from DBE goals by majority-owned firms. We recommend improved 
electronic application submission and allow information sharing between 
agencies to expand reciprocity between those agencies. The Surface 
Transportation Act of 1982 set DBE participation goals on federally-
funded projects at 10%. That has not changed in almost 40 years. 
Although local transit jurisdictions do have flexibility to adjust that 
goal depending on the demographics of the region, COMTO would recommend 
a change in the regulation to increase DBE/MBE/WBE participation goals 
to 40%. We believe it is also important to apply not just project goals 
but also to implement specific goals in under-utilized trades and 
businesses.
        <bullet>  Small Disadvantaged Business Size Standards--COMTO 
supports action that would conform the Department of Transportation's 
DBE Size Standard with the Small Business Administration Standards. 
Since the Federal Aviation Administration (FAA) Reauthorization of 2018 
already included language that applied SBA size standards to FAA funded 
projects, a simple and straightforward amendment to the CFR would 
correct the anomaly in current law that discriminates against Federal 
Transit Administration (FTA) and Federal Highway Administration (FHWA) 
DBEs. This is a simple fix to a big problem: in the interest of 
fairness and consistency and the survival of small minority owned 
businesses, the USDOT should use the FAA's model and use SBA's size 
standards when making determinations with regard to small business 
status. We believe the three-year average revenue ceiling for USDOT 
small business--now at $26.29 million--should sync with the ceiling of 
SBA--$39.5 million, with increases and inflationary adjustments 
accordingly.
        <bullet>  Increase DBE Personal Net Worth (PNW) Ceiling--Like 
the DBE/SBE ceiling, current PNW levels discourage DBE growth, quashes 
successful graduation rates and limits bonding and insurance 
opportunities. DBE firms are caught in a Catch-22: at the PNW ceiling 
of $1.32 million currently in effect and unchanged for several years, 
owners cannot obtain the bonding necessary to respond competitively to 
bids on large transportation construction projects. And if they do 
obtain the net worth to secure the requisite bonding, those firms' 
owners immediately become ineligible for the DBE program. It is just 
common sense to set a PNW grounded in reality and adjusted for 
inflation, and in recognition of the challenges small and minority 
businesses face in the bonding and sureties' market. In addition. 
current policy disincentivizes business owners from saving for 
retirement; therefore, we would like to see exclusion of restricted 
401(k) retirement savings from the personal net worth calculation.

    <bullet>  DBE/SBE Mentor Protege Program--COMTO supports an 
incentivized USDOT program that would provide quantifiable benefits--
rather than simply good-will--majority-owned firms to mentor small 
minority companies, e.g., tax credits and/or ``points/credits'' on bid 
evaluations if a mentor-protege program is in place.

    <bullet>  Local Hiring Initiatives--COMTO strongly supports 
language that would immediately restore the Local Hire Pilot Program 
established by the USDOT under President Obama; and canceled early in 
the Trump administration. We would like to see expansion of the 
program, based on data from the Pilot Program that empirically shows 
that projects using a local hire preference did not lower competition 
or increase bid prices. To the contrary, they strengthened local 
communities by helping to create good local jobs, increasing 
opportunities and greater equity for people of color, women, veterans, 
and others facing barriers to employment. COMTO is pleased to know that 
rebuilding America through racial and economic equity and incentivizing 
job creation through local hiring and job creation, particularly 
through infrastructure, is a priority for the Biden Administration.

    <bullet>  Safety Protocols for Front Line Transportation Workers 
and Public Transit Users--One of the Nation's biggest and most 
immediate priorities is our response to COVID-19 particularly on how we 
measure racial equity. Many transit-dependent residents and commuters 
in the service sector and other lower salaried jobs, who are 
disproportionately minority and women, are forced to continue to use 
public transit throughout the pandemic. Similarly, front-line transit 
and transportation workers come from similar demographics and are 
disparately impacted by dangers of contact with COVID-19. We believe 
safeguards and protocols should be in place to protect these workers 
who ensure continued operation of the transportation systems and 
represent the communities and ridership served by public transit.

    <bullet>  Workplace Drug Policy--COMTO has taken a neutral position 
on the federal legalization of recreational marijuana consumption. 
However, we would encourage a USDOT study on current drug testing 
policies to reflect changing state and local marijuana laws and public 
attitudes toward medical and recreational cannabis use. Current 
employer, legally-supported penalties disparately impact minority and 
younger, entry-level members of the workforce.

    Thank you for your attention and consideration in these important 
matters, and COMTO appreciates the opportunity to provide comment.

                                 <F-dash>
   Statement of John C. Hellmann, Chief Executive Officer, Genesee & 
  Wyoming Inc., Submitted for the Record by Hon. Donald M. Payne, Jr.
    I am John C. Hellmann, Chief Executive Officer of Genesee & Wyoming 
Inc. (G&W). My company owns or leases 116 freight railroads organized 
in locally managed operating regions with 7,300 employees serving 3,000 
customers.
    G&W is the largest owner and operator of Class II and III 
(``regional'' and ``short line'') freight railroads in North America. 
Our four North American regions serve 42 U.S. states and four Canadian 
provinces and include 113 short line and regional freight railroads 
with more than 13,000 track-miles.
    The G&W UK/Europe Region includes the largest rail maritime 
intermodal operator and second-largest freight rail provider in the 
United Kingdom, as well as regional rail services in continental 
Europe. Worldwide, G&W subsidiaries and joint ventures also provide 
rail service at more than 30 major ports, rail-ferry service between 
the U.S. Southeast and Mexico, multi-modal transloading services, and 
industrial railcar switching and repair.
    Genesee & Wyoming started in 1899 as a fourteen-mile short line 
railroad in upstate New York serving only one customer, a salt mine, in 
Retsof, New York. We still serve the descendant of that first customer 
today. We have remained consistent over the 122 years since our 
founding in providing local rail freight services across the U.S. and 
Canada in the safest and most customer-focused means possible.
    Since the first common carrier railroad began operations in 1830, 
the rail industry has remained critical to both the national economy 
and the transportation needs of its communities through continuous 
evolution and innovation. This evolution has embraced technology, 
ranging from the adoption of internal combustion engines for the 
replacement of steam locomotives to the early use of mainframe 
computers to improve freight car management. On a smaller scale, G&W 
and Wabtec together played a role in this long history of innovation as 
we collaborated to incubate and develop software at the inception of 
the short line industry that has become the industry standard.
    As the rail industry approaches its 200th anniversary, 
technological innovation is how railroads will not only remain 
essential to the competitiveness of our national economy but also will 
lead the way to a decarbonized future for the United States. We believe 
that G&W working with Wabtec and Carnegie Mellon University on the 
Freight 2030 Initiative, with support by the federal government, will 
accelerate the development of zero-emissions locomotives and transform 
the next generation of rail transportation. With success, G&W railroads 
will be able to offer our customers both carbon-free and cost-effective 
transportation, enabling us to expand rail freight utilization and 
thereby create a virtuous circle that reduces our nation's carbon 
footprint. It is my pleasure to provide this statement of support in 
conjunction with the testimony to be provided by Mr. Rafael Santana, 
President and CEO of Wabtec Corporation.
    Railroads are already among the cleanest, safest and most cost-
effective modes of surface transportation, a reality that can be 
partially attributed to the industry's unique physical attributes. The 
physics of a steel flanged wheel moving over a steel rail simply 
provides the most efficient and environmentally friendly means of 
overland freight transportation. And when these characteristics are 
coupled with the extraordinary productivity of our nation's privately-
owned freight railroads, the United States enjoys a vast competitive 
advantage. G&W has privatized railroads on four continents and has 
witnessed firsthand the economic benefits of operating the safest and 
most productive railroads in the world. G&W believes the rail industry 
will have an even stronger and more important role to play in our 
nation's decarbonized future. And with the prospect of electrifying the 
nation's rail network possessing limited economic merit, innovations in 
battery and hydrogen powered locomotive technologies will be essential 
to our industry's future.
    G&W is a committed partner with Wabtec and Carnegie Mellon 
University in our Freight 2030 Initiative and believes the federal 
government could be a vital partner in that vision. Our success can 
revolutionize the rail industry, intensify customer demand for rail 
transportation and lead our nation to a decarbonized future.

                                 <F-dash>
   Statement of William J. Flynn, Chief Executive Officer, National 
 Railroad Passenger Corporation (Amtrak), Submitted for the Record by 
                         Hon. Peter A. DeFazio
                              Introduction
    Chairman Payne, Ranking Member Crawford, and all the Members of 
this Subcommittee, it is my pleasure to provide this statement for the 
record to reinforce the testimony of today's witnesses regarding the 
important role rail has to play in the achievement of our nation's 
economic and environmental goals. As we approach our 50th anniversary, 
Amtrak has proven to be not only a vital means of connecting people, 
communities, and regions throughout the country, but also a driver of 
economic growth for cities and families, and a significantly cleaner 
alternative to other modes of travel. Simply put, every dollar invested 
in intercity passenger rail is a dollar well spent towards the nation's 
economic goals and vision for securing a healthy environment.
    Amtrak's recent success over the past two decades proves that 
intercity passenger rail service is working in America. The pre-
pandemic numbers speak for themselves--over the past 20 years 
(exclusive of the recent pandemic period), ridership and passenger 
revenue grew by over 60 and 130%, respectively, and with the support of 
the contributions from our state partners for State Supported services, 
we reduced our net operating loss to just $29.6 million in 2019, 
allowing us to spend far more of our Federal dollars on addressing our 
huge capital needs instead of funding operations. Yet, we can and must 
do more.
    With better policy and reliable, long-term funding, intercity 
passenger rail could become a much larger part of our transportation 
system, a catalyst for economic growth and community development, and a 
key aspect of our climate response.
    For proof of how much more rail can do for the nation, we only need 
look at the Northeast Corridor (NEC), the continent's busiest railroad, 
which provides over 260 million passenger trips per year, of which 17.1 
million annual trips are made by Amtrak passengers. The main line of 
the NEC spans 457 miles of rail lines and includes four of the largest 
metropolitan areas in the country. The combined economy of the 
Northeast Corridor is the fifth largest economy in the world with a GDP 
of $3 trillion. Amtrak owns 363 miles of the track on the NEC.
    After the record-breaking success of FY 19, Amtrak, like the rest 
of the country, was affected by the current health crisis and the 
attendant drops in both ridership and revenue associated with the 
pandemic. However, with the continued support of Congress, efforts to 
contain the virus, and the dedication of our staff who continue to 
serve on the frontlines each day, our company will weather this storm 
and emerge stronger and well-positioned to continue serving the 
American public.
    As encouraged as we are by the success of the NEC, we can do much 
more and hopefully replicate the success of the NEC in high-demand 
areas throughout the country. For the past three years, Amtrak has been 
working to identify the corridors with the highest demand for multi-
frequency, high-quality passenger rail service. We have been analyzing 
data on demographics, population density and growth, and travel demand 
on other modes; reviewing state and regional rail plans; and talking 
with federal and state elected officials, our state partners, and 
departments of transportation in states with which we do not currently 
have state partnerships.
    Through this analysis, we have identified more than two dozen 
promising corridors we either do not serve at all or do not serve well 
today. In addition, we have also worked with our state partners to 
identify existing corridors on which there is significant unmet demand 
for additional, improved or expanded state-supported service. We firmly 
believe that the nation's 50 largest metropolitan regions, at a 
minimum, should be served by high-quality intercity passenger rail. 
While we have great partnerships in places today, there are so many 
underserved communities and corridors in the nation, like Nashville to 
Atlanta, the Colorado Front Range, and the Texas Triangle, that deserve 
Amtrak service. Our goal is to serve many more people and more 
communities than we do today by developing a national network of 
corridors with service that is trip time-competitive with other modes 
and will link major and growing population centers in all regions of 
the United States.
    While our corridor development plan will require a significant 
increase in federal funding for intercity passenger rail service, it 
will also produce a much bigger ``bang for the buck'' by providing a 
higher return for each dollar of federal investment. Offering services 
that are trip time competitive with other modes and provide multiple 
frequencies rather than just one round trip per day will generate 
higher revenues from passengers and produce operational efficiencies 
that lower costs. Our projections indicate that an expanded corridor 
network would have a much lower federal operating funding requirement 
per passenger than our existing services.
    Amtrak's 15 long distance routes also comprise an important part of 
our intercity passenger rail system and play a vital role in connecting 
communities across the nation, including many towns and cities in rural 
America, to the rest of the nation. Many of the communities served by 
our long distance routes have seen alternative intercity transportation 
modes such as airlines and intercity bus service leave the area. For 
these communities, Amtrak remains a vital transportation option, and is 
often the only link between smaller towns and cities and more distant 
urban centers. Amtrak serves about 40% of America's rural population 
and serves 8 out of the 10 states classified by the U.S. Department of 
Transportation in 2010 as enjoying the least comprehensive access to 
rural transportation. On average, over 90% of long distance riders are 
traveling to, from, or between stations other than the endpoints, 
highlighting the importance of long distance service for intercity and 
regional connectivity in many small towns and rural areas.
    We are proud to serve the communities that benefit from our long 
distance service, and we can, and should continuously strive to serve 
them better. Our long distance lines serve certain major metro areas 
such as Cleveland primarily in the dead of night. Many long distance 
trains are also chronically late, often as a result of host railroads' 
failure to give Amtrak trains preference in dispatching decisions. In 
CY 19, only 42% of long distance customers arrived on time. Many long 
distance routes are also served by aging rolling stock that is due for 
replacement. Sustained congressional funding for capital investment 
will help to improve service and reliability along our long distance 
routes. Additionally, Congress can improve the on-time performance of 
long distance trains--and trains throughout the entire Amtrak system--
by supporting strong preference enforcement and granting Amtrak a 
private right of action in federal court against host railroads that 
fail to meet their obligations.
                    The Economic Benefits of Amtrak
    Amtrak's network of intercity passenger rail service supports 
interstate commerce and state and local economies, and it connects 
small town America to the national economy. In key markets such as the 
Northeast Corridor, Amtrak bolsters the productivity of the U.S. 
business sector, supports the long-term economic growth of the region, 
and enhances the global competitiveness of the United States.
    Amtrak is a large employer and supports thousands of direct jobs 
with millions of payroll income that yields additional jobs, spending, 
and state tax revenues. Amtrak employs approximately 16,000 people in 
42 different states and the District of Columbia, generating an annual 
payroll of approximately $1.6 billion annually. Also, nearly six jobs 
are created across the U.S. for every job in the rail transportation 
industry.
    In FY 20, Amtrak spent $1.97 billion--over 98% of its total 
purchases via Purchase Orders--on domestic purchases of goods and 
services from a variety of industries, supporting additional jobs in 
manufacturing, service, transportation, and other industries. Amtrak 
proudly supports ``Buy America'' standards which generally require 51% 
of components come from ``local'' or U.S. suppliers. For example, when 
Amtrak purchased 70 new locomotives to replace parts of its aging 
fleet, the equipment was assembled in Sacramento, California, with 
major components built in Ohio and Georgia. The supplier and production 
chain included more than 60 suppliers, manufacturers, and distributors 
from more than 50 cities and 20 states.
    Individual economic opportunity, business competitiveness, and 
community quality of life are all strengthened by the availability of 
intercity passenger rail service. These benefits support small urban, 
large metropolitan, and rural communities alike. In recent years, rail 
stations themselves have become the focus of community redevelopment 
activity. A potential byproduct of rail investment is the impact on 
land development around the station. By increasing the number of people 
traveling through the corridor, and by potentially drawing from a 
greater distance due to service improvements, the market potential of 
locations around the train stations is expanded.
    We look forward to amplifying these economic benefits through our 
corridor expansion plan, which we anticipate could add 2,800 additional 
Amtrak jobs, extend corridor service to 15 additional states, and serve 
up to 160 additional cities by 2035.
    Amtrak trains serve more than 500 locations across the continental 
United States--more separate locations than are served by all the 
scheduled airlines combined. While Amtrak's largest stations do make up 
a great deal of our traffic volume, our ridership follows the ``long 
tail'' model, and this broad distribution reflects the number of rural 
communities that rely on Amtrak. The same relationship also shows how 
much Amtrak depends on the hundreds of small stations to sustain our 
business. This relationship between Amtrak and rural communities has 
been in place since our founding, and we are committed to building on 
this. Trains have the unique ability to serve numerous intermediate 
markets that, on their own, would never attract airline service but can 
be connected safely and efficiently by a longer regional route. These 
trains unlock the value of these smaller segments--tapping into small 
towns while bringing the larger communities' resources into convenient 
reach of more people. Train service is also more resilient in the face 
of harsh weather, which is especially important for remote communities.
    Rural populations, senior citizens, people with disabilities, and 
people without the means or desire to own their own car have limited 
mobility choices. Trains offer a unique and important form of 
transportation for these people, and ensuring access for communities 
that rely on Amtrak service, while at the same time working to expand 
the reach of our network, remains a key goal for our company.
                    Environmental Benefits of Amtrak
    In addition to contributing to the national economy, intercity 
passenger rail is one of the most sustainable transportation modes 
available. A 2018 United Nations report identified rail transportation 
as one of the primary ways to reduce greenhouse gas (GHG) emissions now 
and continuously into the future, and it is easy to see why. According 
to the latest U.S. Department of Energy data, intercity rail is 47% 
more energy efficient than driving and 33% more energy efficient than 
air travel. Traveling on Amtrak's electrified system in the NEC is 
cleaner still, emitting up to 83% less GHG than driving and up to 73% 
less than flying.
    Amtrak tracks these benefits closely. For example, in FY 19, our 32 
million customers avoided 660 million kg of carbon dioxide equivalent 
(CO2e) by riding Amtrak instead of flying, or 1.4 billion kg of CO2e by 
riding with Amtrak instead of driving (the equivalent, according to the 
Environmental Protection Agency, of taking more than 300,000 cars off 
the road for that year). In addition to being a more energy efficient 
mode of travel than air travel or automobiles, shifting people to 
trains from other modes reduces traffic congestion and delays as well 
as the resulting pollution.
    Amtrak is proud to be a leader in harnessing the power of rail to 
transport people in a manner that will help to combat climate change 
and support global efforts to reduce GHG emissions. Our company sets 
annual targets to reduce GHG emissions, electricity use, and fuel 
consumption. From a 2010 baseline, Amtrak reduced emissions by 20% as 
of FY 19--with a target to achieve a 40% total reduction by 2030. 
Initiatives such as reducing locomotive idling, procuring energy 
efficient equipment, making energy efficient upgrades in Amtrak-owned 
buildings, fuel conservation, and increasing the amount of renewable 
energy in our purchased electricity contracts will help Amtrak achieve 
energy and emissions reduction targets.
    Our new Acela fleet, which we expect to enter revenue service later 
this year, will be 40% more energy efficient than current models due to 
advanced technologies and improved aerodynamics. On board recycling 
will also be available in each car. Other next-generation equipment 
offers similar improvements: Amtrak's new ALC-42 locomotives, intended 
for use on the unelectrified National Network, reduce nitrogen oxide 
emissions by more than 89%, reduce particulate matter emissions by 95%, 
and will provide savings in fuel consumption.
                          What Congress Can Do
    We look forward to continuing to work with you to discuss the many 
steps that can be taken to support a robust passenger rail network in 
the United States. In particular, there has been recent discussion by 
this subcommittee on the potential infusion of additional federal 
funding for rail as part of an infrastructure bill, as well as new 
federal policy and programs that could be considered as part of a 
multiyear surface transportation reauthorization. Our reauthorization 
proposal, which will be discussed in greater detail in our annual 
request to Congress, calls for:
    <bullet>  Intercity Passenger Rail Trust Fund: Amtrak and intercity 
passenger rail are the only major mode of surface transportation 
without a federal trust fund to provide reliable, multiyear program 
funding. Reliance solely on the annual appropriations process for 
funding inhibits our ability to pursue large, multi-year capital 
projects or procurements (e.g. fleet replacement) and service expansion 
across the nation. If Amtrak is to significantly improve and expand our 
network, Congress must create a predictable and long-term source of 
federal funding, like a trust fund, for both the Northeast Corridor and 
the National Network.
    <bullet>  Access to Railroads for New Service and Adding Trains: 
Most rail routes used by Amtrak trains are owned and controlled by 
freight railroads. Prompt access to the nation's rail network is 
essential for Amtrak to fulfill its mission and meet the needs of the 
traveling public. Amtrak always attempts to work cooperatively with our 
host railroads to add new routes, modify existing routes, and add 
additional trains. More often than not, these efforts fail to provide 
reasonable access for Amtrak trains, leaving your constituents without 
the services they desire and deserve. We are seeking Congressional 
support and updates to statute to ensure the Amtrak network can grow 
and serve more of your constituents.
    <bullet>  Preference Enforcement: Our host railroads are required 
by law to provide Amtrak trains dispatching preference over their own 
freight trains. Unfortunately, this requirement is not consistently 
honored and ``freight train interference'' is the largest source of 
delay to Amtrak trains on host railroads, inconveniencing passengers in 
violation of the law. Amtrak seeks the right to bring an action in U.S. 
District Court when our preference right is violated so we can ensure 
our customers are not unnecessarily delayed by freight trains and 
arrive on-time.
    <bullet>  New Routes: Frequent and reliable ``corridor'' routes, 
typically less than 500 miles, represent the fastest-growing segment of 
Amtrak service. Population growth, changing demographics and travel 
preferences, and environmental concerns all point to new opportunities 
for intercity passenger rail, and we have developed a visionary plan to 
expand service across the nation. We ask Congress to authorize and fund 
Amtrak's expansion in such corridors by allowing us to cover most of 
the initial capital and operating costs of new or expanded routes prior 
to requiring state partner cost-sharing under Sec. 209 of the Passenger 
Rail Investment and Improvement Act.
    <bullet>  Carbon-Free Operations and Renewable Energy Use: While 
Amtrak is already one of the greenest travel options available, we can 
and should become even more sustainable. Congress should direct Amtrak 
to develop clear plans for achieving its goal of net-zero carbon 
emissions--both on the Northeast Corridor and across our entire 
national train service. Congress should also leverage Amtrak's 
electricity needs and infrastructure to promote carbon-free and 
renewable energy more generally, both by allowing us to transmit 
electric power on behalf of / for sale to other entities and by 
directing us to meet more of our own electricity needs from carbon-free 
and renewable sources (with the ultimate goal of requiring 100% carbon-
free or renewable energy in all new or renewed contracts by 2030).
    <bullet>  All Electric NEC: In general, electric trains are 
quieter, cleaner, and more efficient than their diesel-powered 
counterparts; they produce significantly less pollution, with 
corresponding benefits to air quality, public health, and the climate. 
Despite the benefits of electric trains, the NEC spine remains one of 
the only fully electrified corridors in the United States--and even 
there, not all trains are electric. Other railroads make extensive use 
of the NEC, as well; on a typical day, most of the roughly 2,200 
passenger trains that travel on the Corridor are operated by commuter 
railroads. Many of these trains are diesel-powered. Congress should 
require that all regularly-scheduled intercity and commuter passenger 
rail service on the NEC spine use electric or other technologically 
advanced propulsion equipment beginning by the start of CY 2035 with 
reasonable exceptions for freight railroads, for connecting commuter 
routes that operate only along short segments of the NEC, and in the 
case of emergencies and unexpected disruptions.

    We are confident that these proposals will help to maximize the 
impact of intercity passenger rail, and the numerous benefits 
associated with intercity passenger rail service, throughout the 
country.
                               Conclusion
    Intercity passenger rail service remains a vital tool for fostering 
economic growth and connecting communities in a manner that is 
environmentally sustainable. With Congress's support, we can do even 
more to expand our impact and amplify the benefits of passenger rail 
for the environment and the economy.
    I appreciate the opportunity to provide this statement for the 
subcommittee's consideration, and I look forward to Amtrak continuing 
to play an important role in our nation's economic and environmental 
progress.
                                appendix
A. Greenhouse Gas Emissions from Passenger Transport
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


B. Intercity Passenger Rail Represents an Energy Efficient and Low-
        Emission Travel Alternative
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
       Source: Transportation Energy Data Book, Edition 37, 2019

                                 <F-dash>
   Report entitled ``Freight Railroads and Climate Change,'' by the 
Association of American Railroads, March 2021, Submitted for the Record 
                        by Hon. Peter A. DeFazio
                  Freight Railroads and Climate Change

_______________________________________________________________________

Our planet and nation face challenges that demand communities, 
businesses, and policymakers come together and create solutions that 
will fuel economic recovery and combat climate change. With nearly 200 
years of experience moving America through times of both prosperity and 
trouble, freight railroads have always looked to the future, adapted, 
and risen to the challenge.

_______________________________________________________________________

March 2021

Association of American Railroads
                                Summary
    As policymakers attempt to balance economic recovery from the 
coronavirus pandemic with meaningful progress toward combating climate 
change, the nation's railroads want to be--and must be--a part of the 
solution.
    The Association of American Railroads (AAR) and the rail industry 
recognize that the climate is changing. If action is not taken, climate 
change will have significant repercussions for the planet, our 
economies, our society, and even day-to-day railroad operations.
    The Congressional Budget Office recently projected that the effects 
of climate change will reduce real GDP growth rate by 0.03% annually 
from 2020-2050, and, as a result, this diminished annual GDP growth 
rate will reduce real U.S. GDP by 1.0% in 2050. AAR urges U.S. 
policymakers to adopt effective, coordinated, and market-based 
strategies to significantly reduce greenhouse gas (GHG) emissions and 
combat climate change.
    Today, railroads account for roughly 40% of U.S. long-distance 
freight volume (measured by ton-miles)--more than any other mode of 
transportation.\1\ Through smart, targeted investments, the freight 
rail industry has worked to increase fuel efficiency, drive down GHG 
emissions, and make rail operations even more sustainable. However, the 
industry recognizes there is much more work to be done and the right 
policies are essential for charting a path forward.
---------------------------------------------------------------------------
    \1\ Federal Highway Administration, Freight Analysis Framework, 
Version 4.5.1.
---------------------------------------------------------------------------
    To be effective, policy strategies aimed at fighting climate change 
must encourage innovative solutions, leverage market-based competition, 
and allow for varied approaches that drive down emissions. Most 
importantly, these strategies must be grounded in data and established 
through a cooperative, multi-faceted approach involving all 
stakeholders.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        Leading by Example: How Railroads Help Reduce Emissions
    Railroads are developing and implementing new technologies, 
refining operating practices, and working with their suppliers, 
customers, and supply chain partners to create a more sustainable 
future. For example, railroads have greatly improved their fuel 
efficiency. On a gross ton-miles per gallon basis (gross tons include 
the weight of rail cars as well as the weight of the freight in them), 
rail fuel efficiency in 2019 was up 82% since 1980 and up 17% since 
2000.
    U.S. freight railroads move more freight with much less fuel than 
before thanks to technological innovations, improved operating 
practices and a lot of hard work. In 2019 alone, U.S. freight railroads 
consumed some 656 million fewer gallons of fuel and emitted 7.3 million 
fewer tons of CO2 than they would have if their fuel efficiency had 
remained level compared to 2000. From 2000 through 2019, U.S. freight 
railroads consumed 9.6 billion fewer gallons of diesel fuel and emitted 
108 million fewer tons of CO2 thanks to industry-wide fuel efficiency 
efforts. In 2019, railroad CO2 emissions from diesel fuel consumption 
were 18% lower than their peak in 2006.
    These efforts continue. Many of AAR's members voluntarily report 
GHG emissions from their operations to the Climate Disclosure Project 
(CDP), an international non-profit organization that helps companies 
disclose their environmental impact. Several Class I railroads have 
also committed to voluntary reductions in GHG emissions intensity.
    For example, all seven Class I railroads are participating in the 
Science Based Targets Initiative (SBTi), an international collaboration 
focused on limiting global warming to less than two degrees Celsius. 
Norfolk Southern has created the ``Trees to Trains'' program--a carbon-
mitigation strategy that reforests thousands of acres in 
environmentally critical areas to offset the company's carbon 
footprint. BNSF is testing the first battery electric locomotive in the 
United States and Canadian Pacific is participating in a pilot project 
to test hydrogen fuel cell locomotives. And AAR and its members have 
formed a dedicated working group to understand new lower-or-zero-carbon 
fuel technologies and other climate-related issues.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         More Rail Means a Sustainable & More Prosperous Future
    The potential reduction in transportation-related GHG emissions 
associated with moving more freight by rail is substantial. If 10% of 
the freight shipped by the largest trucks were moved by rail instead, 
greenhouse gas emissions would fall by more than 17 million tons 
annually. That's the equivalent of removing 3.35 million cars from our 
highways or planting 260 million trees. Policymakers can help make this 
happen by removing impediments to transporting freight by rail, 
promoting policies that enable the rail industry to move more goods, 
more efficiently, and promoting modal equity in the incorporation of 
new and emerging technologies. Here are three approaches to consider:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


_______________________________________________________________________

   encourage competition & harness market-based solutions to reduce 
                               emissions
Policies that demand change through market solutions--rather than 
prescriptive regulations--hold the greatest promise for lasting change 
and meaningful emissions reductions. Through well-designed policies, 
market behavior can--and will--shift toward lower-emission fuels and 
modes of transportation. Several examples of these policies within the 
transportation space are provided below.

_______________________________________________________________________

Institute market solutions to reduce emissions
    Programs that establish market incentives to reduce emissions from 
the freight transportation sector specifically should strive to achieve 
two key policy goals: encouraging businesses to ship their products 
using modes with lower GHG emissions--such as rail--and incentivizing 
transportation providers to find the most cost-efficient ways to 
further reduce or eliminate emissions associated with their operations.
    Any broad climate change policies should provide long-term 
regulatory certainty and be crafted to permit capital-intensive 
industries to make investment and planning decisions in an economically 
rational manner while also maintaining their competitiveness. This 
approach will allow markets, not mandates, to drive the reduction in 
GHG emissions. An appropriate, predictable policy can enhance the 
nation's competitiveness, grow the economy, and create jobs.
Return the Highway Trust Fund to a user-pays system
    The pending insolvency of the Highway Trust Fund (HTF) should be a 
matter of significant concern within the larger transportation sector 
and beyond. Policymakers can address both the solvency of the HTF and 
climate change through a short-term, temporary fuel tax increase. In 
the longer term, policymakers should implement a vehicle miles traveled 
(VMT) fee that takes into account vehicle weight or axle count along 
with an emissions surcharge (see below for a more detailed discussion).
    The United States has historically relied upon a user-pays system 
to fund investments in public road and bridge infrastructure. 
Unfortunately, revenues into the HTF have failed to keep pace with 
investment needs, requiring general fund transfers to cover the 
shortfall.
    According to the Congressional Budget Office, general fund 
transfers into the HTF have totaled almost $157 billion since 2008, 
including the $13 billion provided by the continuing resolution signed 
on October 20, 2020. An additional $203 billion could be required to 
cover expected deficits through 2030.\2\ With the one-year extension of 
the FAST Act, the issue of HTF solvency will come to a head in 
September 2021.
---------------------------------------------------------------------------
    \2\ Congressional Budget Office, The Outlook for Major Federal 
Trust Funds: 2020 to 2030, September 2020, page 3.
---------------------------------------------------------------------------
    Funding the HTF through a VMT fee instead of the existing gas and 
diesel taxes could also resolve impending insolvency and restore a 
user-pays model. Additionally, a VMT fee offers the opportunity to 
create a more equitable system of funding public road and bridge 
infrastructure by ensuring that all passenger and commercial vehicles 
pay for their use. Because the technologies to implement a VMT fee are 
still under development, a modest, short-term increase in the gas tax 
and the diesel tax over the next several years would still be required 
to shore up the HTF.\3\ However, while fuel taxes incentivize the 
purchase of more fuel-efficient vehicles, they are not the long-term 
solution for HTF solvency.
---------------------------------------------------------------------------
    \3\ While technologies may not yet be available for implementation 
of a VMT fee for personal vehicles, previous Congresses have considered 
proposals to implement a VMT fee for commercial motor vehicles 
utilizing existing electronic logging devices to measure miles 
travelled.
---------------------------------------------------------------------------
Impose an emissions surcharge and provide dedicated funding for 
        passenger rail
    Imposing a graduated emissions surcharge based on the fuel 
efficiency of vehicles (utilizing Environmental Protection Agency miles 
per gallon ratings), in addition to a VMT fee, as discussed above, 
could encourage the transition to more environmentally-friendly 
passenger and commercial vehicles. Doing so would also raise additional 
revenues for the HTF.
    From a modal-shift perspective, a reliable passenger rail network 
is the most environmentally-friendly mode to move people over land \4\ 
and is essential to helping address transportation-related emissions. 
Intercity passenger rail is the only mode of passenger transportation 
in the United States that does not receive any dedicated federal 
funding through a trust fund, leaving Amtrak completely dependent upon 
annual discretionary appropriations. This fiscal uncertainty makes it 
difficult for Amtrak to plan its operations and capital needs for the 
long term. Given the benefit of reduced congestion on our nation's 
highways, a Passenger Rail Account similar to the Mass Transit Account 
of the HTF could be created, and Amtrak's operating and capital costs 
could be funded with a portion of the additional revenues from the 
emissions surcharge. This Passenger Rail Account could be dedicated to 
Amtrak's Northeast Corridor and National Network Accounts. However, 
states could also be eligible to receive funding for their state-
supported routes.
---------------------------------------------------------------------------
    \4\ https://www.uic.org/com/IMG/pdf/iea-uic_2012final-lr.pdf.

---------------------------------------------------------------------------
_______________________________________________________________________

          drive research & adoption of promising technologies
Significant investments in national and sector-specific research are 
essential to unlocking energy solutions capable of powering our economy 
and reducing GHG emissions. Just as important as discovering new lower-
or-zero-carbon fuels and technologies is ensuring American businesses 
can test and adopt these innovations. Below are a few policy proposals 
that will boost and further innovation.

_______________________________________________________________________

Embrace partnership opportunities for research funding
    Despite impressive improvements in fuel efficiency, railroads 
continue to search for ways to further reduce their GHG emissions 
footprints. Technological advancements will play a major role in future 
gains, and AAR supports increased federal funding for research into a 
variety of technologies on the cusp of economic viability.
    For decades, diesel fuel has been the only realistic option to 
power freight rail locomotives. However, BNSF and Wabtec are working 
with the California Air Resources Board to test a prototype long-haul 
battery electric locomotive. Additionally, Canadian Pacific plans to 
develop what would be North America's first line-haul hydrogen-powered 
locomotives and conduct rail service trials and qualification testing 
to evaluate the technology's readiness for freight rail operations. 
Finally, Progress Rail and the Pacific Harbor Line are planning a 
demonstration project of a new EMD Joule battery electric locomotive in 
the Ports of Los Angeles and Long Beach. These projects have the 
potential to further reduce GHG emissions.
    Partnerships between the federal government and railroads to 
further research and develop technologies that fuel locomotives with 
alternatives to traditional diesel fuel are also essential to advancing 
innovation. Additional funding should be provided for the development 
of battery and fuel cell technologies, such as the ongoing efforts at 
the Joint Center for Energy Storage Research (JCESR), a Department of 
Energy (DOE) Energy Innovation Hub focused on technologies to enable 
next-generation batteries.
    Another potential fuel source is ``blue hydrogen,'' which is 
hydrogen made from natural gas in a way that captures, stores, or 
reuses associated carbon emissions. Similarly, biofuels are traditional 
fuel alternatives including ethanol, biodiesel (diesel made from 
nonpetroleum renewable sources such as natural fats and vegetable 
oils), and renewable hydrocarbon biofuels or green drop-in fuels 
(renewable hydrocarbon fuels derived from biomass sources that are 
comparable and compatible to existing petroleum-based fuels). Although 
biofuels and renewable diesel are widely available as fuel blend stock, 
there are limited ASTM standards for these fuels, and equipment 
manufacturers have been leery of approving their use in locomotives. 
Additional funding for research on these lower-or-zero-carbon fuels and 
technologies will speed their adoption and continue to inform the 
development of standards for such fuels. Finally, funding should 
continue to be provided for grants under the Diesel Emissions Reduction 
Act (DERA) program.
Support policies to further develop carbon capture, utilization, and 
        storage technology
    Policymakers should continue to invest in the development and 
scaling of technologies that would both reduce emissions and keep the 
economy moving. Carbon capture, utilization, and storage (CCUS) 
technology is one of these solutions.
    CCUS technology would allow industries to capture up to 90% of 
emissions and prevent their release into the atmosphere. Since 2008, 
Congress has provided a tax credit (Internal Revenue Code Section 45Q) 
on a per-ton basis for CO2 that is captured and either sequestered or 
utilized. As a result, many programs, including pilot and demonstration 
projects, have been proposed to spur industries and create new markets 
for CCUS technology. AAR supports efforts to further mature this 
technology and expand the commercial use of CCUS technology through 
market development programs and tax incentives. Encouraging storage and 
broader industrial utilization of captured carbon creates new economic 
opportunities, and railroads believe this technology can be an 
important part of a broad effort to address the impacts of climate 
change.
    Since railroads provide the most fuel-efficient way to move freight 
over land, railroads believe they can play an integral part in the 
broader utilization of CCUS, as transportation remains one of the 
bigger challenges of scaling up CCUS technology. In most cases, 
captured carbon dioxide must be transported from the point of capture 
to a permanent storage site. Current limited capacity for these 
movements has been a significant challenge to further scaling up CCUS 
technology. Today, trucks, ships, and pipelines transport the carbon 
that has been captured from the gases produced in electricity 
generation and industrial processes as part of a CCUS chain using the 
same technologies as those used to transport natural gas, oil, and 
other fluids. The rail industry has decades of experience safely 
transporting carbon dioxide. Moreover, construction of new pipelines in 
the United States can be a lengthy process that is expensive and 
subject to intense community and legal opposition.
    Railroads are a nimbler transportation solution that can increase 
traffic as needed, while also meeting demand from varied origins and 
destinations. As plans for new CCUS facilities are developed, the 
carbon captured at these facilities could be transported via rail. This 
would minimize additional GHG emissions, avoid unnecessary highway 
congestion, and take advantage of the world-class private rail network 
already in existence. It is likely the facilities where carbon would be 
captured--and the destination where it would be stored or utilized--
already have rail service.
Help railroads test and deploy green technologies by streamlining 
        waiver acquisition
    Railroads have shown their commitment to developing, testing, and 
deploying new technologies that reduce the environmental impact of 
their operations. Policymakers should offer industries--including 
freight rail--operational and regulatory flexibility to encourage 
further innovation. This would allow railroads to experiment with new 
technologies and processes that could help meet environmental goals, 
including decarbonization and lower emissions. This needed flexibility 
could cover everything from technologies and procedures to increase 
fuel efficiency to new technologies that require extensive testing and 
research. Flexibility and streamlining are necessary to empower the 
rail industry to explore these options without risking regulatory 
enforcement. For example, policymakers should consider streamlining 
waiver review timelines, encouraging pilot programs, and establishing 
performance-based thresholds.
_______________________________________________________________________

       partner with industry to advance sector-specific progress
Each American industry--including freight railroads--has its own unique 
set of advantages and challenges to reducing its impacts on the 
environment. For long-term, sustainable gains, these stakeholders are 
essential partners in identifying and prioritizing proposals that will 
empower real change in their own operations. Freight railroads stand 
ready to be partners in this effort and need policymakers to understand 
what is already working, as well as what is untenable for the nation's 
140,000-mile rail network.

_______________________________________________________________________

Ensure railroads can invest in maintaining and greening their 
        infrastructure
    An efficient and sustainable rail industry depends upon railroads' 
private investments, which the Staggers Rail Act of 1980 helped make 
possible by creating a balanced regulatory system. Partial deregulation 
allowed railroads to improve their financial performance from anemic 
levels prior to Staggers to much healthier levels today. That, in turn, 
has allowed railroads to pour nearly $740 billion--of their own funds, 
not taxpayer funds--back into their networks since 1980. These 
investments have greatly improved the productivity and sustainability 
of their operations. Policy decisions that upset the productivity and 
efficiency gains of the railroads or shift freight to other modes of 
transportation can impact the environment. Policymakers must maintain 
the existing regulatory balance to ensure railroads can meet customers' 
needs in a safe, reliable and sustainable manner.
Invest in what works
    As policymakers examine potential solutions, they should invite 
stakeholders to the table to provide needed insight and prevent the 
wasting of resources. While AAR encourages federal investment in the 
development of technologies that reduce GHG emissions, policymakers 
should avoid prescriptive means for reducing emissions by certain 
industries and allow innovation to guide GHG emissions reduction 
decisions. For example, studies over the years have consistently shown 
that the catenary electrification of the freight rail network would be 
unworkable. Initiatives, such as catenary electrification, that are 
clearly not viable should be set aside to focus on and invest in 
policies and programs that will work to reduce GHG emissions and combat 
climate change, such as those noted above.

                                 <F-dash>
  Statement of Nicole Brewin, Senior Vice President of Government and 
 Public Affairs, Railway Supply Institute, Submitted for the Record by 
                         Hon. Peter A. DeFazio
    Chairman Payne, Ranking Member Crawford, and Members of the 
Subcommittee:
    Thank you for convening this hearing to examine the importance of 
rail to the economic success and environmental sustainability of the 
United States. With over 140,000 miles of passenger and freight rail 
across the country, the rail industry serves as a backbone of the U.S. 
economy, offering an efficient, affordable, and environmentally 
friendly means of transporting goods and people.
    As way of background, the Railway Supply Institute (RSI) is an 
international trade association representing more than 175 companies 
involved in the manufacture of goods and services in the locomotive, 
freight car, maintenance of way, communications and signaling, and 
passenger rail industries. RSI members provide critical products to 
Class I and short line freight railroads, shippers, Amtrak, and transit 
authorities nationwide and work with these customers to create new 
products or services that drive enhancements in safety and efficiency 
across their networks.
    These systems are supported by an extensive, domestic railway 
supply industry that has been a dynamic and vital part of the U.S. 
economy for over 200 years, encompassing 125,000 jobs across all 50 
states and paying an average wage 40 percent higher than the national 
average.\1\ This industry also contributes billions of dollars to the 
national economy every year, producing $10.7 billion in federal taxes 
and over $6 billion in state and local taxes every year.\2\ Without 
this robust domestic rail supply industry, our nation's passenger and 
freight railroads simply could not meet their customers' needs.
---------------------------------------------------------------------------
    \1\ Tracking the Power of Rail Supply, The Economic Impact of 
Railway Suppliers in the U.S. https://www.rsiweb.org/Files/EIS%202018/
RSI-Infographic%20FINAL.pdf
    \2\ Id.
---------------------------------------------------------------------------
    As Congress looks to examine areas where you can strengthen 
American rail infrastructure and support American jobs, we welcome the 
opportunity to highlight several issues facing the railway supply 
industry and encourage Congress to keep this industry in mind as it 
considers any form of surface transportation reauthorization or large 
infrastructure package.
 Sustainable Federal Investments to Support Passenger and Freight Rail
    RSI strongly supports an infrastructure package that helps to 
improve the safety, reliability, and productivity of the nation's 
transportation system. The federal government should reauthorize a 
long-term surface transportation authorization act, with funding from 
predictable, dedicated, and sustainable sources for the Highway Trust 
Fund (including the Mass Transit Account). This legislation should 
include increased capital investments in our intercity and commuter 
passenger rail system and with investments designed to improve the 
efficient movement of freight through public-private partnerships. 
Continuation of policies helping to sustain significant private sector 
investment in our nation's privately-owned freight rail systems is also 
vital.
       Modal Equity is Key to Economic and Environmental Progress
    The current federal gas tax of 18.4 cents per gallon and 24.4 cents 
for diesel fuel has not been increased for more than 25 years and is no 
longer enough to fund the nation's infrastructure needs. As a result, 
Congress has been forced to use $143 billion of general taxpayer funds 
to supplement Highway Trust Fund revenues since 2008, and trucks are 
estimated to be paying only 80% of the damage they inflict on our 
nation's roads and bridges. We encourage Congress to restore modal 
equity with full eligibility for rail and public transportation 
investments in recognition of the substantial non-user fee contribution 
to the Highway Trust Fund over the past decade, and overall increase 
the federal commitment to and investment in infrastructure.
    Moreover, any efforts to increase truck sizes and weight on our 
nation's interstates would also have negative economic, environmental, 
and safety impacts. Increasing either the allowable weight or lengths 
of trucks would divert freight traffic from the railroads to the 
nation's highways while reducing railroad resources available to invest 
in maintenance and capacity. Any such destabilizing changes negatively 
affect freight rail service as well as intercity passenger rail and 
commuter rail services depending on freight rail infrastructure. 
Shifting freight from rail to highway would increase congestion, 
transportation-related fatalities and injuries, fuel consumption, 
harmful emissions, and highway maintenance costs, and worsen pavement 
conditions.
 Strengthening Buy America will Ensure Federal Investments Stay in the 
                             United States
    The Buy America program was created to promote U.S. manufacturing 
and help the domestic economy by creating jobs for Americans and 
maximizing the use of American-made materials. By design, Buy America 
laws were written to ensure that taxpayer dollars made available for 
constructing and sustaining our public transportation systems would 
flow back into the U.S. economy and discourage the outsourcing of these 
manufacturing jobs to other countries. Reforms and improvements to Buy 
America are needed to ensure that these goals are realized.
    Specifically, RSI believes that the U.S. Department of 
Transportation currently lacks adequate resources to ensure strict 
compliance with Buy America provisions. Congress should direct USDOT to 
exercise stricter oversight of Buy America to help keep grant funding 
in the United States and spur the domestic jobs critical to maintaining 
a strong American manufacturing base. Allowing the Federal Transit 
Administration (FTA) to conduct audits in-house would also help ensure 
better consistency and efficacy of this important program.
    In addition, RSI also supports modifying Buy America laws to ensure 
that if a transit agency accepts any source of federal funding, then 
all of that agency's capital expenditures should be required to adhere 
to Buy America.
Green Tax Credits Would Incentivize Private Investments to Sustain and 
                 Promote Freight Railcar Manufacturing
    Legislation is needed to incentivize private investments to sustain 
the tens of thousands of American jobs tied to the freight railcar 
industry as we recover from the economic effects of COVID-19. The 
Freight RAILCAR Act (H.R. 8082) is a bipartisan bill that would offer 
time-limited tax credits to incentivize freight railcar owners to 
replace older, less efficient vehicles with more modern and 
environmentally friendly railcars. This legislation would help stem the 
significant job losses the railway supply chain has experienced in 
recent months and preserve critical supply chains that our freight and 
passenger railroad and shipper customers depend on.
    Based on a 2017 Oxford Economics study, the rail supply community 
delivered nearly $75 billion a year in economic value and directly 
employed 125,000 Americans across the country.\3\ We now estimate that 
those numbers have declined substantially since that period, with the 
vast majority of those declines happening over the past eight months. 
According to an internal survey of RSI's members, half of all 
respondents reported seeing permanent layoffs at their company as a 
result of the pandemic. Several of the largest freight railcar builders 
and their component suppliers have also reported layoff rates nearing 
or exceeding 50 percent, with an expectation that more will come if 
action is not taken by Congress to help this industry.
---------------------------------------------------------------------------
    \3\ Ibid.
---------------------------------------------------------------------------
    Data compiled by RSI on rail freight car orders and deliveries over 
the past 15 years has shown freight railcar orders falling dramatically 
in the past several quarters. In Q2 2020, new railcar orders fell to 
match the low point of the Great Recession (Figure A),\4\ where 
industry unemployment reached 18.5 percent.\5\ While orders have 
rebounded slightly in the time since, they remain far below pre-
pandemic levels, putting rail industry demand for new railcars at a 
level that is unsustainable for many suppliers looking to keep their 
doors open. If action is not taken, we could see long-term impacts that 
devastate the railway supply chain for years to come if this trend does 
not improve substantially moving forward.
---------------------------------------------------------------------------
    \4\ Railway Supply Institute, American Railway Car Institute 
Committee Quarterly Statistics 2005-2020.
    \5\ U.S. Bureau of Labor Statistics, Transportation Equipment 
Manufacturing, July 2009
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Source: American Railway Car Institute Committee, Railway Supply 
                               Institute

  Ensuring a Level Playing Field with Foreign State-Owned Enterprises
    Over the past decade, our industry has witnessed substantial 
intervention in the global rail marketplace from non-market economy 
foreign governments. Most notably, the People's Republic of China--
working through state-owned enterprises (SOEs) like CRRC--has 
identified rail manufacturing as a strategic market sector and made 
clear their intention to ``conquer'' the global rolling stock 
market.\6\ Backed by the full resources of the Chinese government, CRRC 
and its affiliates have leveraged direct subsidies, state-backed 
financing, and below-market loans to secure more than $2.6 billion in 
railcar contracts at far below market rates for transit agencies in 
Boston, Chicago, Los Angeles and Philadelphia. These manipulative 
incursions into the U.S. market present both national and economic 
security risks. There is ample evidence illustrating the Chinese 
government's willingness to use industrial espionage, hacking, 
intellectual property theft, and more to achieve its global objectives, 
giving us every reason to be concerned about their involvement with 
critical rail infrastructure and the technology that supports it.
---------------------------------------------------------------------------
    \6\ @CRRC_global, ``Following CRRC's entry to Jamaica, our products 
are now offered to 104 countries and regions. So far, 83% of all rail 
products in the world are operated by #CRRC or are CRRC ones. How long 
will it take for us conquering the remaining 17%?'' Twitter, January 
11, 2018.
---------------------------------------------------------------------------
    For those reasons, Congress passed the Transit Infrastructure 
Vehicle Security Act (TIVSA) in 2019 to ensure that federal taxpayer 
funds are never used to subsidize China's SOE rail firms. 
Unfortunately, non-binding guidance on the law from the U.S. Department 
of Transportation leaves open major loopholes that grant certain 
blanket exemptions to the law, which allow some federal funds to 
continue to flow to CRRC--and by extension, the Chinese Government. To 
close these loopholes, Congress must submit clarifying language 
regarding 49 U.S.C. Sec.  5323(u)(5)(A) to eliminate exemptions that 
allow certain transit agencies to continue awarding contracts to 
Chinese state-owned entities.
                               Conclusion
    RSI members will continue investing and doing all we can to support 
our railroad and shipper customers in serving the mobility and economic 
development needs of communities across the country. We appreciate the 
opportunity to provide these recommendations on critical issues 
affecting our industry and will continue working with Members of 
Congress to formulate policies that enhance rail safety, security, and 
efficiency.

                                 <F-dash>
Statement of Arun Rao, Chair, States for Passenger Rail Coalition, Inc. 
  and Passenger Rail Manager, Wisconsin Department of Transportation, 
 Railroads and Harbors Section, Submitted for the Record by Hon. Peter 
                               A. DeFazio
    The States for Passenger Rail Coalition (SPRC) is an alliance of 23 
State and Regional Transportation Officials and Passenger Rail 
Authorities across the United States. SPRC's mission is to promote the 
development, implementation, and expansion of Intercity Passenger Rail 
as part of an integrated national transportation network.
    SPRC appreciates this opportunity to provide comments as the House 
Transportation and Infrastructure Committee's Railroads, Pipelines, and 
Hazardous Materials Subcommittee examines the role of rail, and 
specifically, intercity passenger rail, in support of our Nation's 
economic and environmental recovery and progress. Intercity passenger 
rail serves the vital role of providing affordable mobility across the 
social and economic spectrum encompassing America's rural and urban 
landscape. Additionally, passenger rail travel helps reduce energy 
consumption and pollution, including lowering greenhouse gas emissions.
    SPRC members sponsor a combined 29 intercity passenger rail routes 
serving 296 communities across America. In the year leading up to the 
pandemic, State-Supported trains carried over 15 million passengers, 
representing over 47% of Amtrak's total ridership, the largest source 
of ridership among the three Amtrak business lines. They also 
contributed nearly $750 million to Amtrak through a combination of $521 
million in passenger revenue plus $225 million in contract payments. 
SPRC States are also intimately involved with intercity passenger rail 
services along Amtrak's long-distance routes and the Northeast 
Corridor. We are poised to return to these pre-pandemic levels as the 
Nation's health and economy improve, and the traveling public returns 
to take advantage of the economic, health, safety, and environmentally 
beneficial aspects of traveling by passenger rail.
               Economic Revitalization and Passenger Rail
    The availability of easily accessible, safe, frequent, and reliable 
passenger rail has long been integral to America's development and 
supporting commerce. In our Nation's history, our cities and towns have 
grown and prospered due to the ability to move people efficiently. 
Intercity passenger rail has been an integral part of that growth. Many 
State-Supported routes and the NEC are essential to the business 
community in their regions and companies' operations that provide 
thousands of jobs. It is often the business community that is calling 
for increased frequencies or expanded routes. We also have seen across 
the country train stations with significant passenger activity spurring 
development nearby and influencing corporate locational decisions. 
Intercity passenger rail also plays a vital role in supporting 
businesses and workers transitioning to teleworking part-time in a 
post-pandemic economy. It enables workers, for example, to live in one 
city, telework from their homes part-time, and travel to their place of 
work in another city part-time. In such cases, passenger rail plays a 
pivotal role in avoiding congestion, tolls, parking, and driving time, 
and in enabling productive work while in route.
    Furthermore, intercity passenger rail is just as essential to the 
citizens in rural and small urban communities served by the existing 
Amtrak long-distance routes as it is to our metropolitan centers. 
Intercity passenger rail enables these smaller communities to attract 
and retain businesses, jobs, and talent by connecting them with their 
regions' economic epicenters. Small businesses in many Amtrak-served 
rural communities rely on the business that an Amtrak station brings in 
and are eager to see service increased. Just as important is the 
tourism business facilitated by intercity passenger rail services.
    As our Nation continues its economic recovery from the devastating 
effects of the COVID-19 pandemic, the passenger rail industry is 
prepared to aid in economic growth, for it is a powerful generator of 
jobs. More than 750 companies located in at least 39 states manufacture 
components for passenger and commuter rail. Over 200 of these companies 
in 32 states manufacture passenger rail cars, locomotives, or 
significant parts and their systems. Many of these manufacturers and 
suppliers have collaborated with the Next Generation Equipment 
Committee (NGEC), established by Congress in Section 305 of PRIIA. This 
collaboration has led to the development of standardized passenger rail 
equipment specifications that have lowered costs, revitalized domestic 
production, and invigorated the supply chain while creating high-wage 
jobs.
    Additionally, the rail manufacturing supply chain and companies 
providing rail industry repair, maintenance, and re-manufacturing 
services are located in virtually every state and often in communities 
far from the rail systems themselves. Continued investment in intercity 
passenger rail is one of the critical forces in regional economic 
growth. The SPRC Member States and Regional Passenger Rail Authorities 
stand ready to serve as active partners with the business community in 
expanding our local and regional economies.
                Environmental Benefits of Passenger Rail
    Not only does passenger rail service support economic development 
it also helps reduce roadway congestion and lessens the toll on our 
environment. It is well documented that intercity passenger rail 
consumes significantly less energy per passenger mile and produces 
fewer greenhouse gas emissions and other pollutants than airplanes or 
motor vehicles. A single regional intercity passenger rail route with 
multiple daily roundtrips can divert tens of millions of pounds of CO2 
emissions annually in that region and save millions of gallons of fuel. 
Passenger rail will play an increasingly important role in meeting the 
demand for transporting people, goods, and services while reducing 
environmental impacts and improving the overall quality of life.
    One significant societal benefit from intercity passenger rail 
investment is the enhancement of air quality through the development 
and utilization of alternative fuels. One such alternative fuel is 
biodiesel. Biodiesel is a renewable, biodegradable fuel manufactured 
domestically from vegetable oils, animal fats, or recycled restaurant 
grease. SPRC Member organizations continue to study operating passenger 
locomotives on biodiesel fuel to demonstrate that they can work with no 
performance loss while improving air quality.
    Thank you for this opportunity to weigh in on this crucial topic. 
We stand ready to respond to any questions you may have or elaborate on 
our testimony, especially as you continue drafting our Nation's next 
long-term surface transportation authorization legislation.

                                 <F-dash>
  White paper entitled, ``American High-Speed Rail and Rebuilding the 
 U.S. Economy,'' by the Office of Hon. Seth Moulton, Submitted for the 
                         Record by Mr. Moulton
                                                        May 8, 2020
                     A Vision Worthy of the Moment
    Emerging from the global devastation of World War II, America built 
an economy that quickly became the envy of the world. It was built upon 
a foundation of new infrastructure, funded by Congress and the American 
taxpayer, that dramatically expanded jobs, transportation options, and 
access to markets for people and businesses across the country. America 
didn't just rebuild 19th-century infrastructure; our nation built 20th-
century systems to meet the demands and opportunities of a new economy.
    Today our infrastructure, much of it dating to those postwar years, 
is failing. And like that time, simply rebuilding the infrastructure of 
the last century will be insufficient to meet either the demands or the 
opportunities of an economy that is changing faster than ever before. 
As automation and artificial intelligence come to support every aspect 
of our lives; as a global pandemic sharpens our focus on ensuring 
domestic manufacturing capacity; and as a new generation of Americans 
demand next-generation transportation options, we cannot rely on the 
technologies of the past. In the 1950s, we didn't just add lanes to our 
state highways or make dirt runways longer; we built interstates and 
international airports. Today, relying solely on highways while the 
rest of the world speeds past us in high-speed trains would be akin to 
investing billions in laying more copper telephone lines while the rest 
of the world installs fiber optics.
    Our global competitors recognize this: $46 billion is expected to 
be invested annually in high-speed rail and transit in China from 2020-
2030, about 27% of their transportation budget. Even Morocco, with 
roughly half a percent of our GDP, invested $2.2 billion in Casablanca-
Tangier high-speed rail as the first leg of a connection between its 
major cities and less developed communities in the Western Sahara 
Desert. Saudia Arabia, gushing with oil, just completed a 280-mile 
electrified high-speed line that headlines its new infrastructure push 
to link holy cities, like Mecca and Medina, and commercial centers, 
like Jeddah, with King Abdulaziz International Airport and communities 
along the Red Sea coast. These are just but a few examples. It's time 
for America to catch up, or the world economy will leave us behind.
    Given the fundamental efficiencies and competitive advantages of 
rail--so fundamental that American freight railroads continue to fund 
their own infrastructure while the American taxpayer foots the bill for 
all our roads--there is a strong argument for shifting a larger 
proportion of government transportation investment to rail, just as 
China has done. Such a bold move would make Eisenhower proud, but our 
politically fractured times make grand visions much more challenging. 
So what we should do, at a bare minimum, is level the competitive 
playing field so that certain modes are not propped up with huge 
artificial government subsidies over more modern, more competitive 
alternatives, which offer a more efficient use of limited taxpayer 
dollars. In other words, let America's free market thrive in next-
century transportation and infrastructure by simply allowing high-speed 
rail and other 21st-century technologies to compete against older 
options.
    This is far from the case today. While robust funding mechanisms 
exist to build highways and airports, no trust fund nor formula funding 
exists--at all--for even last century's intercity passenger rail, not 
to mention high-speed rail or future technologies like maglev or 
Hyperloop. Without basic federal standards or regulations for high-
speed rail, every proposed project entails tremendous delays and 
regulatory costs. As a consequence, while China builds 250 mph 
railways, our Amtrak putters along most of its routes at speeds slower 
than trains plied the same old rail lines in the 1930s. Almost all 
freight lines in Europe are electrified, and cleaner and faster as a 
result, yet Congress has given no incentives to American freight 
carriers to do the same. Even most of our commuter trains still dawdle 
along behind diesel engines.
    The consequence is hundreds of billions of dollars of added costs 
to our economy--from lost time and business due to historic traffic 
congestion, to environmental degradation and land waste on a massive 
scale--as well as hundreds of billions in lost economic opportunity. 
Consider how the Houston-Dallas market would expand if you could get 
downtown-to-downtown in 90 minutes, every fifteen minutes. Or what New 
York-Chicago travel would look like without weather delays, ever. Or 
how much more connected Tulsa and Oklahoma City would be on a high-
speed line with hourly service between Dallas and Kansas City. 
Indianapolis, Louisville, Nashville, and Chattanooga would all be stops 
on a high-speed line with hourly service between Chicago and Atlanta. 
While business travelers in China regularly travel Atlanta-Chicago 
distances by high-speed train--with more frequent service, far nicer 
accommodations, no weather disruptions, and much more time aboard 
rather than in terminal lines or security checks--Americans only have 
one viable travel option. Notably, Chinese travelers can go by airline 
or highway as well, but they have choices, and the market has strongly 
favored travel by high-speed rail. And this is true not just for 
passengers but high-speed package delivery as well, an increasingly 
large part of the new economy. In addition, building an interstate 
high-speed rail network would directly support millions of construction 
and permanent jobs, boost domestic manufacturing and steel production 
among other industries, and free up our existing airport, highway, and 
freight rail infrastructure to focus on higher-value business.
    There is a reason why nearly every other developed country in the 
world--and several developing ones--consistently choose high-speed rail 
over highway and airport investments for corridors 750 miles or less, 
which accounts for most major city pairs throughout the United States. 
The reason is basic economics or, more bluntly, math. Existing 
Washington lobbies have distorted the market and held America back for 
too long. It's time to level the competitive playing field, let the 
free market thrive in transportation as it does elsewhere in the 
American economy, and give a new generation of Americans, competing in 
a new world, the options and efficiencies we demand.
Political Opportunity
    High-speed passenger rail development presents an opportunity to 
align major constituencies and form a broad coalition to transform our 
transportation infrastructure. Next-generation workers of all political 
stripes are seeking modern transportation options. Connecting major 
city pairs and intermediate communities along HSR corridors will 
revolutionize the modern commute, allowing us to remain personally or 
professionally productive while traveling from our more affordable 
hometowns to fast-growing city centers where the majority of new jobs 
are being created. Speaking generally, Democrats have led support for 
new transportation options in Congress. Meanwhile, Republicans and 
business leaders are seeking more private sector investment and ideas 
in transportation development. Private entities, from tech companies 
like Microsoft to railway operators like Virgin Trains USA, have 
already begun planning and preparing to develop HSR corridors because 
of the broad economic gains brought to the firms directly and 
indirectly served by these lines. Energy suppliers and utility 
companies will also gladly meet the demand for electrified rail, and 
well over half of congressional districts and almost every state, 
represented by both Republicans and Democrats, already host rail 
suppliers, manufacturers, and steel producers despite low investment in 
rail to date. At the policy level, state and metropolitan planners 
believe HSR is a necessary option to connect our regions, drive our 
economies, and reduce congestion and strain on other modes. 
Environmentalist interest in more sustainable transportation options is 
well aligned with private-sector industry desire for improved traveler 
experience and reduced land use, energy consumption, and emissions--all 
of which come with proven high-speed rail technology.
    To unite this broad coalition, federal leadership is required in 
several areas. To expedite planning and development, America must 
establish high-speed rail standards and regulations, a critical step 
that has eluded the Department of Transportation for decades. We need 
to create a framework to partner with private freight railroads, whose 
rights-of-way (ROWs) are sometimes advantageous routes for development, 
while--critically--maintaining existing freight service and growth 
potential. And the federal government should contribute funding to 
encourage state, local, and private investment as we do with other 
transportation modes, creating job growth and flexibility during the 
economic downturn.
    Congress will consider many infrastructure priorities in the midst 
of the coronavirus pandemic, so as we weigh alternatives, it is worth 
noting that modern high-speed trains allow passengers to sit much 
further apart than in airplanes or even in shared private automobiles. 
Economically, this is an unprecedented time to leverage low borrowing 
costs and high demand for federal stimulus to prioritize market-driven 
infrastructure investments that have the potential to rival the 
economic benefits of Eisenhower's Interstate System over time. This 
proposal is not about eliminating funding for other infrastructure 
projects but prioritizing limited federal dollars for wiser investments 
with greater returns for our future.
Public-Private Partnership
    Historically, building a country's first high-speed line is the 
hardest, and then investment proceeds rapidly once people have a taste 
of its potential. Yet despite still not having a single high-speed rail 
line, American private companies have already demonstrated strong 
interest in major investments. Microsoft's partnership with the 
governments of Oregon, Washington, and British Columbia on a 
feasibility study and business case serves as one example. Two primary 
goals underlie Microsoft's interest in HSR. First, it will help attract 
and sustain a skilled workforce by offering fast, reliable commutes 
between employment hubs and attractive communities with more affordable 
housing. Second, connecting the major economic hubs within the Cascadia 
megaregion will spur better collaboration and make--what Microsoft CEO 
Brad Smith has dubbed the Cascadia Innovation Corridor--more 
competitive with other technology and innovation hubs across the world.
    This proposal incentivizes increased public-private partnerships 
(P3s), such as the partnership between Microsoft and state and 
provincial governments in the Pacific Northwest, by prioritizing 
projects where at least 20% of funds are non-federal and allowing non-
federal funds to come from private sources, not just from state and 
local governments. Transportation firms and investment vehicles will 
gain access to federal grants and a federal framework for development 
while partnering with a public entity. And firms well beyond the 
transportation sector will be encouraged to invest, knowing their 
contributions raise the priority of projects that will benefit their 
and their employees' interest. Even if every successful grantee under 
this proposal includes just the bare minimum non-federal funding to 
achieve priority status, an additional $38 billion will be leveraged 
for HSR planning and development.
    Some private entities, like Texas Central Railway (TCR) and Virgin 
Trains USA, are currently developing higher-speed and high-speed 
passenger rail corridors, and this proposal would accelerate their 
progress. TCR will provide fast and reliable travel between fast-
growing Dallas and Houston, with an intermediate stop in the Brazos 
Valley, turning a 6-hour drive or 3-hour flight into a 90-minute train 
ride from city center to city center. Virgin Trains USA operates 
higher-speed rail in Florida called Brightline and is developing a 
service called XpressWest between Las Vegas and Victorville, CA, with 
plans to tie into Palmdale and the government-funded California high-
speed passenger rail network. While this proposal requires 
participation from public entities to receive federal funding for HSR 
planning and development, it expands eligible recipients to include P3s 
and could expedite current and future projects that have been 
exclusively publicly- or privately-led thus far. Federal dollars could 
turn TCR and XpressWest, which are transformational by U.S. standards 
but modest by international standards, into hugely successful projects 
with far bigger ridership and economic benefits, just as federal 
dollars augment state highway projects. For example, funds could be 
used to help build an extension of TCR to Fort Worth or the final leg 
of XpressWest into Palmdale and Los Angeles.
       Coordinated, Competitive National Transportation Strategy
    A coordinated, competitive national transportation strategy would 
allow all modes--including aviation, rail, and highways--to grow and 
concentrate where they hold a competitive advantage. This is a hallmark 
of more famously efficient transportation networks like Germany's. 
Lufthansa's Rail and Fly program promotes single-ticket travel across 
Germany by high-speed passenger rail to connections with international 
flights at Frankfurt International Airport. This has allowed the 
airline to discontinue less-profitable domestic routes, such as the 
roughly 90-mile flight from Frankfurt to Cologne. It also frees up the 
Autobahn for high-speed auto travel to destinations only accessible by 
automobile. In the U.S., there are already signs of an appetite for 
such a strategy. Virgin Atlantic Airlines operates routes with 
destinations in Miami, Orlando, Las Vegas, and Los Angeles--all of 
which are currently served or will be served by Virgin Trains USA, 
which would happily provide coordinated transportation for air 
travelers.
    In contrast, U.S. transportation spending is overly prescriptive, 
essentially forcing investment in highways and aviation while 
effectively blocking high-speed ground transportation alternatives 
regardless of what makes the most economic sense. Not only are funding 
mechanisms for high-speed options non-existent, the current USDOT 
benefit-cost analysis (BCAs) treats many of the benefits high-speed 
passenger rail accrues as externalities. As a result, these BCAs favor 
investments in other highways and airports while creating significant 
opportunity costs in unrealized travel time and emissions savings, lost 
safety and efficiency gains, and massive lost economic development. 
Because America has invested next to nothing in high-speed rail to 
date, we have a lot of low-hanging fruit in undeveloped projects with 
outsized economic returns compared to pouring more money into overly-
congested alternatives. Washington State's Secretary of Transportation 
Roger Millar characterized one example: ``For $108 billion we've got 
another lane of pavement in each direction, and it still takes you all 
day to get from Portland to Vancouver. Half of that invested in ultra-
high speed rail, and it's two hours. That's game-changing stuff.''
    To promote a more balanced, efficient use of taxpayer dollars, this 
proposal incorporates new factors in state, metropolitan, and non-
metropolitan transportation plans, including comparing land use, 
benefit and cost streams at their present value (e.g. travel time 
savings, productivity gains, passenger safety, etc.), and outcome 
benefit measures for cumulative effects over the lifecycle of a 
transportation system (e.g. regional land development, economic 
development, lifecycle public health and environmental costs) across 
different modes.
High-Speed Rail's Competitive Advantage
    International experience has proven that high-speed rail excels in 
corridors 100-750 miles long, primarily when connecting two or more 
large cities and their intermediate communities. Routes would want to 
attract business travelers in addition to commuters, tourists, and 
general transportation travel.
    Many rail corridors meet these criteria, including the 11 
federally-designated HSR corridors. Some have falsely argued that high-
speed rail is not suitable for America because it is so big. Even 
before China disproved this assumption, Europe's integrated network 
provided a good counterpoint where the most popular corridors are 
shorter legs even though the network nearly spans the continent. Most 
Americans might not opt for HSR travel from Chicago to Los Angeles, but 
each leg of Amtrak's Southwest Chief connecting Chicago, Kansas City, 
Topeka, Albuquerque, Flagstaff, Los Angeles, and their intermediate 
communities meets the conditions identified above and would attract 
significant ridership while boosting local economies. Similarly, the 
air or highway route from Chicago to California's Bay Area passes 
through Omaha, Denver, Salt Lake City, and Reno.
    It is important to note that some rail corridors will not meet the 
criteria identified above. Much like we have invested in an Interstate 
Highway System with higher speed limits that connects to arterials, 
collectors, and local roads, different tiers of passenger rail will be 
incorporated into a coordinated national transportation strategy. For 
this reason, this proposal defines two tiers of rail in addition to 
current passenger rail, which is limited to 79 mph in most corridors. 
Higher-speed rail would include trains operating between 110 and 186 
mph. In many cases, less costly incremental improvements on existing 
passenger rail lines, like reducing curves, would allow trains to offer 
higher-speed rail, and as such, 20% of funding under this proposal 
could be used for higher-speed rail projects. Additionally, this 
proposal defines high-speed rail using the international standard of 
186 mph or greater, which maximizes the economic benefits of HSR in 
corridors as described above. Balancing investments in both higher-
speed rail and high-speed rail will allow the U.S. to pursue a similar 
investment strategy to France, which has found success continuing high-
speed routes on non-high-speed lines to complete journeys without 
requiring a change of trains.
                        HSR as Economic Stimulus
    President Eisenhower's case for the Interstate System identified 
six key reasons for the project: unsafe travel, congested roadways, 
traffic-related backlogs in the courts, inefficiencies in the economy, 
inadequacy for rapid transport in the face of catastrophe or defense, 
and the need for a massive public-works program to put millions to 
work.\1\ Sixty-four years later, with low interest rates, national 
infrastructure decline, and an economy crushed by pandemic, the case 
for infrastructure investment is clear. But focusing on expanding the 
Interstate System would be a poor choice for infrastructure stimulus as 
highway investment is achieving diminishing returns: the billions being 
spent in highway expansion in metro areas has increased travel time 
through induced demand and resultant congestion.\2\ Forcing everyone 
into more cars or over-crowded planes has failed for our international 
peers and is failing here at home.
---------------------------------------------------------------------------
    \1\ Weingroff, Richard. ``Original Intent: Purpose of the 
Interstate System 1954-1956,'' Highway History, Federal Highway 
Administration.
    \2\ ``The Congestion Congestion Con: How More Lanes and More Money 
Equals More Traffic,'' Transportation for America (March 2020).
---------------------------------------------------------------------------
    A new generation of Americans in a new global economy demands 
better, faster options, and environmental stewardship and economic 
growth require it. Again, China is a good example, not just because 
they are our principal economic competitor but because they just built 
their high-speed network in the past decade. Despite inaugurating their 
first high-speed railway track in 2008,\3\ they now lead the world in 
both speed and scale, boasting nearly 24,000 miles of railways with 
speeds between 124 and 250 miles per hour. China's government 
investment also unlocked a competitive transportation network, and now 
Morgan Stanley Research expects the private sector share of HSR and 
rail transit investment in China to grow from 25% over the past three 
years to 50% over the next 10 years.\4\
---------------------------------------------------------------------------
    \3\ https://rail.nridigital.com/future_rail_apr19/
timeline_profiling_the_evolution_
of_china_s_high-speed_rail_network
    \4\ Xing, Robin, ``China's Urbanization 2.0: New Infrastructure 
Opportunities Handbook.'' Morgan Stanley Research (2020, March 22).
---------------------------------------------------------------------------
    We are starting from scratch as well, but private-sector 
investments in planning and developing higher-speed and high-speed 
passenger rail reinforce the unmistakable conclusion of transportation 
experts that strong demand exists. Virgin Brightline in Florida 
operates higher-speed rail while studies show that demand for true 
high-speed rail along the corridor is many times greater. Virgin Trains 
USA and Texas Central Railway are currently developing projects in 
Nevada-California and Texas respectively. Even Amtrak ridership in 2016 
was 1.5 times ridership in 2000, outpacing the growth of commercial 
system enplanement between January 2000 and December 2016 despite 
terribly slow speeds.\5\ Further demand is evidenced by the number of 
Americans forced to drive long-distance trips or fly short-haul 
flights. In fact, nearly 90% of long-distance trips in the U.S. are by 
personal vehicle,\6\ and the short-haul flight between Los Angeles 
International Airport (LAX) and San Francisco International Airport 
(SFO) is the busiest domestic route in North America and ninth busiest 
in the world.\7\ The gap between supply and demand for higher-speed and 
high-speed passenger rail demonstrates that 21st century intercity rail 
represents the transportation mode offering the highest potential for 
overall economic growth to current and new industries. California's 
system has had its problems, but despite the current pandemic, more 
than 3,500 people are still working on more than 100 miles of high-
speed rail right now.\8\ Dramatically increasing federal leadership and 
funding for national HSR development after the immediate public health 
crisis would exponentially increase job growth across a number of 
industries (e.g. construction, engineering, manufacturing) in the near 
and medium term, in addition to permanent jobs created for operations 
and maintenance. Based on a conservative estimate from the Mineta 
Transportation Institute of the number of jobs created per billion 
dollars invested in HSR,\9\ this proposal would create nearly 725,000 
jobs annually over five years, or using the American Public 
Transportation Association's ratio,\10\ this proposal would create more 
than 1.16 million jobs per year. Further, HSR development induces 
economic development in real estate, retail, community development, 
tourism, moderate income housing, and more, and establishes globally 
competitive megaregions.
---------------------------------------------------------------------------
    \5\ https://www.transtats.bts.gov/TRAFFIC/
    \6\ https://www.bts.gov/archive/publications/america_on_the_go/
long_distance_
transportation_patterns/entire
    \7\ https://www.businesswire.com/news/home/20190326005439/en/
    \8\ Rudick, Roger. ``High-Speed Rail Construction Continues Under 
COVID-19,'' Streets Blog SF (March 25, 2020).
    \9\ https://scholarworks.sjsu.edu/mti_publications/246/
    \10\ https://www.apta.com/research-technical-resources/high-speed-
passenger-rail/benefits-of-high-speed-rail-for-the-united-states/
---------------------------------------------------------------------------
Connectivity and Agglomeration Economies across Megaregions
    The primary reason why high-speed rail is such a strong economic 
driver compared to alternative investments is that it best supports 
21st-century development in bustling urban centers, walkable downtowns 
even in much smaller cities and towns, and the agglomeration economies 
of cities and megaregions that are driving the vast majority of current 
economic growth. Highways and airports support the sprawly suburban 
office parks of the 1970s that are increasingly out of favor as an 
unsustainable development model, inefficient for business and land use, 
and undesirable for a new generation of Americans.
    Real estate, both residential and commercial; retail, including 
small businesses not just big box stores; community development and 
tourism; and all education models--all thrive in the land use models 
naturally engendered by train stations. Dramatically faster commute 
times to outlying areas likewise increase rural access to city centers 
and their concentrated job opportunities while allowing city workers to 
access more affordable housing. These preferred, modern development 
models represent a unique alignment of commercial, environmental, and 
social interests (covering a diverse set of political constituencies), 
and stand in sharp contrast to the acres of parking lots required for 
the superhighway-based development models of the past century. In other 
words, walkable downtowns are in favor across the country, by Americans 
of all political stripes. High-speed rail naturally supports and 
incentivizes this kind of development without forcing it through 
onerous zoning laws and restrictions. Thus, not only is this kind of 
development more preferred by the public, more profitable for business, 
and more sustainable for our future; it comes care of the free market 
with high-speed rail, but must be forced while Americans are forced to 
rely on cars and airplanes. This proposal encourages the growth we 
increasingly desire, and does so through a more open and free 
transportation market.
    Consider again the Pacific Northwest. Washington State's Department 
of Transportation collaborated with Oregon, the province of British 
Columbia, and Microsoft to conduct a feasibility study and business 
case study of HSR in the Pacific Northwest Cascadia Corridor, 
demonstrating that developing HSR to connect this megaregion is worth 
the investment. Greater regional connectivity across Portland, Seattle, 
and Vancouver, with each leg of the trip taking less than an hour, will 
create an interconnected economic corridor, rather than separate and 
disparate zones, allowing it to compete with other innovation and 
technology hubs like Silicon Valley. In fact, the business case study 
estimates that the project, which will cost between $24 and $42 
billion, would deliver $355 billion in regional economic growth.\11\ 
Microsoft CEO Brad Smith characterizes the potential for economic 
development as a result of HSR development in the business study:
---------------------------------------------------------------------------
    \11\ ``Ultra-High-Speed Ground Transportation Business Case 
Analysis'' Washington State Department of Transportation prepared by 
WSP (July 2019).

        Our ability to compete in the world's economy will be enhanced 
        dramatically [by] having a region that is 6 million inhabitants 
        strong versus two or three regions of 3 million each. By 
        combining the sub-regions, it is the only way for this 
        megaregion to reach scale. None of the sub-regions can get to 6 
---------------------------------------------------------------------------
        million by itself.

    In fact, the World Bank found that China has experienced this 
effect with 1.7 billion business riders creating more than 850 million 
new opportunities to connect, trade, and exchange ideas annually to 
drive economic activity, innovation, and increased productivity.\12\ 
Still, economic development is not limited to the major city pairs that 
will likely serve as terminals in initial high-speed passenger rail 
corridors across megaregions: intermediate communities with access to 
HSR service will also benefit, perhaps even more dramatically. Our 
international peers have recognized this economic benefit. Earlier this 
year, the British government approved construction of 250 mile-per-hour 
passenger rail connecting London, Birgmingham, Manchester, and Leeds, 
which are Britain's four largest metro areas. This new line will open 
additional opportunities for the British to work in major economic hubs 
while living in more affordable intermediate communities and enjoying 
quick, reliable, and clean commutes. Imagine the socioeconomic impact 
of a similar investment in the federally-designated Chicago Hub 
Corridor linking Chicago, Detroit, St. Louis, Milwaukee, and their 
intermediate communities. Americans could leave work in a midwestern 
economic hub, enjoy a fast, congestion-free commute, and be home in 
time for dinner in their hometowns.
---------------------------------------------------------------------------
    \12\ http://documents.worldbank.org/curated/en/933411559841476316/
pdf/Chinas-High-Speed-Rail-Development.pdf
---------------------------------------------------------------------------
    The connectivity of being able to live in Bellingham, WA, and 
commute 45 minutes by HSR to a job in the Central Puget Sound opens new 
housing markets to workers, reduces the costs of living, and shares 
economic growth with nonurban areas in a megaregion as agglomeration 
economies expand along a HSR corridor. Take Texas Central Railway (TCR) 
as another example. When operational, TCR will serve an intermediate 
station in the Brazos Valley near College Station along during the 60-
90-minute trip from Houston to Dallas. Linked to nearby Texas A&M 
University and the surrounding area, the station will dramatically 
increase job access for everyone living in the Brazos Valley, not to 
mention access to all the sports, leisure, and tourism activities of 
Dallas and Houston. Likewise, getting to Texas A&M games will be much 
easier for anyone living near these high-growth cities. Over a 25-year 
period, the project is expected to deliver a $36 billion boost to the 
Texas economy, not just the economies of Houston and Dallas. While many 
rural and isolated communities have lost jobs and population as 
urbanization continues in the U.S., intermediate communities along HSR 
corridors will benefit from local economic growth as people seek 
affordable hometowns connected to the economic opportunities in urban 
centers.
Creating New Jobs and Industries
    Compared to investing in other transportation modes, high-speed 
rail development has the greatest potential for spurring economic 
growth. This is primarily because there are so many undeveloped 
projects with huge benefit-to-cost ratios as none have been completed 
to date; in other words, there is lots of low-hanging fruit. All of the 
benefits high-speed rail brings--from agglomeration economies in 
regions newly-connected with dramatically increased speed and 
frequency, to huge growth in urban and suburban development and 
housing, to increased casual and tourist travel--have been documented 
to result in extraordinary job growth and economic development, to the 
tune of hundreds of billions of dollars if a full network is built out. 
The impact would be enormous, especially in comparison to pouring money 
into more highway projects that have been documented to simply 
encourage more people to drive at increasingly slower speeds on 
increasingly congested roadways. But all these indirect benefits aside, 
it's worth examining even just the direct job creation that would 
result from this program. Even though it pales in comparison to the 
broader economic growth high-speed rail will create, it is quite 
significant on its own.
    During the recovery from the Great Recession, the total number of 
job-years created per federal dollar invested in transportation 
infrastructure under the American Recovery and Reinvestment Act (ARRA) 
was greatest among Federal Railroad Administration grants compared to 
grants administered by other U.S. Department of Transportation 
administrations such as the FAA or FHWA.\13\ This is despite the fact 
that one of the biggest criticisms of high-speed rail grants as 
stimulus in ARRA was slow expenditure.\14\ The concern is no longer 
relevant as FRA now has experience administering larger capital grants, 
and we now have a pipeline of projects ready for funding.
---------------------------------------------------------------------------
    \13\ Calculated using the American Recovery and Reinvestment Act 
(ARRA) 1201(c) report as of January 31, 2012 from the Department of 
Transportation found at https://www.transportation.gov/policy-
initiatives/recovery/arra-1201c-report-january-31-2012
    \14\ https://www.crs.gov/Reports/R46343
---------------------------------------------------------------------------
    The most direct economic benefits of HSR development come from 
growth and job creation in construction and operations. Texas Central 
Railway (TCR) expects to create 40,000 new construction jobs and 1,000 
direct permanent jobs when the railway is operational. In California, 
construction of a relatively small segment of 119 miles in the Central 
Valley continues during the current public health crisis, employing 
more than 3,500 individuals. As high-speed passenger rail lines become 
operational, a new industry and tens of thousands of jobs will emerge 
for operations, maintenance, and improvements, and additional jobs will 
be supported as development around stations occurs.
    Employment and economic growth, however, are not limited to 
construction and operations. In 2017, the rail supply sector added 
$74.2 billion to GDP, supported 650,000 jobs, and contributed $16.9 
billion in taxes in communities across diverse geographic regions and 
populations. HSR requires high-grade steel, which is currently not 
produced in the U.S., so TCR and its Japanese investors are pursuing a 
joint venture between Japanese and American steelmakers to produce 
high-grade steel domestically. This is good for industrial towns such 
as Pueblo, CO, and Granite City, IL.
    Siemens is one example of a company that already produces high-
speed passenger rail cars internationally, supports HSR development in 
the U.S., and has existing plants ready to begin production for 
domestic high-speed passenger rail. The Siemens plant in Sacramento, CA 
is already the leading supplier of light rail in North America and the 
company has decades of experience in adapting world class rail 
solutions to American market standards, while sourcing supplies in the 
U.S. in order to exceed Buy America requirements. Today, examples of 
their locomotives and coaches can be found in Florida with the new 
Brightline passenger rail service, along the Northeast Corridor with 
Amtrak's new electric ACS-64 locomotives, in the Midwest and west coast 
with new EPA Tier 4 certified diesel locomotives on Amtrak's state-
supported service, and in U.S. cities from coast to coast that utilize 
Siemens-built light rail vehicles and street cars. HSR projects would 
not only result in California jobs; operations at Siemens manufacturing 
hubs in Pennsylvania, Kentucky, Georgia, Oregon, and Mississippi would 
also grow, as well as their sub-suppliers in more than 20 states. Even 
before producing a single high-speed rail train, Siemens has more than 
doubled its engineering and manufacturing workforce over the past 
decade in response to demand for locomotives and light rail vehicles.
    And this is just one company's story. The economic benefits of a 
HSR program would extend across the country to a wide variety of firms, 
including Kawasaki in Nebraska and New York and Alstom in western New 
York, Florida, and Missouri. Additionally, 212 companies in 32 states 
manufacture passenger rail cars and locomotives or major components and 
systems for these vehicles,\15\ creating many jobs in communities even 
where construction does not occur. Additionally, today's rail vehicles 
have hundreds or even thousands of digital sensors built in to optimize 
operations and enhance safety, so job creation does not end with 
production, as long-term maintenance and optimization requires a 
permanent staff for high-tech support. For every direct job in the 
railway supply sector, 4.2 jobs are supported in other industries.\16\
---------------------------------------------------------------------------
    \15\ Jewell, John Paul and Zoe Lipman. ``Passenger Rail & Transit 
Rail Manufacturing in the U.S.'' Blue Green Alliance: Clean 
Transportation (January 2015).
    \16\ ``Tracking the Power of Rail Supply: The Economic Impact of 
Railway Suppliers in the U.S.'' commissioned by the Railway Supply 
Institute and conducted by Oxford Economics, 2018.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Electrification as an Immediate Next Step
    Electric trains are faster, quieter, more efficient, and better for 
the environment, which is why most major rail lines outside the United 
States, for both freight and passenger, are electrified. Denver's 
commuter rail system, the only domestic system built entirely from 
scratch in the past decade, is completely electrified. But the rest of 
the country actually had more miles of electrified rail a century ago 
than we do today. This proposal adds electrification to the existing 
list of significant improvements to intercity rail passenger service to 
be prioritized in grant selection.
    Again, these investments represent a lot of low-hanging fruit, and 
will have notably better economic returns than electrifying other 
transportation modes. Electric planes are still decades from regular 
commercial operation, and electrifying our highway infrastructure is an 
important long-term goal, but will only achieve significant 
environmental gains after existing gas-powered automobiles are slowly 
phased out. Again, the international comparison is worth examining 
where most countries have been benefiting from electrified rail for 
decades. Even Saudi Arabia, sitting on a pot of oil, has electrified 
its brand-new 280-mile rail line. Put succinctly, America should 
electrify our transportation infrastructure, but it should begin with 
time-proven technology.
           Opportunity Costs of Our Current Investment Scheme
    Our current federal transportation investment program contains 
massive opportunity costs by not including high-speed rail as an 
option. Economic externalities accrue heavily to HSR compared to other 
driving or flying:
    <bullet>  Safety: fewer deaths and injuries
    <bullet>  Public Health: less pollution
    <bullet>  Wasted Time: less time in terminal lines and security 
checks; no weather disruptions
    <bullet>  Business Growth: in urban centers and walkable 
communities preferred by employees
    <bullet>  Housing: expanded access and growth in walkable 
communities
    <bullet>  Overall System Costs: reduced strain on existing aviation 
and highway assets
    <bullet>  National Security: increased U.S. independence from 
imported fuels
    <bullet>  Exports: competing with China who uses HSR as part of its 
Belt and Road Initiative

    These benefits all accrue to high-speed passenger rail for our 
international peers, yet the U.S. has not continued the limited federal 
funding that was previously available for HSR development, instead 
investment skews towards transportation modes that score worse across 
all of these measures.
    The comparison with Japan's national transportation system is 
dramatic. Japan has built out its Shinkansen high-speed network with 
nine primary lines and three more in development, connecting the people 
and economies of 22 major cities and spanning its three major islands 
at speeds up to 200 miles per hour. Since it began operation 56 years 
ago, the system has experienced zero passenger fatalities or injuries 
due to accidents. In the U.S. in 2018 alone, there were 36,560 deaths 
due to motor vehicle crashes and 393 deaths in civil aviation 
accidents, including one commercial airline passenger fatality. In the 
same time period, we have lost more than 2.5 million souls to motor 
vehicle accidents in the U.S. and nearly 20,000 in aviation disasters 
since 1990.\17\ The comparison could not be more stark.
---------------------------------------------------------------------------
    \17\ For the 56-year comparison, data for automobile fatalities due 
to accidents is compiled by the National Safety Council and sourced 
from the National Center for Health Statistics, and this data does not 
include 2019 or 2020. Annual data for general aviation fatalities is 
available for 1990-2018 from the Bureau of Transportation Statistics.
---------------------------------------------------------------------------
    The World Bank calculated the rate of return for China's investment 
in HSR based on economic, socioeconomic, and sustainability gains as 
8%--significantly outweighing the opportunity cost for capital for 
long-term infrastructure investments in both China and most of the 
globe--with some lines achieving an 18% return.\18\ In fact, 25 Chinese 
cities and provinces as of March 20, 2020 announced plans to invest 
$71.28 billion by the end of the year to further stimulate short-term 
demand and generate long-term growth.\19\ China is expected to invest 
an average of $46 billion, which is equivalent to 27% of their 2019 
transportation budget \20\ or 0.34% of their 2018 GDP,\21\ annually 
from 2020-2030 in 21st-century high-speed rail and rail transit.
---------------------------------------------------------------------------
    \18\ http://documents.worldbank.org/curated/en/933411559841476316/
pdf/Chinas-High-Speed-Rail-Development.pdf
    \19\ https://www.fitchratings.com/research/corporate-finance/
traditional-projects-to-lead-china-infrastructure-investments-in-2020-
08-04-2020
    \20\ https://www.bloomberg.com/news/articles/2020-03-13/unraveling-
the-mysteries-of-china-s-multiple-budgets-quicktake
    \21\ https://data.worldbank.org/country/china
---------------------------------------------------------------------------
    In 2017, the American Public Transportation Association (APTA) 
produced an initial framework \22\ to assess the return-on-investment 
for HSR projects.
---------------------------------------------------------------------------
    \22\ https://www.apta.com/wp-content/uploads/Resources/resources/
reportsandpublications/Documents/HSR-ROI-2017.pdf

----------------------------------------------------------------------------------------------------------------
                                                                                                        Owner/
                Travel, Societal, and Other Benefits                  National   Regional    Local     Operator
----------------------------------------------------------------------------------------------------------------
Travel Time........................................................        XX          X          X
----------------------------------------------------------------------------------------------------------------
Travel Cost........................................................        XX          X          X
----------------------------------------------------------------------------------------------------------------
Reliability........................................................        XX          X          X
----------------------------------------------------------------------------------------------------------------
Consumer Surplus from Induced New Travel...........................        XX
----------------------------------------------------------------------------------------------------------------
Safety Impact......................................................        XX          X          X           X
----------------------------------------------------------------------------------------------------------------
Noise Impact.......................................................         X          X         XX
----------------------------------------------------------------------------------------------------------------
Reduction in Greenhouse Gas (CO2)..................................        XX
----------------------------------------------------------------------------------------------------------------
Emissions Reduction for Other Pollutants...........................        XX         XX         XX
----------------------------------------------------------------------------------------------------------------
Energy Resources: Oil Import Reduction.............................        XX
----------------------------------------------------------------------------------------------------------------
Accessibility Benefits (Agglomeration Economies)...................                   XX          X
----------------------------------------------------------------------------------------------------------------
Station Area Development...........................................                              XX
----------------------------------------------------------------------------------------------------------------
Regional Economic Development......................................                              XX
----------------------------------------------------------------------------------------------------------------
Government Revenues from Taxes.....................................                    X         XX          XX
----------------------------------------------------------------------------------------------------------------
Service Operator and Facility Owner Costs..........................                                          XX
----------------------------------------------------------------------------------------------------------------
Service Operator and Facility Owner Revenues.......................                                          XX
----------------------------------------------------------------------------------------------------------------
 XX = largest effect seen; X = effect seen


    For many, the environmental and public health benefits of HSR will 
be the most compelling case. HSR will, indeed, drastically reduce 
pollution, emissions, land use, and energy consumption in U.S. 
transportation throughout the 21st century. It takes little imagination 
to envision the environmental gains from HSR development. In fact, the 
causal sequence of our current response to the pandemic demonstrates 
short-term congestion, pollution, and emissions reductions through 
decreased vehicle use, of course without the medium- and long-term 
benefits that would accompany high-speed passenger rail 
development.\23\ While a similar argument could be made for electric 
vehicles regarding pollution and emissions, EVs will not reduce 
congestion, provide reliable commute times, nor achieve the beneficial 
economic externalities that accrue to HSR. Federal investment in HSR 
would allow the U.S. to achieve long-term reductions on these metrics 
and also achieve the economic benefits outlined above. Metro areas 
today are able to measure the temporary reduction in congestion, 
pollution, and emissions due to the pandemic, which would become 
permanent features if travelers could opt for HSR over driving.
---------------------------------------------------------------------------
    \23\ Plumer, Brad and Nadja Popovich. ``Traffic and Pollution 
Plummet as U.S. Cities Shut Down for Coronavirus.'' New York Times 
(March 22, 2020).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                         Concerning Other Modes
Freight Railroads
    Aware that in some cases the least costly right-of-way option for 
building high-speed rail is along existing private freight corridors, 
these railroads have been wary of calls to develop it. Under this 
proposal, freight railroads are offered incentives to sell, lease, or 
grant easements on their undeveloped land along existing rights-of-way 
in the form of assistance to acquire new land opposite the land granted 
to HSR development. Most federally-designated high-speed rail corridors 
could find willing partners in developing along undeveloped freight-
owned right-of-way with the proper compensation and liability framework 
established.
    Another incentive for freight railroads is that most current Amtrak 
intercity passenger rail operates on freight lines, so developing HSR 
on dedicated tracks would relieve significant congestion. Investments 
in higher-speed rail can benefit freight railroads as well when capital 
projects improve facilities and increase travel speeds and operating 
costs (e.g. straightening curves). Light freight, such as packages and 
mail, is currently transported primarily by plane, but HSR would offer 
a more efficient and cleaner alternative to the current industry.
Aviation
    As a result of incomplete transportation investment analyses, 
aviation has filled the gap caused by underinvesting in our passenger 
rail network, even when less profitable and less efficient. For 
transportation corridors up to 750 miles, high-speed rail offers better 
journey times than aviation, including less time wasted in terminals or 
security, and fewer emissions. But far from simply stealing business 
from the airlines, high-speed rail can help airports and airlines 
increase profits by reserving runways and gates for higher-margin, 
longer-distance flights. Recall Lufthansa's Rail and Fly program. 
Eurostar announced in 2019 that it's London-Paris HSR route has more 
than halved air travel demand between the two cities.\24\ In China, 
travelers have shifted modes for shorter trips with high-speed rail's 
ridership doubling that of domestic flights,\25\ while the Shanghai 
Maglev connects the Pudong International Airport to the metro system 
serving Shanghai, thus making the airport more accessible from the city 
center.
---------------------------------------------------------------------------
    \24\ Morgan, Sam. ``Planes vs. Trains: High-Speed Rail Set for 
Coronavirus Dividend'' EURACTIV (April 15, 2020).
    \25\ https://www.eesi.org/papers/view/fact-sheet-high-speed-rail-
development-worldwide
---------------------------------------------------------------------------
    Many in Congress have bemoaned airline bailouts and subsidies, yet 
the federal government has not seriously invested in transportation 
alternatives that are more economically efficient and therefore, in the 
long term, require less government support. The overlap of destinations 
between Virgin Atlantic Airlines and Virgin Trains USA shows signs that 
airlines in the U.S. understand the benefit of a coordinated national 
transportation strategy. Airports either unable or unwilling to make 
costly expansions for short-haul routes would benefit from HSR 
development. For example, San Francisco International Airport (SFO) 
expects 61 million passengers annually by 2030 and is endeavoring to 
reduce its frequent short-haul routes, like SFO-LAX, to shift runway 
capacity to long-haul flights, which move more passengers per plane 
with fewer flights.\26\ Similar to Frankfurt International Airport in 
Germany, SFO would benefit dramatically from HSR.
---------------------------------------------------------------------------
    \26\ http://www.bayareaeconomy.org/files/pdf/CaliforniaHigh-
SpeedRailOct2008Web.pdf
---------------------------------------------------------------------------
America's Car Culture
    Underfunding passenger rail networks also shifts travelers toward 
highways and car use, not by preference but by subsidizing highways and 
limiting options for travelers. Where conventional passenger rail 
exists to supplement commutes, systems experience success in moving 
commuters to rail. For example, Metrolink in Los Angeles has achieved 
85% ``choice riders'' (i.e. riders who also own an automobile) with the 
leading motivations being less stress, greater relaxation, less 
expensive, more efficient use of time, and environmental reasons.\27\ 
In regions that only have access to urban economic hubs by highway, 
super commuters spend hours commuting each way through congested 
roadways for employment opportunities: more than 10,000 super commuters 
live in western Massachusetts, some traveling 1,000 miles or more per 
week for their commutes. Western Massachusetts super commuters would 
gladly trade in their drive for frequent and reliable 45-minute 
terminal-to-terminal high-speed travel by train connecting Pittsfield, 
Springfield, Worcester, and Boston. Furthermore, reams of research 
document that these trends are only further reinforced among Millennial 
transportation preferences for walkable communities, easy access to 
urban amenities, reliable systems, and a smaller environmental 
footprint.
---------------------------------------------------------------------------
    \27\ https://metrolinktrains.com/globalassets/about/agency/facts-
and-numbers/metrolink-2018-od-study.pdf
---------------------------------------------------------------------------
    By artificially inflating demand for private vehicle travel, the 
U.S. has underestimated the costs associated with granting primacy to 
the automobile. The public costs of the vehicle economy are regressive, 
in that even families without a car subsidize car owners and highway 
systems. In Massachusetts alone, the total annual cost of the vehicle 
economy is $64 billion with non-vehicle owning families contributing 
approximately $14,000 annually.\28\ There are obvious costs, such as 
capital costs and the public health cost of emissions and pollution, 
and less obvious costs, such as the opportunity cost of land use, lost 
productivity due to congestion, and public safety costs including 
accidents. HSR scores better on all of these metrics.
---------------------------------------------------------------------------
    \28\ https://www.hks.harvard.edu/faculty-research/policy-topics/
cities-communities/car-economy-costs-64-billion-year-mass
---------------------------------------------------------------------------
    Highway investments now have dramatically diminishing returns. A 
study found that between 1993 and 2017, states spent more than $500 
billion on highway capital investments in urban areas, and induced 
demand has caused congestion to grow by 144% in these same areas, which 
is faster than population growth.\29\ Washington State explored 
expanding I-5 between Portland, Seattle, and Vancouver and found that 
within a few years of completing the highway expansion, congestion 
would be just as bad as it is currently at twice the price tag of HSR 
between these cities.
---------------------------------------------------------------------------
    \29\ ``The Congestion Con: How More Lanes and More Money Equals 
More Traffic.'' Transportation for America. (March 2020).
---------------------------------------------------------------------------
Alternative High-Speed Technologies
    Magnetic levitation (maglev) and hyperloop are alternative high-
speed technologies at different stages of development. High-speed 
maglev is a proven technology, with operational experience in Europe, 
Japan, and China. Notably, pioneering work on the first superconducting 
maglev (SC maglev) technology was originally performed in the U.S. at 
Brookhaven National Laboratories. Hyperloop is based on maglev 
technology and is at the experimental stage with hopes of demonstrating 
operations in the coming years.
    Federal precedent exists for investing in maglev. Starting in 1996, 
the Department of Transportation found that maglev's viability and 
benefits were best proven in the densely-populated Northeast Corridor, 
and shortly thereafter, Congress created the Maglev Deployment Program 
(MDP) where city pairs competed for federal funding to develop a maglev 
corridor. After feasibility studies for seven proposed projects, 
followed by Environmental Impact Statements for the top two pairs, the 
Baltimore-Washington, D.C. Maglev Project emerged as the winner. 
Multiple transportation bills propelled progress to date,\30\ and now 
Baltimore-Washington Rapid Rail (BWRR), working with the FRA, State of 
Maryland, and the District of Columbia, is planning a maglev line that 
would eventually connect Washington, D.C., to New York at 311 mph for a 
one-hour trip.
---------------------------------------------------------------------------
    \30\ These bills include the Intermodal Surface Transportation 
Efficiency Act of 1991 (ISTEA); the Transportation Equity Act for the 
21st Century (TEA-21) in 1998; the Safe, Accountable, Flexible, 
Efficient Transportation Equity Act: A Legacy for Users (SAFETEA-LU) in 
2005; the SAFETEA-LU Technical Corrections Act in 2008; and various 
appropriations bills.
---------------------------------------------------------------------------
    The most discussed firms pursuing hyperloop technology are Elon 
Musk's Boring Company and Virgin Hyperloop One. If realized, hyperloop 
could provide a 600-mph transit option by enclosing a maglev system in 
a vacuum tube. While hyperloop is undemonstrated and the current 
economics of maglev is favorable only in limited dense urban corridors, 
projects of these modes should be able to compete for funding as well, 
and will be able to do so under this proposal.
    Deploying new American transportation technology is not only 
important for its stimulative effect, but it also has implications for 
our foreign policy. China is exploiting the national security benefits 
of exporting its own high-speed rail technology to other nations as 
part of its Belt and Road Initiative (BRI), expanding power globally 
through international development in a model once perfected by the 
United States. In Laos, China is currently building infrastructure to 
support a proposed HSR line from Kunming, China to Singapore, which 
will also travel through Thailand and Malaysia. The Jakarta-Bandung 
high-speed passenger rail line in Indonesia is being constructed and 
operated by a consortium led by China Railway Corp and primarily funded 
by loans from the China Development Bank. Additional Chinese rail 
projects include both East and West Africa serving Nigeria, Ethiopia, 
and Djibouti. Morocco will choose China or France, each being global 
leaders in HSR, to develop a Marrakech-Agadirk line as the next segment 
of Moroccan HSR, and as a result, one of these countries will accrue 
the associated diplomatic gains.\31\
---------------------------------------------------------------------------
    \31\ https://www.moroccoworldnews.com/2020/02/294277/high-speed-
battle-france-china-fight-to-build-new-train-line-in-morocco/
---------------------------------------------------------------------------
    The United States has a long and celebrated history of helping 
rebuild the economies of former adversaries and creating new allies 
through financial support and exported industrial expertise. Several of 
the direct beneficiaries of our rebuilding efforts following World War 
II became leaders in next-generation transportation technologies before 
China's game-changing investment. France built the Train a Grande 
Vitesse (TGV), Siemens' Intercity Express (ICE) high-speed trains 
criss-cross Germany, and several Japanese railways, led by Japan 
Central Railway (JRC), inaugurated the high-speed railway age with the 
Shinkansen system. Many of our allies' train manufacturers, including 
Siemens, Bombardier, Alstom, Kawasaki, Hitachi, Hyundai, and Stadler, 
have already made significant investments in plant and equipment in 
America. Notably, JRC has partnered with Texas Central Railway (TCR) 
and BWRR to share its Shinkansen and SC maglev systems, respectively, 
and the Spanish Renfe will operate TCR service. The French National 
Railway Company (SNCF) led the early push to develop high-speed rail in 
Texas in the late 1980's and early 1990's, and also invested in later 
efforts in Florida; they had to turn their attention to other 
international projects when American leaders scuttled these projects 
for short-term political goals. In sum, it is free democratic allies 
who have pioneered high-speed rail technology. Combining that HSR 
expertise with U.S. adoption and leadership would present a compelling 
alternative to China's BRI development efforts as we enter a new era of 
global power competition.
                   High-speed Passenger Rail Proposal
    The U.S. could achieve world-class, 21st-century transformative 
infrastructure by opening up federal funds for HSR development, 
encouraging matching non-federal dollars for HSR investment, and 
providing incentives, flexibility, and additional benefits to 
participating state and local governments. This proposal authorizes the 
Federal Railroad Administration (FRA) to provide $41 billion annually 
over 5 years for HSR planning, technology improvements, and 
development. Even without adjusting for inflation, this investment is 
less than annual federal expenditures for highways under the FAST Act, 
but as a significant increase over past HSR appropriations, it allows 
high-speed passenger rail development to finally compete with other 
modes in the U.S. Furthermore, the proposal encourages $7.6 billion 
annually in non-federal investment, which could achieve total 
investment of $48.6 billion or more annually, and incentivizes state 
and local government participation through TOD grants along HSR 
corridors, increased flexibility regarding the non-federal share of HSR 
planning and development costs, and the benefit of greater funding 
predictability for projects requiring multi-year federal investments.
    This shift in American transportation strategy would meet the 
demands of the moment and potential of the 21st century, creating new 
American manufacturing industries, bring millions of jobs to 
communities across America, and increasing demand and productivity in 
the private sector, all of which will reduce unemployment and help 
economic recovery.
Select Highlights
    <bullet>  Establish a long-term framework for HSR so Congress, 
state and local governments, and the market may invest in HSR planning, 
technology, and development;
    <bullet>  Authorize $205 billion in HSR over 5 years, a modest sum 
compared to other modes, with potential investment of $243 billion or 
more including non-federal matches;
    <bullet>  Standardize the definition of HSR across applicable 
statutes and produce federal HSR standards and regulations to ensure 
alignment of HSR development in the U.S.;
    <bullet>  Increase predictability of funding for projects that 
require multi-year investments;
    <bullet>  Foster a growing national HSR network, including allowing 
the designation of new corridors, through a strategic, economically-
rigorous process;
    <bullet>  Ensure limited infrastructure dollars are invested where 
they truly achieve the greatest ROI by incorporating externalities into 
metropolitan, nonmetropolitan, and statewide transportation plans and 
comparing benefit-cost analyses (BCAs) across modes;
    <bullet>  Incentivize communities to allow new construction of HSR 
lines as prioritized recipients for $100 million in FTA TOD grants over 
five years;
    <bullet>  Create flexibility for state and local governments to pay 
non-federal shares with RRIF and TIFIA loans or, in some cases, waive 
the non-federal requirement;
    <bullet>  Eliminate the challenge of previous High-Speed Intercity 
Passenger Rail (HSIPR) grants being spread too thinly by increasing 
funding levels to ensure high-speed passenger rail corridors are 
completed;
    <bullet>  Expedite HSR project planning and development by creating 
comprehensive, performance-based HSR regulations, not one-off Rules of 
Particular Applicability;
    <bullet>  Ensure electrification, TOD, and access to moderate 
income and affordable housing markets are prioritized in HSR 
development; and
    <bullet>  Incentivize freight railroads to make available existing 
rights-of-way to develop HSR.
Legislative Outline
    I.    Reauthorize 49 U.S.C. 26101, 26102, 26106: Reauthorization of 
HSR Corridor Planning, Technology Improvements, and Corridor 
Development
    II.   Amendments to 49 U.S.C. 26101-26106 and add 26107: Changes to 
HSR Authorities
    III.  Amendments to 49 U.S.C 5303 and 49 U.S.C. 5304: Incorporating 
Externalities into Transportation Plans to Improve BCA on 
Transportation Mode Investments, and Extending FTA's TOD Pilot Program 
for Transit-Oriented Development Planning
    IV.  Amendments to 45 U.S.C. 822: Creating Flexibility for RRIF 
Loans
    V.   Amendments to 26 U.S.C. 142: Incentivizing Private Investment 
in Passenger Rail Projects
    VI.  Amendments to 49 U.S.C. 22905: Clarifying Labor Provisions
Section-by-Section
I.  Reauthorize 49 U.S.C. 26101, 26102, 26106: Reauthorization of HSR 
Corridor Planning, Technology Improvements, and Corridor Development

    This would reauthorize Title 49 Chapter 261, High-Speed Rail 
Assistance. Excluding three sections addressed in the amendments below, 
this chapter includes High-Speed Rail Corridor Planning (26101), High-
Speed Rail Technology Improvements (26102), and High-Speed Rail 
Corridor Development (26106). The programs are reauthorized by amending 
and increasing the authorizations of appropriations in Sections 26104 
and 26106. (Specific amendments are outlined in the next section.)
      <bullet>  High-Speed Rail Corridor Planning (26101) is 
reauthorized to treat the backlog of planning activities (e.g. proposed 
projects without an issued DEIS or FEIS/ROD, HSR corridors without 
feasibility studies or economic analyses, etc) and to help create a 
pipeline for future corridor development in the HSR network.
      <bullet>  High-Speed Rail Technology Improvements (26102) is 
reauthorized to allow DOT and the FRA to improve, adapt, and integrate 
proven technology for commercial application in HSR service in the U.S. 
This can be done through financial assistance to private businesses, 
universities, states, local/regional governments or authorities, or 
other agencies of the federal government. This will allow the federal 
government to act as an investment partner in HSR technological 
improvements.
      <bullet>  High-Speed Rail Corridor Development (26102) is 
reauthorized to allow the FRA to finance capital projects in HSR 
corridors. This section includes the grant criteria and requirements 
for the High Speed Intercity Passenger Rail (HSIPR) grant program. It 
is through these grants that the bulk of HSR corridor development 
occurs (i.e. acquisition, construction, improvement, inspection, 
mitigation, replacement, etc.).

II.  Amendments to 49 U.S.C. 26101-26106 and add 26107: Changes to HSR 
Authorities

    26101. High-speed rail corridor planning:
      <bullet>  Allow the Secretary to designate new federal HSR 
corridors.
      <bullet>  Allow RRIF and TIFIA loans, which would be repaid by 
private, local, or state sources, to count toward the 20 percent state/
local share.
      <bullet>  Remove requirement for 20 percent non-federal source, 
and allow for project prioritization for projects where at least 20 
percent of the costs are funded through non-federal dollars (while 
still counting RRIF and TIFIA, as above, to count as non-federal 
dollars)
      <bullet>  Clarify that interstate agreements for HSR corridors do 
not constitute interstate compacts requiring federal approval.
      <bullet>  Remove Northeast Corridor exclusion.
      <bullet>  Require the Secretary of State to provide a 
Presidential Permit for Border Crossing to a grantee if the proposed 
route crosses a national border.
      <bullet>  Authorize advance acquisition of railroad right-of-way 
(similar to advance acquisition permitted for highway and transit 
projects) by allowing the Secretary to assist a grantee in acquiring 
right-of-way before the completion of the environmental reviews for any 
project that may use the right-of-way if the acquisition is otherwise 
permitted under federal law, but prohibit rights-of-way acquired under 
this provision from being developed in anticipation of the project 
until all required environmental reviews for the project have been 
completed.

    26102. High-speed rail technology improvements
      <bullet>  Emphasize that interoperability is a goal but should 
not exclude the opportunity for other technologies.

    26103. Safety regulations
      <bullet>  The FRA is directed to promulgate comprehensive, 
performance-based regulations for all HSR projects, which will allow 
innovation within individual projects and remove the barrier of slow, 
one-off Rules of Particular Applicability.
      <bullet>  The regulation may be a formalized rule based on 
previously constructed Rule of Particular Applicability.

    26104. Authorization of appropriations: Robust Funding
      <bullet>  Authorization of appropriations for High-Speed Rail 
Corridor Development are moved from 49 U.S.C. 26106 to this section.
      <bullet>  For five fiscal years after enactment, annual 
appropriations are authorized at
        <bullet>  $3 billion for High-Speed Rail Corridor Planning 
(previously $30 million annually over eight years),
        <bullet>  $3 billion for High-Speed Rail Technology 
Improvements (previously $30 million annually over eight years), and
        <bullet>  $35 billion for High-Speed Rail Corridor Development 
(highest authorization was $350 million in a year under the previous 
five year authorization).

    26105. Definitions
      <bullet>  Standardize definition of ``high-speed rail,'' which is 
defined as 125+ mph in this section and 110+ mph in the following 
section and add a definition of ``higher-speed rail'':
        <bullet>  Define ``higher-speed rail'' as passenger trains 
operating at top speeds between 110 and 186 mph, and
        <bullet>  Define ``high-speed rail'' as passenger trains 
operating at top speeds of 186 mph or more.

    26106. High-speed rail corridor development:
      <bullet>  Allow RRIF and TIFIA loans, which would be repaid by 
private, local, or state sources, to count toward the 20 percent state/
local share.
      <bullet>  Remove requirement for 20 percent non-federal source, 
and allow for project prioritization for projects where at least 20 
percent of the costs are funded through non-federal dollars (while 
still counting RRIF and TIFIA, as above, to count as non-federal 
dollars)
      <bullet>  Allow no more than 20% of funds to go toward higher-
speed rail development.
      <bullet>  Strike the ``regulations'' and ``appropriations'' 
subsections, which were moved into sections above.
      <bullet>  Add electrification to the existing list of significant 
improvements to intercity rail passenger service.
      <bullet>  Add TOD and increased access to affordable and moderate 
income housing alongside ``anticipated economic and employment 
benefits'' under factors that lead to greater consideration.
      <bullet>  Clarify that interstate agreements for HSR corridors do 
not constitute interstate compacts requiring federal approval.
      <bullet>  Prohibit spending timelines for grantees to avoid 
increased costs to meet artificial timelines.
      <bullet>  Require the Secretary of State to provide a 
Presidential Permit for Border Crossing to a grantee if the proposed 
route crosses a national border.
      <bullet>  Authorize advance acquisition of railroad right-of-way 
(similar to advance acquisition permitted for highway and transit 
projects) by allowing the Secretary to assist a grantee in acquiring 
right-of-way before the completion of the environmental reviews for any 
project that may use the right-of-way if the acquisition is otherwise 
permitted under federal law.
        <bullet>  Prohibiting rights-of-way acquired under this 
provision from being developed in anticipation of the project until all 
required environmental reviews for the project have been completed.
      <bullet>  Permit grants to be used to reimburse grantees for pre-
construction expenses incurred prior to award of a grant subsequent to 
the date of enactment of these amendments, at grantee's risk.

    Add Section 26107: Acquiring Freight Railroad Right-of-Way
    This new section creates an incentive for freight operators to 
sell, grant easement on, or lease freight-owned land along existing 
right-of-way for high-speed rail development. These tracts of land 
often represent the least costly path for HSR development, but also the 
least costly path for freight railroad expansion. Given this, and the 
fact that locating passenger rail service near a freight railroad 
introduces risk, the following provisions are included regarding 
freight railroads:
      <bullet>  Freight railroads may sell, grant an easement on, or 
lease land to a Section 26101 or 26106 grantee with zero federal tax on 
this revenue.
      <bullet>  Freight railroads that sell, grant an easement on, or 
lease land shall receive a federal tax credit equal to the amount of 
revenue from this activity to be applied in a year where the freight 
railroad purchases a like amount of land along the portion of right-of-
way affected.
      <bullet>  Freight railroads that sell, grant easement on, or 
lease land for high-speed rail development shall be granted the same 
liability protections granted to freight railroads that host Amtrak 
services (49 U.S.C. 28103).
      <bullet>  Capital investments or improvements made to freight 
railroad right-of-way (e.g. turnouts, passing track, signaling, 
crossings, etc.) by Section 26101 or 26106 grantees shall not be 
considered taxable income.

III.  Amend 49 U.S.C 5303 and 49 U.S.C. 5304: Incorporating 
Externalities into Transportation Plans to Improve BCA on 
Transportation Mode Investments, and Extending FTA's TOD Pilot Program 
for Transit-Oriented Development Planning

    Sections 5303 and 5304 provide the definitions and requirements of 
Metropolitan Transportation Planning and Statewide and Nonmetropolitan 
Transportation Planning, respectively, to develop long-range 
transportation plans and transportation improvement programs (TIP) 
through a performance-driven, outcome-based approach. The planning 
process already must consider nine different factors. These factors can 
be amended to include externalities and to require comparisons across 
these factors among modes of transportation (including requiring State 
Rail Plans) to capture the true positive societal return on investment. 
Additional factors should be evaluated, including:
      <bullet>  Value of land use for modes of transportation, which 
includes value of land dedicated to parking as an opportunity cost for 
highways;
      <bullet>  Benefit and cost streams and their present value, such 
as travel time savings, cost or expense savings, safety gains, and 
productivity gains;
      <bullet>  Outcome benefit measures for cumulative effects over 
the lifecycle of a transportation system, such as regional land 
development and economic development; and
      <bullet>  Public health and environmental costs of pollution and 
emissions.

    An additional amendment would extend FTA's Pilot Program for TOD 
Planning for 5 years and authorize $20 million annually. This pilot 
program would be amended to include communities where new HSR corridor 
development occurs among the factors leading to greater consideration.
    These amendments are important because 1) states, regions, and 
localities would be required to consider a more holistic BCA when 
making transportation planning decisions, 2) these plans and TIPs are 
required as part of Capital Investment Grant (CIG) applications, which 
could be used for improving transit systems connected to HSR corridors 
and potentially invest in projects required for HSR corridor 
development, and 3) localities would be provided an incentive for allow 
development of HSR within their communities (e.g. acquiring R-o-W, when 
curves must be eliminated from existing R-o-W forcing construction in 
new communities).

IV.  Amendments to 45 U.S.C. 822: Creating Flexibility for RRIF Loans:

      <bullet>  Specify that RRIF loans may be used for the non-federal 
share of a project if the loan is repayable from non-federal funds.
      <bullet>  Allow applicants to use federal funds to pay the credit 
risk premiums under RRIF loans.
      <bullet>  Authorize Better Utilizing Investments to Leverage 
Development (BUILD) grant funds to cover the subsidy cost of federal 
credit assistance under RRIF.
      <bullet>  Require the Secretary to repay the credit risk premium 
for recipients that have satisfied all obligations attached to RRIF 
loans.

V.  Amendments to 26 U.S.C. 142: Incentivizing Private Investment in 
Passenger Rail Projects

      <bullet>  Raise the 142(m) Highway or Surface Freight Transfer 
Facility private activity bonds (PABs) national limitation from $15 
billion to $30 billion.

    Private HSR developers are more likely to use 142(m) because there 
is the 142(i) volume cap at the state level for private entities, which 
leads to competition with other high-priority projects such as 
affordable housing, but 142(m) has nearly reached its national limit. 
The ubiquity of grade separation for HSR projects means that the use of 
Title 23 funds is common, thus qualifying these projects for 142(m), 
which is preferred for private entities given the state volume caps on 
142(i). Because public HSR developers could use either PAB, they are 
less impacted by this policy change, so this will incentivize more 
private HSR development.

VI.  Amendments to 49 U.S.C. 22905: Clarifying Labor Provisions

      <bullet>  Ensure that all entities that do traditional rail work 
employing workers in crafts or classes recognized under the Railroad 
Labor Act (RLA) are deemed carriers for the purposes of RLA and the 
Railroad Retirement Act (RRRA), with some reasonable exemptions for 
contractors.

    In many cases, only locomotive engineers and conductors are covered 
under the RLA and RRRA because business models have evolved such that 
operators no longer do all the work related to passenger rail service, 
with other companies completing other activities (e.g. maintenance of 
way, signal, maintenance of equipment). This amendment, which is a 
negotiated compromise by rail and building trades unions and the 
Association of American Railroads, aligns protections with 
Congressional intent.
                            Project Pipeline
    The following table is a non-exhaustive list of passenger rail 
projects ready for funding identified by APTA in May 2019. The projects 
included do not amount to full planning and development of all current 
federally-designated high-speed passenger rail corridors, indicating 
there is a sufficient supply of projects to justify robust investment. 
The inclusion of projects that are neither higher-speed nor high-speed 
rail reveals the need to refocus passenger rail funding in the U.S. to 
avoid developing lines with 20th-century technology.

------------------------------------------------------------------------
             Project                    Details          Estimate Cost
------------------------------------------------------------------------
California High Speed Rail        Connection between  $15 billion
 Authority (CAHSR), Valley to      San Jose and
 San Jose.                         Merced, part of
                                   the Silicon
                                   Valley to Central
                                   Valley HSR
                                   connection [225
                                   mph, electric,
                                   grid separated
                                   (GS), FEIS Nov.
                                   2020].
CAHSR, San Jose to San Francisco  Part of Phase I of  $2.3 billion
                                   CAHSR (225 mph,
                                   electric, GS,
                                   FEIS March 2021).
CAHSR, Palmdale to Burbank......  Part of Phase I of  $17 billion
                                   CAHSR (225 mph,
                                   elec., GS, FEIS
                                   early 2021).
CAHSR, Burbank to Anaheim.......  Part of Phase I of  $5 billion
                                   CAHSR (225 mph,
                                   elec., GS, FEIS
                                   June 2021).
Northeast Maglev, DC to           Phase I study area  $10+ billion
 Baltimore (DC, MD, PA, NY).       between
                                   Washington, D.C.
                                   and Baltimore, MD
                                   with a stop at
                                   BWI Airport.
                                   Currently
                                   preparing Draft
                                   EIS. Will use
                                   SCMAGLEV
                                   technology. (311
                                   mph, DEIS October
                                   2019).
High Desert Corridor, Palmdale    Essential eventual  $1.76 billion
 to Victorville.                   link to connect
                                   XpressWest with
                                   CAHSR (150 mph,
                                   elec. GS, June
                                   2016 FEIS,
                                   Revalidation late
                                   2020).
Xpress West (Virgin Trains USA).  Las Vegas to        N/A--privately
                                   Victorville to      funded
                                   achieve eventual
                                   connection with
                                   Los Angeles
                                   covering 185
                                   miles with 20
                                   minute headways
                                   (150 mph, elec.,
                                   GS, April 2011
                                   FEIS,
                                   revalidation late
                                   2019).
Brightline (Virgin Trains),       Extension of        $3.7 billion
 Miami to Orlando.                 current
                                   Brightline
                                   service
                                   eventually
                                   linking Miami-
                                   Orlando-Tampa (89
                                   and 125, non-GS,
                                   GS DMU, FEIS
                                   2015).
Brightline (Virgin Trains),       Extension of
 Orlando to Tampa.                 current
                                   Brightline
                                   service
                                   eventually
                                   linking Miami-
                                   Orlando-Tampa. In
                                   planning.
Texas Central Railways..........  Dallas-Brazos       $18 billion
                                   Valley-Houston      privately funded
                                   service covering
                                   240 miles with 30
                                   minute headways
                                   during peak (225
                                   mph, elec., GS,
                                   FEIS expected mid-
                                   2020). Privately
                                   funded but
                                   potential for
                                   public
                                   partnership for
                                   extension (e.g.
                                   into Fort Worth).
Denver to Eagle (CO) Rail.......  Automated Guideway  $5.1 billion
                                   System over
                                   separated ROW on
                                   I-70 Mountain
                                   Corridor (150
                                   mph, EIS/ROD
                                   2005).
Cascadia Ultra-High-Speed Ground  Portland-Seattle-   $24-42 billion
 Transportation (WA, OR).          Vancouver service
                                   (225 mph, elec.
                                   GS, pre-NEPA,
                                   completed
                                   feasibility and
                                   business case
                                   studies).
New Orleans to Mobile Rail......  Passenger rail
                                   service
                                   connecting New
                                   Orleans, LA to
                                   Mobile, AL. In
                                   planning.
Phoenix to Tuscon Rail..........  Passenger rail
                                   service
                                   connecting
                                   Arizona's two
                                   largest cities.
                                   (ROD December
                                   2016).
Hartford to Springfield Rail....  Passenger rail      $432.6 million
                                   service
                                   connecting
                                   Hartford, CT and
                                   Springfield, MA
                                   (89-110 mph, non-
                                   GS, DMUs).
Fort Collins to Pueblo (CO) Rail  173-mile route
                                   over existing
                                   Class 1 ROW (80
                                   mph). In planning.
Northeast Corridor Commission...  Corridor            $28.9 billion
                                   enhancements for
                                   Amtrak's highest
                                   volume line (160
                                   mph, elec., GS,
                                   ROD July 2017).
Richmond to D.C. Rail...........  Part of Southeast   $1.7 billion
                                   High Speed Rail
                                   (SEHSR) Corridor
                                   (110 mph, draft
                                   tier 2 EIS 2017).
New Orleans to Jacksonville Rail  New Orleans-
                                   Gulfport-Mobile-
                                   Tallahassee-Jacks-
                                    onville as part
                                   of Service
                                   Southern Rail
                                   Commission. In
                                   planning.
Atlanta to Charlotte Rail.......  Part of the         $1.6 billion
                                   Atlanta to
                                   Charlotte
                                   Passenger Rail
                                   Corridor
                                   Investment Plan
                                   (PRCIP), service
                                   from Atlanta to
                                   Charlotte (110
                                   mph, Tier 1 EIS
                                   initiated 2013).
Chicago-Iowa City-Omaha Rail      Chicago-Quad        $1.2 billion
 (IA, IL, NE).                     Cities-Iowa City-
                                   Des Moines-
                                   Council Bluffs/
                                   Omaha passenger
                                   rail service (79
                                   mph, final Tier 1
                                   EIS May 2013).
Chicago-Detroit Rail............  Further rehab and   $2.98 billion
                                   increased
                                   capacity on
                                   existing lines
                                   between Detroit
                                   and Chicago (89
                                   mph, non-GS,
                                   DMUs).
Chicago-St. Louis High-Speed      Enhanced service    $2 billion
 Rail.                             between Chicago
                                   and St. Louis,
                                   including full
                                   build out of
                                   second track (89
                                   mph, non-GS,
                                   DMUs).
Chicago-Milwaukee-Twin Cities     Improved passenger
 (IL, WI, MN).                     rail service
                                   between Chicago,
                                   Milwaukee,
                                   Minneapolis-
                                   St.Paul, part of
                                   the Midwest
                                   Regional Rail
                                   Initiative
                                   vision, will
                                   eventually link
                                   to existing
                                   Amtrak Hiawatha
                                   service (79 mph).
Baton Rouge-New Orleans Rail....  Rail service
                                   connecting LA's
                                   two largest
                                   cities. In
                                   planning.
East-West Passenger Rail Study    Boston-Worcester-   TBD
 (MA).                             Springfield-
                                   Pittsfield
                                   corridor,
                                   currently
                                   conducting
                                   initial study of
                                   build
                                   alternatives.
Northern Lights Express (NLX      Connect             $820 million
 Project).                         Minneapolis and
                                   Duluth on 152
                                   miles of track
                                   with 2.5 hour
                                   travel time and 3-
                                   4 round trips per
                                   day (89 mph, non-
                                   GS, FONSI
                                   February 2018,
                                   Tier 2 EA).
St. Louis-Kansas City Rail......  Capacity            $0.5-$1 billion
                                   improvements
                                   between St. Louis
                                   and Kansas City.
Richmond to Raleigh Rail........  Part of SEHSR       $240.18 million
                                   Corridor (110
                                   mph, Tier 2 EIS
                                   2012).
NY-Albany-Buffalo-Niagara Falls   Enhanced service    $1.66-$14.71
 Rail.                             on 463-mile         billion
                                   corridor between
                                   NY, Albany,
                                   Buffalo, Niagara
                                   Falls (89 mph or
                                   125 mph, DEIS
                                   2014).
OKC to Fort Worth Rail (OK, TX).  Oklahoma City to
                                   Dallas-Fort Worth
                                   (79 mph or 250
                                   mph, ROD June
                                   2017).
Oregon Passenger Rail...........  Portland-Eugene     $1 billion
                                   passenger rail
                                   over a 125-mile
                                   segment (89 mph,
                                   non-GS, DMUs,
                                   DEIS October
                                   2018, FEIS).
Keystone Line...................  Improved passenger  $1.5-$13.1 billion
                                   service on
                                   Keystone line
                                   between
                                   Philadelphia,
                                   Harrisburg, and
                                   Pittsburgh (125
                                   mph).
------------------------------------------------------------------------

                                 <F-dash>
 Article entitled, ``Nine key takeaways from the Globe's `Blind Spot' 
 investigation,'' by Matt Rocheleau, Vernal Coleman, Evan Allen, Laura 
Crimaldi, and Brendan McCarthy, Boston Globe, updated August 25, 2020, 
             Submitted for the Record by Hon. Seth Moulton
    Nine key takeaways from the Globe's ``Blind Spot'' investigation
by Matt Rocheleau, Vernal Coleman, Evan Allen, Laura Crimaldi, and 
Brendan McCarthy

Boston Globe, updated August 25, 2020
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                        Lane Turner/Globe Staff

    For nearly a year, Globe reporters scoured crash data and records 
and found that menacing drivers across the country are escaping 
scrutiny--and remaining on the road--due to bureaucratic neglect. These 
failures have been deadly.
    The Globe's ``Blind Spot'' investigation examines the hidden 
dangers on America's roads and found glaring problems with how drivers 
are licensed and how the trucking industry is regulated.
    Here are some of the key takeaways from the Globe's reporting.
1. There's no system to effectively track driving offenses between 
        states
    Despite nearly 50 years of warnings by federal road safety 
officials, the United States still has no effective national system to 
keep tabs on drivers who commit serious offenses in another state. 
Enforcement relies on state agencies to do their job, which they often 
don't. It is a gap that puts everyone at risk every time we take to the 
road.
2. This has had lethal consequences
    One example of this was on display last summer when seven 
motorcyclists were killed in New Hampshire crash. Volodymyr Zhukovskyy, 
a 24-year-old truck driver with an atrocious record, allegedly crossed 
the center line and crashed into the motorcyclists. His driver's 
license should have been suspended at the time of the crash but 
remained valid due to lapses at the Massachusetts Registry of Motor 
Vehicles.
    The Globe identified seven other people killed in recent years by 
drivers with past violations that should have kept them off the road. 
There are unquestionably many more, but restrictive state rules on 
driver data make compiling a true tally almost impossible.
3. The scope of the problem is massive
    A major company that collects and analyzes bulk driver data told 
the Globe it estimates more than one in 10 drivers across the nation 
has at least one offense--ranging from speeding to vehicular homicide--
that isn't reflected on the official record. Another data collection 
company reported a similar trend.
    In a nation of 227 million licensed drivers, that would add up to 
more than 22 million unaccounted-for offenders, among them, almost 
certainly, thousands, perhaps millions, who should have lost their 
licenses, temporarily or permanently.
4. Sloppy recordkeeping, outdated communication, and neglect are to 
        blame
    The United States counts on 50 state registries, plus the District 
of Columbia, to police themselves and alert others when an out-of-state 
driver breaks the law.
    Often, the Globe found, states fail in this duty: Some neglect to 
send warnings about dangerous drivers; some receive notices but don't 
bother to read and record them.
    And, even in this era of instant communication, agencies nationwide 
still rely on mailing paper documents to directly notify each other 
about infractions by out-of-state passenger drivers--a slow, labor 
intensive process that is prone to administrative failures.
    Seven states--including California, Arizona, New Hampshire, and 
Rhode Island--have for years sent no direct mail notices at all, making 
them islands of irresponsibility in the world of highway safety.
5. There are major gaps in oversight of the increasingly deadly 
        trucking industry
    After more than a decade of declines, the frequency of fatal 
crashes involving trucks shot up by 41 percent between 2009 and 2017. 
In 2017, the last year for which complete statistics are available, 
4,761 people died in crashes involving large trucks on American roads. 
That's one person every two hours. That's a Boeing 737 plane crash 
every two weeks.
    And violations among trucking companies are common. Recent research 
commissioned by trucking companies themselves suggests that 300,000 
undetected drug users are currently piloting trucks.
6. Many trucks are poorly maintained to the point of peril
    Federal statistics show that, on average, one in five of the more 
than 4 million trucks regulated by the FMCSA is in such disrepair that 
if it were stopped by safety inspectors, it would immediately be taken 
out of service.
    Yet, the federal agency responsible for protecting American drivers 
from dangerous truckers, the Federal Motor Carrier Safety 
Administration, has allowed whole swaths of the industry--most 
strikingly, small upstart companies--to operate with minimal or no 
oversight, the Globe found.
7. How did it get this way?
    The FMCSA simply lacks the firepower to wrangle a sprawling 
industry with a fierce independent streak, which some safety advocates 
liken to the Wild West.
    The agency employs only about 1,200 people to oversee a sector with 
half a million companies that is growing by more than 30,000 businesses 
every year. The agency has no centralized way to check the backgrounds 
of drivers, and drug testing requirements are inadequate.
    Compliance with many of the agency's requirements is increasingly 
monitored remotely, often with paperwork that companies simply send in, 
with little verification or first-hand observation.
    The FMCSA does get information from traffic stops by police and 
unannounced roadside inspections conducted by state regulators. But 
that provides a haphazard picture at best: More than a million of the 
4.6 million commercial vehicles the FMCSA regulated in 2018, for 
example, were not stopped once through the entire year, according to 
federal statistics.
8. The problems are most glaring with fledgling companies
    New trucking companies are required by the FMCSA to file reams of 
paperwork before they can open up shop, promising that they understand 
and will comply with regulations, but no one from the agency makes them 
prove it.
    No one checks whether they're telling the truth about their 
background. There's no vehicle inspection, test, or in-person safety 
audit before a new company is allowed to put vehicles 20 times the size 
of passenger cars out on the highway.
    This means that companies operate unproven during their early, 
formative months in business, the very time when they are most in need 
of oversight. Federal statistics from 2015 show that new companies have 
a crash rate almost 60 percent higher than established ones.
9. Attempts to bolster trucking oversight have also fallen short
    The National Transportation Safety Board sees itself as ``the 
conscience and the compass of the transportation industry,'' but it 
doesn't regulate the industry. Since 1971, the federal agency has been 
issuing and reissuing the same plaintive warning: The regulatory system 
that is supposed to keep trucking safe is full of loopholes that cost 
lives.
    In 2020, the Department of Transportation spent 25 times more 
overseeing aviation than trucking, reflecting, in part, the headline-
grabbing nature of plane crashes that make air safety a national focus. 
By contrast, trucking disasters that kill two or four or six at a time 
rarely capture the nation's attention, and there is little public 
pressure for change.

                                 <F-dash>
   Requests for Information During Hearing, and Responses from Caren 
  Kraska, President and Chairman, Arkansas and Missouri Railroad, on 
  behalf of the American Short Line and Regional Railroad Association

         Requests for Information from Hon. Randy K. Weber, Sr.

    Request 1. Is it determinable what percentage of short line 
railroad employees were put on hold or lost their jobs as a result of 
the COVID pandemic as compared with the major railroads?
    Response. In general, very few short line railroad employees were 
furloughed or laid off during the pandemic. Short lines have always run 
pretty lean operations, and even though the disruptions at the 
beginning of the pandemic were quite severe, it quickly became apparent 
to many short lines that business would largely come back relatively 
soon, so most of us avoided lay-offs. Additionally many of our 
operating and maintenance work is done out of doors where social 
distancing was easier. For short lines, our businesses oftentimes are--
and feel like--family-run businesses, and we strive to maintain 
excellent relationships with our employees and shippers and 
communities. Now that we're a year into the pandemic, I can tell you 
that at least with my short line, I'm looking to hire more people! 
Going forward, short lines have an opportunity to thrive and grow and 
continue to be a good source of jobs in small towns and rural America 
and support our shippers and their job creation too. As I indicated 
especially in my written testimony, Congress can help in the following 
ways:
    i.  CRISI: Increase the overall size of the CRISI grant program and 
ensure that short lines can continue to compete by not having big new 
set-asides within CRISI for projects/applicants that don't include 
short lines (commuter, mega-projects, etc).
    ii.  No truck size and weight increases, which would shift traffic 
away from rail--the safest and most environmentally friendly form of 
surface transportation--and onto the highway, which as I noted would do 
irreparable harm to my business. Indeed, for many short lines that harm 
would result in a loss of jobs.
    iii.  Other grant programs: Ensure short line railroad projects can 
access funding through programs like INFRA, BUILD, and any new 
transportation grant programs targeting emissions and congestion 
reduction by including freight rail project eligibility and maintaining 
rural and small project participation.
    iv.  No Crew Size Mandate: There is no safety need or benefit for a 
mandate, and even though most of our trains use two person crews now 
this would impede development and adoption of new safety technologies 
and hamper our ability to compete in the future. Short lines seek to 
use the right crew size for the type of work they do.
    v.  On the environmental side, we think the most meaningful way to 
reduce emissions is to institute policies that help move freight off of 
the highway onto rail (the above ones, plus turning the Highway Trust 
Fund back into more of a user-pay system), but as far as railroads 
themselves getting even cleaner, we'd be supportive of expanding and 
improving the Diesel Emissions Reduction Act (DERA) program and also of 
increased FRA R&D funding to support R&D on even-cleaner locomotives.

    Request 2. Was there a time when short line railroads were not 
available for the major railroads, and there was a freight hold up? Any 
facts or figures on that?
    Response. No, we are not aware of any situations where short lines 
were not available. While we did have many customers that were 
dramatically shifting what, how much, and where they shipped, short 
lines worked hard to be available for our shippers and to customize 
service to them as needed. We pride ourselves on operating 24 hours a 
day, seven days a week, 365 days a year, providing critical 
transportation for America's agricultural, energy, manufacturing and 
other businesses, and that has never been more true than during the 
pandemic where the industry was critical to our national commerce. That 
being said, the short line business is a tough business with some major 
challenges, and we would welcome Congress's assistance on various 
fronts that I mentioned especially in my written testimony including 
the CRISI program, as well as INFRA or PNRS and the National Freight 
Network, and programs such as DERA and R&D programs at the FRA. 
Additionally, as I noted in my written comments, I urge the Committee 
to avoid any increases to Truck Sizes and Weights limits.

    Request 3. Have the HVAC or air systems of the locomotives, train 
systems, or office systems been redesigned because of the pandemic?
    Response. We installed germicidal UV purification filtration 
systems in five of our business cars as well as in our depot. In the 
Main office and Agency, we installed four units of I-wave induction air 
cleaners. Obviously, these did have a cost impact.

             Request for Information from Hon. Tim Burchett

    Request 4. What unique challenges do short lines face, and how can 
Congress help improve operational flexibility for those small 
businesses? How can we get off your back and make your life a little 
easier? Could you name me a couple of those (regulations)? I know, I've 
kind of put you on the spot. Just a couple maybe we could address at 
some point.
    Response. To begin with, the industry has a couple of pending 
deregulatory efforts that we support. One is the Electronic Air Brake 
Slip System (eABS) rulemaking effort, which proposes to revise 49 CFR 
Part 232, addressing the use of electronic airbrake slips to track 
mechanical inspections and freight car mileage. This proposed rule will 
modernize and improve FRA's existing air brake inspection regulations 
and to implement certain proposals in AAR's 2019 petition for 
rulemaking on the same topic. The NPRM proposals would not only 
increase the efficiency of railroad operations, but would advance 
railroad safety, reduce injury exposure to railroad employees, and 
result in significant climate, economic, and other societal benefits.
    Another is the 24 Hours Off Air regulatory change from late 2020. 
This was a good, data-driven FRA regulatory change that will reduce 
carbon emissions without compromising safety. The final rule, 
``Miscellaneous Amendments to Brake System Safety Standards and 
Codification of Waivers,'' permits rail cars that have been ``off-air'' 
for up to 24 hours, or up to 48 hours if FRA is notified, to operate 
without receiving a brake test based solely on time off-air. The 
reflects advancements in air brake technology over the decades, 
harmonizes U.S. and Canadian operations, and reduces compliance costs 
and increase efficiency for the industry without any adverse impact on 
safety. Additionally, the rule is projected to eliminated 92,500 hours 
of locomotive idling per year, resulting in a reduction of 3,600 tons 
of CO2 emissions annually. Unfortunately, two labor unions have filed a 
lawsuit against FRA on the rule. The rail industry aims to be a partner 
in finding environmentally-friendly solutions, and we would hate to see 
the benefits of this rule get set aside. We understand the FRA is 
considering its options regarding defending the rule and responding to 
the labor lawsuit at the moment.
    Regulations that are unnecessary and should be dropped include the 
49 CFR Part 243 Minimum Safety Training Standards. This is a set of 
regulations that sit on top of all the existing regulations. In other 
words, this is a regulation that mandates how railroads should train 
employees to meet already existing regulations. It's been unnecessary 
from the very beginning although we acknowledge FRA was required to 
implement some rule in the wake of provisions set forth in the 2008 
Railroad Safety Improvement Act (Public Law 110-432). We would welcome 
revision or elimination of this unnecessary requirement the next 
surface transportation bill.
    As a general proposition some of the most damaging regulations for 
short lines are those that are characterized by ``one size fits all.'' 
Short line operations are far different from Class I operations. We run 
shorter trains, for shorter distances, and at slower speeds. These 
differences need to be taken into account by those regulating the 
industry.

            Request for Information from Hon. Dusty Johnson

    Request 5. I thought you did a really good job, particularly in the 
attachment to your testimony, walking through the incredible benefits 
of the 45G tax benefit, how it has increased safety, improved 
investment. I also that your testimony did a good job walking through 
specific improvements that could be made to the INFRA program to make 
it more usable for short lines.
    With regard to 45G, the short-line rail tax credit, is there 
anything Congress should be looking at to make that even more effective 
for you all?
    Response. The investment tax credit for the short line railroads 
under Section 45G of the Internal Revenue Code achieved permanency 
under law with the passage of the 2020 Continuing Appropriations Act 
(CAA) (PL 116-260). Because it had previously been periodically renewed 
under various tax extenders enactments, the implementation date where 
eligibility is restricted to those short line railroads in existence as 
of 2015 was a carryover from previous years' bills. The American Short 
Line & Regional Railroad Administration is currently measuring the 
number of short line railroad miles added through purchases and leases 
since 2015 that are not eligible for the $3,500 tax credit for per 
mile. Making the implementation date current to 2021 and then 
periodically updating it to enable additional eligibility would aid 
short line railroads in their investment and capital expenditure 
certainty, which aids industries needing transportation access, 
contractors, and consumers across the country. While we don't want to 
be greedy, and we primarily want to convey sincere appreciation for the 
existence of the credit, I would note since you asked that the need for 
track rehabilitation far exceeds the amount supported by the credit. An 
increase from $3,500 per mile either through a one-time step increase 
or indexing to inflation would be a very welcome improvement and a very 
efficient way to provide tax efficacy and support short lines in South 
Dakota and all over the country.



                                Appendix

                              ----------                              


    Questions from Hon. Donald M. Payne, Jr. to Shannon Valentine, 
         Secretary of Transportation, Commonwealth of Virginia

    Question 1. Can you tell us why you see rail as such a great 
investment for Virginia, and whether you think that passenger rail will 
help address equity in transportation?
    Answer. Virginia's multimodal vision for transportation seeks 
optimal solutions through corridor planning studies, analysis of all 
modes of transport and innovative options. At the heart of this work is 
a balance between benefits and costs, with a focus on identifying the 
``right'' solution. As I mentioned during your subcommittee meeting, 
the I-95 corridor is heavily congested. Virginia's I-95 analysis found 
that widening the highway by one lane in each direction for 50 miles 
would cost $12.5 billion and that, by the time that additional capacity 
was built in ten years, the corridor would be just as congested as it 
is today. This proposed solution was both unaffordable and ineffective. 
Virginia therefore chose to pursue rail and partner with CSX, Amtrak, 
and VRE to provide the additional capacity in the corridor for $3.7 
billion--a third of the cost.
    Passenger and commuter rail service also allows us to develop a 
multimodal system that is more equitable and more inclusive. While 
current transportation infrastructure is predominantly car-dependent, 
the cost of car ownership--more than $9,000 per year according to AAA 
(including insurance, fuel, and maintenance), not to mention parking in 
large cities--is not affordable, desirable, or even possible for many 
citizens.
    Transforming Rail in Virginia also contemplates issues of equity 
such as increased access to jobs and improvement in quality of life for 
all. The new service plan for Amtrak and VRE includes late-night and 
weekend service for an important reason. We know that many jobs--
especially in the service sectors--are not 9 to 5, Monday through 
Friday. That is why we worked with CSX, Amtrak, and VRE to add trains 
leaving Washington in the late evening as well as on the weekends. We 
needed to match train schedules to the reality of our 21st-Century 
economy. The added train service to Richmond and Hampton Roads also 
creates a more connected Commonwealth by offering multiple safe and 
reliable transportation alternatives.
    Finally, because the Commonwealth is an owner and partner in the 
rail corridor, we have the opportunity to explore pricing options to 
maximize ridership and accessibility for all people.

  Questions from Hon. Seth Moulton to Shannon Valentine, Secretary of 
                Transportation, Commonwealth of Virginia

    Question 2. In the last 20 years, housing prices have increased by 
9.4 percent, or as much as 28.3 to 79.3 percent in major cities, and 
the highest-paying jobs are increasingly located in our most expensive 
cities. This creates inequities in housing and employment 
opportunities, where the best wages are inaccessible to workers in more 
affordable communities without spending hours on our congested 
highways. China inaugurated its first high-speed rail line in 2008 and 
now has the largest national network in the world. As a result, 
regional economic disparity decreased by 25.7 percent through increased 
access to economic opportunities. The federally-designated Southeast 
High-Speed Rail Corridor includes Raleigh-Richmond-Washington, D.C.
    With the proper Federal support and framework, what role could 
fast, frequent, and reliable high-speed rail service play in connecting 
Virginians to affordable housing markets and economic opportunities 
across this corridor?
    Answer. Faster, frequent, and reliable passenger rail service can 
be a lifeline for our workforce--creating access to more affordable 
communities, delivering a more predictable travel option, and opening 
opportunities beyond the boundaries of large urban centers. In many 
circumstances, dependable rail service enhances quality of life by 
giving people back the hours previously spent in congestion. Every year 
in Virginia, vehicle travelers experience 230 million hours of delays, 
resulting in $6.5 billion in annual congestion costs.
    The statistics you quote explain why businesses are also so 
supportive of expanded rail service, as they are acutely aware of the 
importance of affordable travel options in attracting and retaining the 
best, brightest and most diverse workforce.
    In Virginia, addressing this need means connecting residents of 
small- and medium-sized towns and cities--where housing can be more 
affordable--to Washington, DC, and the Northeast Corridor or to points 
south such as Raleigh and Charlotte, NC. For example, along the I-95/I-
64 Corridor, rail connects communities such as Norfolk, Newport News, 
Richmond, Fredericksburg and Alexandria; the route along the I-29/I-81 
Corridor includes Roanoke, Lynchburg, Charlottesville, Culpepper and 
Manassas. Intercity bus service is also an integral part of this 
multimodal network, especially important for connecting rural 
communities to centers of commerce.

    Question 3. High-speed rail also stimulates economic growth around 
stations, builds walkable communities, and can be a tool for equitable 
transit-oriented development. By comparison, the legacy of many of our 
highway projects is the disruption of communities, often low-income 
communities and communities of color.
    What types of policies at the Federal and state level can support 
such growth around high-speed and intercity passenger rail corridors 
and stations?
    Answer. As you have noted, rail projects such as the program of 
projects in Virginia that will double passenger rail service and expand 
commuter rail by 60 percent along the I-95 Corridor will help to 
stimulate economic development and housing in the vicinity of rail 
stations--leading to livable, walkable, pedestrian-friendly communities 
not dependent on cars for transportation. As investments are made, we 
want to be deliberative about creating economic opportunity for all 
people.
    The Federal government can support this development by linking 
funding to equitable economic development policies, ensuring a 
connection between the local, regional and state governments on land 
use strategies--a critical factor in the success of multimodal 
networks--supporting equitable access.
    One of the obstacles to expanding intercity passenger rail service 
in the United States is that rail has been undercapitalized for many 
years. Predictable, multi-year Federal grants for passenger rail 
projects or a program of projects would significantly encourage and 
support state investments in rail enhancement and expansion. This kind 
of sustainable Federal funding would be transformative for intercity 
passenger rail that connects communities across the nation via a 
national rail network.

    Question 4. The transportation sector is the leading driver of 
greenhouse gas emissions in the U.S. at 28 percent. High-speed accrues 
greater environmental gains than other modes due to lower emissions, 
more efficient land use, and ridership capture from highways and 
aviation. Like plans for the Southeast High-Speed Rail Corridor, there 
are contiguous city pairs across the country that would support such 
service.
    Can you speak to the potential environmental benefits of your 
current passenger rail projects, and how would you expect developing 
the Southeast High-Speed Rail Corridor to impact the environmental 
benefits that passenger rail can bring to Virginia? Considering the 
Texas Central project alone is forecasted to reduce emissions by 4.5 
million tons, do you believe any other mode has as much potential to 
drastically reduce emissions in intercity travel?
    Answer. Rail has the potential to drastically reduce emissions from 
intercity travel. As we create infrastructure for passenger, commuter 
and freight rail, we also are moving more goods and more people in an 
environmentally sustainable way. According to the American Public 
Transportation Association (APTA), rail travel emits up to 83 percent 
fewer greenhouse gases than driving and up to 73 percent fewer than 
flying. The Long Bridge Environmental Impact Statement estimated that 
CSX would expand its freight service in this corridor from 18 trains 
per day now to 42 in 2040. For a company that moves one ton of freight 
508 miles on a single gallon of fuel, this provides four times the fuel 
savings and environmental benefits than moving freight on our highways.
    The total truck Vehicle Miles Traveled--VMT--reduced by the Long 
Bridge project alone in the fifth year after construction is 482 
million. VMT reduced for cars is 332 million in that fifth year. This 
results in a reduction of the consumption of 66 million gallons of 
diesel fuel and 10 million gallons of gas in that year.
    A cost-benefit analysis developed by Kimley-Horn reveals that in 
that fifth year, the Commonwealth would experience environmental 
benefits in terms of:
    <bullet>  474,000 metric tons of carbon dioxide emissions avoided 
due to moving freight by rail, and
    <bullet>  90,000 metric tons of carbon dioxide emissions avoided 
due to passenger rail trips added,
    <bullet>  for a total value of avoided carbon emissions of 564,000 
metric tons.

    These are not cumulative statistics, but simply represent the 
environmental benefit in a single year.
    From FY 2010-2019, Virginia's regional trains handled a total of 
1.57 billion passenger miles, prevented the burning of 33.2 million 
gallons of fuel, and avoided the release of 295,000 metric tons of CO2 
emissions.

    Question 5. You shared information about the multimodal analysis 
you conducted in determining a path forward for Virginia. That truly 
makes your approach unique when we are seeking efficiency and volume 
solutions in our people and freight transportation networks.
    Can you share more details to help us understand how the current 
system in the United States and in states is stacked against doing this 
type of multimodal analysis, and how might the Federal Government help 
address any barriers to support state DOTs to do the work you have done 
in Virginia?
    Answer. Virginia conducts Corridor Planning Studies along major 
networks to identify the smartest transportation solutions. Without 
predetermining the outcome, we look across a mix of transportation 
improvements with this question in mind: How do we move the most people 
and goods in the most effective way, balancing those improvements with 
available funding as well as neighborhood and community concerns? As a 
result, this work has generated multimodal solutions including rail, 
transit, transportation demand management techniques, multi-use trails, 
highway infrastructure and operational improvements--and often a 
combination of solutions all working together.
    From the Federal perspective, may I offer the following:
    <bullet>  While highways and transit have designated, predictable, 
multi-year funding opportunities, passenger and commuter rail do not. 
Establishing this opportunity would encourage state investments to 
leverage funding and provide for more significant improvements and 
enhancement of rail systems.
    <bullet>  Formula funding that is limited only to the planning and 
construction of one particular mode of transportation is important. 
However, it can also limit innovative, multimodal solutions. 
Introducing discretionary funding options that support multimodal 
solutions would not only open states to more than one transportation 
solution, it would strengthen collaboration and a more seamless 
transportation network--again, with all modes working together.
    <bullet>  More specifically for rail, policies that support 
passenger, commuter and freight rail would promote more state rail 
investment. For example, Transforming Rail in Virginia is based on 
improving passenger, commuter (transit) and freight rail. This 
initiative does not fit into any one category. Developing opportunities 
that benefit all types of rail service would create a collaborative 
versus competitive environment for working with Class 1 railroads, 
Amtrak and commuter rail services to establish solutions that are 
viable for rail transportation. This collaboration would allow the 
focus to be on customer service and the reliability and performance of 
the nation's rail network.

   Question from Hon. Scott Perry to Shannon Valentine, Secretary of 
                Transportation, Commonwealth of Virginia

    Question 6. In your testimony, you highlight the following 
statistic that you shared at the 10-year anniversary of the 
inauguration of the first state-supported Amtrak route in Lynchburg, 
Virginia:

        ``In 2009, [passenger] rail reached 49 percent of Virginians 
        and 53 percent of jobs. Today, rail reaches 77 percent of 
        Virginians and 88 percent of jobs. In other words . . . not 
        enough.''

    There are a couple of issues with this statement that have 
important implications for the economic and environmental 
sustainability of passenger rail. The use of rail connectivity rather 
than the percentage of passenger travel and commute travel creates a 
misleading statistic that incentivizes the buildout of rail service 
without regard to actual ridership or the preferences of Virginia 
travelers.
    A significant portion of the increases in population and jobs 
connected is a reflection of the outsized population and job growth in 
areas previously serviced by rail lines--particularly, the DC metro 
area accounting for around 40 percent of population and jobs--as well 
as two-thirds of population growth since 2010.
    Moreover, in 2019, 88 percent of Virginians drove to work--76.7 
drive alone and 9.1 carpool--compared to 4 percent of Virginia 
commuters that used all forms of public transportation. In fact, public 
transportation's percentage of commuters has actually dropped from 
2009-2019--a pre-pandemic trend that call into question a post-COVID 
recovery.
    The buildout of additional rail lines to areas without the 
population density to support ridership and increasing service beyond 
the demand does not yield environmental or economic benefits. Funding 
politician-preferred modes of transportation rather than consumer-
preferred modes creates a misallocation of resources that creates 
congestion problems along our roadways. This increases vehicle 
emissions on top of the emissions produced by inefficient passenger 
trains that remain unfilled. The increased congestion is then used to 
justify additional spending on inefficient passenger modes--like the 
study of the I-95 corridor you cited in your testimony. The negative 
effect of these facts on the economy and the environment are 
concerning. Given these concerns, V-DOT's support of a new passenger 
rail grant program is concerning.
    Can you please explain why Federal taxpayers should allocate even 
more resources to VA State-supported routes when it's clear they don't 
reflect Virginia traveler preferences?
    Answer. In my testimony I stated, `` . . . in other words--not 
enough.'' This statement was intentional. The referenced statistics do 
not reflect the demand for rail nor the accessibility of rail to all 
people.
    In 2019, Virginia Rail Express (VRE) was averaging more than 19,000 
trips a day, and Amtrak carried nearly 1 million riders on our state-
supported routes--a 680 percent increase since the inception of this 
Virginia-supported Amtrak service in 2009. For the first five months of 
FY 2020 (October 2019-February 2020), monthly ridership on Virginia's 
Amtrak regional trains averaged 14 percent higher--approximately 10,000 
more passengers per month--than the same months in FY 2019. In fact, 
with 68,337 riders in January 2020--a 21 percent growth over the 
previous January's numbers--it was the best January for ridership.
    Virginia's most profitable rail line--and one that carries the 
train with the highest ridership--is along the 29 Corridor originating 
in Roanoke and connecting through Lynchburg. This route is one of the 
most profitable Amtrak routes in the nation.
    As we emerge from the pandemic, Virginia-supported trains are 
experiencing ridership of 30-50% pre-pandemic numbers and growing, with 
the Roanoke train leading the way. Traffic on Virginia's highways is 
increasing as well and has already reached 85-90% of pre-pandemic 
levels--with I-95 already at 90 percent.
    The population of Virginia is expected to grow from 8.5 million to 
10 million over the next 25 years, with 20 percent growth expected in 
Northern Virginia. For I-95, with some of the worst congestion in the 
country, multimodal options are critically important. Increased 
passenger rail service will help meet the growing demand not only in 
Virginia, but throughout the East Coast as an alternative to traveling 
the heavily congested I-95 corridor.
    However, due to the capacity constraints posed by the two-track 
Long Bridge, we are not able to address this congestion and offer rail 
as an alternative. What makes this even more significant is a recent 
Greater Washington Partnership survey indicating that, while 58 percent 
of the region's employers have implemented full-time telework, only one 
percent expect their employees to continue to work remotely full time 
once we emerge from the pandemic.
    The Long Bridge is a critical piece of infrastructure with national 
significance. The construction of a new Long Bridge across the Potomac 
dedicated to passenger and commuter rail will support the economic 
vitality of the nation by significantly expanding rail capacity and 
providing critical network redundancy to support and enhance passenger 
rail--as well as multimodal freight movement along the east coast and 
to the Midwest. This bridge will also connect workers to key employment 
centers. It is a vital link connecting the Northeast and Southeast 
corridors.
    The project will bolster performance of the freight network by 
unlocking much needed capacity on the existing, CSX-owned bridge, that 
is currently at 98% capacity during peak periods. The next closest rail 
bridge is 70 miles away (as the crow flies) in Harpers Ferry, West 
Virginia. Any prolonged shutdown of the bridge would have ripple 
effects on the economies of states up and down the East Coast, and have 
national security implications as well. The expansion will also improve 
network performance by separating freight and passenger rail, while 
relieving gridlock across the mid-Atlantic. Without additional 
capacity, freight trains will experience ten times the current delay by 
2040.
    Rail will play an important role to ensure economic growth 
continues not just in Virginia, but globally, as the Port of Virginia 
is an international gateway for the mid-Atlantic region. The Port of 
Virginia handles 4 million containers annually from all around the 
world. Currently, the Port moves a greater percentage of its containers 
by rail--35 percent--than any other port along the East Coast, with a 
goal of increasing that movement to 40 percent. In short, expansion of 
rail is vital to America's future economic success.

       Question from Hon. Seth Moulton to Greg Regan, President, 
               Transportation Trades Department, AFL-CIO

    Question 1. Countries like Morocco and oil-rich Saudi Arabia have 
inaugurated electrified high-speed rail, while the U.S. still has zero 
operating lines despite designating Federal high-speed rail corridors 
decades ago. I introduced the American High-Speed Rail Act to plan and 
develop those corridors. It is estimated to create 2.6 million jobs, 
not just on the coasts and in major cities but across congressional 
districts as you correctly note, while transforming our economy in the 
long-term through various economic and environmental benefits.
    What would the Federal Government's recommitting to building high-
speed rail corridors mean for jobs and workers, such as those you 
represent, and would you support such an effort in a major jobs and 
infrastructure package or surface transportation reauthorization bill?
    Answer. The development of high-speed rail promises to connect 
communities more efficiently and drive new economic development within 
them. It will also create thousands of good union jobs in construction 
and manufacturing as well as jobs operating and maintaining these 
railroads. We strongly support efforts to provide funding for high-
speed rail projects in a surface transportation reauthorization and/or 
in an infrastructure package, and call for these funds to be 
conditioned on the labor protections and procurement requirements that 
have for decades ensured federally funded rail projects create good 
jobs.

Question from Hon. Scott Perry to Greg Regan, President, Transportation 
                       Trades Department, AFL-CIO

    Question 2. In your testimony, you highlight the buildout of entire 
new rail systems like ``California High-Speed Rail or the Texas Central 
Railway'' as an opportunity for construction sector job growth creating 
the infrastructure of the future.
    Since its inception, the California High-Speed Rail project has 
been the poster-child for waste--the estimated cost of the original 
project by the time of completion was $100 billion.
    This isn't just my take on the project--Governor Newsom stated, 
``Let's be real. The current project, as planned, would cost too much 
and take too long'' as he proposed to massively scale back the project.
    Likewise, the Texas Central Railway cost has gone from $10 billion 
to $30 billion and the company has flip-flopped on promises not to take 
taxpayer funds.
    Can you please explain why taxpayers should be on the hook for even 
more of these boondoggle high-speed rail projects?
    Answer. As stated in our testimony, it is our firm belief that bold 
investments in transformational infrastructure like high-speed rail 
networks are imperative for economic growth and global competitiveness. 
According to APTA, every $1 invested in high-high speed rail creates $4 
in economic benefits and additional studies have pointed to further 
economic, social and environmental benefits.
    While it is true that some of the first high-speed rail projects in 
the nation have experienced higher than projected costs, this cannot be 
used as justification for failing to develop the future of passenger 
rail and accepting aging, crumbling infrastructure. When Congress 
embarked on the extraordinarily ambitious effort to build our 
interstate system through the Federal-Aid Highway Act of 1956, Congress 
projected that the effort would cost $27 billion, based on a report 
from the U.S. Bureau of Public Roads. In actuality, Congress ultimately 
authorized $119 billion over several decades for interstate projects. 
Despite the ``overrun'' it would be difficult to argue that taxpayers 
have been unduly harmed by the program, or that the massive economic 
benefits reaped by connecting our cities and towns did not justify the 
cost. We are certainly supportive of responsible stewardship of 
taxpayer funds, but creating artificial fiscal constraints that 
guarantee our infrastructure is stranded in status quo is not the way 
forward.

    Questions from Hon. Greg Stanton to Tom G. Williams, Group Vice 
           President, Consumer Products, BNSF Railway Company

    Question 1. Will BNSF commit to expediting the approval of the 
necessary work in Flagstaff, Arizona, to allow the Federal Rio de Flag 
Flood Control Project to advance?
    Answer. BNSF strives to be a good neighbor to the communities 
through which the railroad operates and has been coordinating with the 
City of Flagstaff (City) and the U.S. Army Corps of Engineers(Corps) in 
support of the Rio de Flag Flood Control project since receiving 
technical details about the effort in October 2018.
    Safety is always BNSF's top priority and major train operations in 
proximity to heavy earthwork construction introduces significant risk 
requiring careful up front evaluation and planning along with constant 
monitoring of work to avoid the potential for a catastrophic incident.
    In addition to important safety considerations, the location of the 
flood control project on BNSF's Southern Transcon route--a critical 
transportation corridor and heavily used artery for rail freight and 
passenger trains moving between Los Angeles and Chicago--requires 
collaboration among all stakeholders to ensure the movement of trains 
is not interrupted.
    BNSF is focused on assisting project stakeholders on the best 
options to expedite construction of the project and avoid potential 
future unintended consequences and costly delays.

    Question 2. Based on the benefits to rail safety, operations, and 
flood mitigation BNSF will receive from the Rio de Flag Flood Control 
Project and the local Flagstaff projects, will BNSF work with me and 
the City of Flagstaff to evaluate options for reducing the mitigation 
costs associated with these projects?
    Answer. BNSF has demonstrated a commitment to cooperation and 
partnership with the City on this project through regular meetings and 
communications along with undertaking at the railroad's expense a 
$100,000 engineering analysis to understand how proposed and future 
anticipated public agency projects interact in this corridor.
    We believe this approach is helping all parties make informed 
decisions regarding project development to ensure safety and minimize 
costs and operational impact to our respective transportation systems.
    The effort to understand planned and future infrastructure 
initiatives in Flagstaff has already benefited stakeholders as a new 
project in the immediate area was recently introduced into the 
discussion. While adding an element of complexity that impacts our 
railroad, we believe a path forward can be established that 
accomplishes both projects while maintaining safe and reliable train 
operations.
    BNSF appreciates the partnership and communication between all 
participants during this process and believes that collective 
objectives can be accomplished and unnecessary costs mitigated by 
continuing to work together to determine an effective plan to implement 
the project.

                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
